<html>
<title> - JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF MULTIPLE VETERAN SERVICE ORGANIZATIONS (VSOs)</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF MULTIPLE VETERAN 
                      SERVICE ORGANIZATIONS (VSOs)

=======================================================================

                             JOINT HEARING


                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                               before the

                     U.S. HOUSE OF REPRESENTATIVES

                                and the

                              U.S. SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MARCH 6, 2013

                               __________

                            Serial No. 113-7

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
79-942                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>  


                     U.S. HOUSE OF REPRESENTATIVES,

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                              U.S. SENATE,

                     COMMITTEE ON VETERANS' AFFAIRS

                   BERNARD SANDERS, Vermont, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
Virginia                             Ranking Minority Member
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas
RICHARD BLUMENTHAL, Connecticut      DEAN HELLER, Nevada
MAZIE HIRONO, Hawaii

                     Steve Robinson, Staff Director

                 Lupe Wissel, Republican Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             March 6, 2013

                                                                   Page

Joint Hearing To Receive Legislative Presentation of Multiple 
  Veteran Service Organizations (VSOs)...........................     1

                           OPENING STATEMENTS

Chairman Jeff Miller, U.S. House of Representatives..............     1
    Prepared Statement of Chairman Miller........................    31
Senator Bernard Sanders, Chairman, U.S. Senate, Committee on 
  Veterans' Affairs..............................................     2
Hon. Michael H. Michaud, Ranking Minority Member, U.S. House of 
  Representatives................................................     4
    Prepared Statement of Hon. Michael H. Michaud................    32
Senator John Boozman, U.S. Senate................................    29

                               WITNESSES

Cleve Geer, National Commander, AMVETS...........................     5
    Prepared Statement of Mr. Geer...............................    32
John R. ``Doc'' McCauslin, CEO, Air Force Sergeants Association..     8
    Prepared Statement of Mr. McCauslin..........................    39
Bill Lawson, President, Paralyzed Veterans of America............    10
    Prepared Statement of Mr. Lawson.............................    50
Sheldon Ohren, National Commander, Jewish War Veterans...........    12
    Prepared Statement of Mr. Ohren..............................    57
Vivianne Cisneros Wersel, Au.D, Gold Star Wives..................    14
    Prepared Statement of Mrs. Wersel............................    67
Mark A. Kilgore, National President, Fleet Reserve Association...    16
    Prepared Statement of Mr. Kilgore............................    71
John Rowan, National President, Vietnam Veterans of America......    18
    Prepared Statement of Mr. Rowan..............................    81
Clyde Marsh, President, National Association of State Directors 
  of Veterans Affairs............................................    20
    Prepared Statement of Mr. Marsh..............................    89
MG Gus Hargett, President, National Guard Association of the 
  United States..................................................    21
    Prepared Statement of Mr. Hargett............................    94

                   MATERIALS SUBMITTED FOR THE RECORD

Anthony A. Wallis, Legislative Director/Director of Government 
  Affairs, Association of the United States Navy.................    97
LTG Guy C. Swan, USA Ret., Vice President, Association of the 
  United States Army.............................................   108
Joseph A. Vater, Jr., Esq. (PA), President, ADBC Memorial Society   111


 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF MULTIPLE VETERAN 
                      SERVICE ORGANIZATIONS (VSOs)

                        Wednesday, March 6, 2013

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 10:01 a.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller, 
[Chairman of the Committee] presiding.
    Present from House Committee on Veterans' Affairs: 
Representatives Miller, Bilirakis, Coffman, Cook, Michaud, 
Brownley, Ruiz, McLeod, O'Rourke, and Walz.
    Present from Senate Committee on Veterans' Affairs: 
Senators Sanders, and Boozman.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. This hearing will come to order.
    Good morning, everybody. Thank you for making the trip in. 
We appreciate you being here today.
    It is my distinct privilege to welcome you to the joint 
hearing of both the House and the Senate Veterans' Affairs 
Committees to receive presentation on the legislative agendas 
of AMVETS, the Air Force Sergeants Association, Paralyzed 
Veterans of America, Jewish War Veterans, Gold Star Wives, the 
Fleet Reserve, Vietnam Veterans of America, the National 
Association of State Directors of Veterans Affairs, and the 
National Guard Association of the United States.
    I think, everybody, that these groups represent what is 
truly great about the veteran community. The veterans and their 
families, no matter what generation, branch of service, or 
weather that may be out there, will continue to tend to the 
needs of their fellow Americans who have served.
    We are joined today here by Chairman Sanders, Ranking 
Member Michaud, and I believe Mr. Boozman will be here 
momentarily. I did see him earlier this morning. We have 
Committee Members from both sides of the House and the Senate.
    In the interest of time and the tradition in keeping with 
the tradition of this joint hearing, I would say that myself 
and the Senator as well as the Ranking Members will give 
opening statements and then we will ask all other Members if 
they would waive their statements for the record.
    Of course, there is always an opportunity to add those 
statements into the testimony today. Hearing no objection, so 
ordered.
    I want to welcome the members of each organization's 
auxiliary and thank you so much for your hard work in front and 
behind the scenes of your organization. We appreciate your 
service to our country and your service to your fellow 
veterans.
    I would like to ask if there is anybody here from Florida. 
If you are here from Florida--I know one, two, three. This is 
not snow, is it? You guys, this is nothing. You thought it was 
going to be something. We are glad to have all of you here with 
us today. On behalf of all your neighbors in the sunshine 
state, I want to thank you for your service and your sacrifice.
    These Committees with your help worked hard in the 112th 
Congress to ensure that the commitment America has made to its 
veterans remains strong. And, again, in the 113th Congress, we 
will look to you and your organizations to help address the 
problems facing America's veterans.
    Together we reduced veteran unemployment and created new 
programs aimed at providing veterans 21st century job skills. 
We have vigilantly conducted oversight into all areas of the 
Department of Veterans Affairs in order to keep our veterans 
safe and to maximize the care that they receive.
    And in these difficult fiscal times, there is no excuse for 
the waste of funds that have been allocated to taking care of 
America's veterans.
    While these Committees have worked hard to ensure that the 
sequester does not impact VA, we must continue to work to 
ensure that our Nation's veterans receive the care that they 
deserve and the care that they have earned.
    Given the uncertain budget process, Ranking Member Michaud 
and I introduced H.R. 813, Putting Veterans' Funding First Act 
of 2013. This bill will require Congress to fully fund the 
Department of Veterans Affairs' discretionary budget a year 
ahead of schedule, ensuring that all VA services will have 
timely and predictable funding.
    While every one of your organizations has a unique set of 
legislative priorities, you also share a common goal, one that 
we on these Committees share with you, and that is providing 
nothing short of the best for our veterans, their families, and 
their survivors who have shared in their sacrifice.
    In times like these, the work of organizations like yours 
has never been more important. And, again, I say thank you.
    I now yield five minutes to my friend and colleague from 
the Senate, Chairman Bernie Sanders, for his opening statement.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Chairman, thank you very much.
    And let me thank all of you who are here and thank you, not 
only for your service to our country and your sacrifices that 
you and your families made, but also the important role that 
your organizations are playing in helping us understand what 
the problems are out there so that we can address them.
    No matter how well intentioned we may be, and I think we 
have two very good Committees here, we cannot do our jobs 
unless we are continuously in touch from you and getting 
feedback from you because you are on the ground and your people 
are accessing services and know what the problems are.
    So thanks for being here and we continue to look forward to 
working with you.
    I think we all recognize that the VA does a lot of things 
well. It is easy to criticize, but they also do a lot of things 
well. In terms of patient satisfaction year after year, 
actually the VA is at the very top of the list in terms of how 
folks feel about the quality of health care that they are 
getting.
    I think a lot of that has to do with the very fine staff 
that we have all over this country providing services to our 
veterans. And many of those staff, of course, are veterans 
themselves.
    One of the issues that I am working hard on deals with 
budgetary matters. Chairman Miller raised appropriate enough 
our concern to make sure that the VA remains adequately funded 
now and into the future.
    There is an immediate concern that I want to mention to you 
and that is the so-called chained CPI. Some of you may be aware 
of it. Some of you may not. It is a theory being postulated, 
adopted by a number of people here in Congress, that says that 
the benefits that disabled veterans are getting have been too 
generous historically and that includes people on Social 
Security as well.
    The result if that so-called chained CPI were to go into 
effect would mean that veterans who started receiving VA 
disability benefits at age 30 would have their benefits reduced 
by $1,425 at age 45, $2,300 at age 55, and $3,200 at age 65.
    That is the reality. It does not get a lot of discussion. 
It is kind of an inside the beltway process. I hope that you 
will join me and many others in saying we do not balance the 
budget on the backs of disabled veterans.
    In general, there are a number of other issues that are out 
there. The claims backlog remains a very, very serious issue. 
We are going to be doing a hearing on this next week.
    The good news is that the VA is now actually processing a 
lot more claims than they used to. People do not know this. The 
bad news is that they are not keeping up with the claims that 
are coming in. A lot of that has to do with opening up the 
doors, appropriately so, for more people, Agent Orange and so 
forth.
    So we want the doors to remain open. We want veterans to be 
able to get the benefits to which they are entitled, but 
obviously, obviously, we need the VA to expedite their 
transformation process, their IT system so that in a timely 
way, veterans are getting all of the benefits that they are 
entitled to.
    Another issue out there that we will be working on is the 
tragedy of the high rate of suicides within the veterans' 
community. It is a complicated issue. I do not think anyone 
knows the magic answer. I do not think there is a magic bullet 
out there, but we have got to address this issue in a serious 
way and we intend to do that.
    Not unrelated to that, as you all know, is the very serious 
problems our young men and women are having coming back from 
Afghanistan and Iraq with PTSD and TBI, again very serious 
problems that the VA is making an intelligent effort to go 
forward, but we need to do more with that.
    One of my passions ever since I was in the House from 
Vermont is the issue of outreach. And that has to do with the 
fact that no matter how good a program may be, it is not any 
good at all if a veteran does not know about that program. And 
I suspect that there are millions of veterans out there who do 
not know about the benefits to which they are entitled and the 
services which they can access.
    One of the transformations in the military in recent years 
has been the fact that more and more women are now in the 
military. More and more women are now veterans. How do we make 
sure that we take care of the specific health care and other 
needs of women veterans? That is an issue that we are going to 
work on and that deals also with the issue of sexual trauma, et 
cetera, et cetera.
    So there is a lot on our table. And I believe that in a 
time of political contentiousness, and you all know what is 
going on here in Washington, I believe you are going to see 
these two Committees, the Committee in the House and the 
Committee in the Senate, work intelligently in a nonpartisan 
way to address the very, very serious issues facing our 
veterans.
    And we look forward to working with you and we thank you 
again so much for your contributions to our country.
    Thank you, Mr. Chairman.
    The Chairman. Now, the Ranking Member of the House 
Committee on Veterans' Affairs, Mike Michaud.
    Mike.

           OPENING STATEMENT OF HON. MICHAEL MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman.
    I welcome all the members and leadership of the Veteran 
Service Organizations attending today's joint hearing. I 
appreciate your coming here today. It is great to see so many 
important organizations here and I look forward to hearing your 
testimony.
    Our Nation has a ``sacred trust'' with all veterans and 
their families, a national promise to care for and stand up for 
those who have served and sacrificed, the VSOs represented here 
today help to ensure that the most important issues facing 
America's veterans and their families remain at the center of 
the national stage. You fulfill a vital role in the ``community 
of support'' America provides our national heroes. I appreciate 
that very much.
    Mr. Chairman, in order so we can get all the testimony in 
before the votes today, I would ask unanimous consent that the 
remainder of my remarks be entered into the record.
    The Chairman. Without objection.
    Mr. Michaud. Thank you.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix ---???]

    The Chairman. Thank you very much.
    The Chairman. And when Senator Boozman comes, I will ask 
him if he would do the same.
    The Senate has votes at 10:30 and the House is going to 
have votes at 11:00 or 11:30, but we will continue with the 
hearing.
    I want to first welcome everybody to the table this 
morning. The first witness that we are going to hear from, and 
I will introduce everybody and then we will proceed down, and 
my order may be a little bit out, but if you would just proceed 
afterwards, Cleve Geer, National Commander of AMVETS.
    Thank you, sir.
    Chief Master Sergeant, retired, United States Air Force, 
Doc McCauslin, Chief Executive Officer of the Air Force 
Sergeants Association.
    Doc, good to see you, sir.
    Bill Lawson, President of the Paralyzed Veterans of 
America. This is where we may have a little bit of a flip. Next 
is the Commander Sheldon Ohren of the Jewish War Veterans.
    Sir, welcome.
    Next we will hear from Dr. Vivianne Wersel of the Gold Star 
Wives. Next we would like to extend a special welcome to Mark 
Kilgore, National President of the Fleet Reserve Association. 
Mr. Kilgore is a resident of Pensacola which is in my district 
in the panhandle of Florida.
    Started off by saying go Seminoles this morning. I am a 
Florida Gator, so I have cut your time in half.
    Then we will hear from John Rowan, National President of 
Vietnam Veterans of America, then retired U.S. Navy Rear 
Admiral Clyde Marsh, President of the National Association of 
State Directors of Veterans Affairs, and then finally we will 
hear from Gus Hargett, Major General Gus Hargett, President of 
the National Guard Association of the United States.
    Thank you all for being with us today.
    And, Commander Geer, you are recognized for five minutes 
with your testimony.

 STATEMENTS OF CLEVE GEER, NATIONAL COMMANDER, AMVETS; JOHN R. 
``DOC'' MCCAUSLIN, CHIEF EXECUTIVE OFFICER, AIR FORCE SERGEANTS 
  ASSOCIATION; BILL LAWSON, PRESIDENT, PARALYZED VETERANS OF 
    AMERICA; SHELDON OHREN, NATIONAL COMMANDER, JEWISH WAR 
 VETERANS; VIVIANNE CISNEROS WERSEL, GOLD STAR WIVES; MARK A. 
 KILGORE, NATIONAL PRESIDENT, FLEET RESERVE ASSOCIATION; JOHN 
  ROWAN, NATIONAL PRESIDENT, VIETNAM VETERANS OF AMERICA; W. 
CLYDE MARSH, PRESIDENT, NATIONAL ASSOCIATION OF STATE DIRECTORS 
  OF VETERANS AFFAIRS; GUS HARGETT, PRESIDENT, NATIONAL GUARD 
                ASSOCIATION OF THE UNITED STATES

                    STATEMENT OF CLEVE GEER

    Mr. Geer. Thank you.
    Distinguished Committee Members, as the national commander 
of AMVETS, I am honored to share our concerns and comments on 
the issues under the purview of your Committees.
    Before I continue with my remarks, I would like to 
introduce the national president of the Ladies Auxiliary, 
Leslie Wunderle. But due to the weather conditions, she could 
not be here this morning. And I wish to thank you, Leslie.
    As the fourth largest veteran service organization in the 
country, as well as one of the authors of the Independent 
Budget, AMVETS has a proud history of assisting veterans and 
advocating for veterans' rights and benefits.
    Since 1944, AMVETS has been at the forefront of a public 
policy related to military and veteran issues and national 
defense.
    Today, with more than a decade of continuous war behind us, 
horrific budget cuts just beginning to be implemented, and the 
fiscal uncertainty on the horizon, our men and women in uniform 
have remained steadfast in their mission to defend this great 
Nation.
    This dedication and sacrifice must never be forgotten and 
the promises made to this Nation's heroes must be fully and 
faithfully honored.
    Our servicemembers and veterans do not deserve to be asked 
to continue making sacrifices. They do not deserve excuses or 
broken promises. They deserve nothing less than this Nation's 
full support. They have done the hard work on behalf of all 
Americans. Now is the time for all Americans to relieve them of 
their heavy burdens.
    Without the benefit of a draft, this extended period of war 
will leave behind a legacy of unmatched damage to the physical 
and mental well-being of our men and women in uniform.
    Like the bombed out cathedrals left behind after World War 
II, we need to ensure that our veterans are carefully supported 
while they are vulnerable and rebuild, returning to their full 
strength under the auspices of the VA.
    Today's military and veterans' communities are faced with 
many challenges and AMVETS is dedicated to aggressively 
attacking these issues on behalf of American veterans 
everywhere including veterans' unemployment, VA/DoD health care 
and mental health, veterans' benefits, women veterans and 
servicemembers, national guard and reserve servicemembers, 
homeless and rural veterans, POW, MIA recovery and 
identification and mortuary affairs.
    The problem of veteran unemployment should be seen as a 
national disgrace and veterans of every era are being 
negatively impacted by this ever-growing situation.
    In recognition of those who honorably fought to maintain 
the freedoms of those who stayed behind, we as a Nation cannot 
do enough to ensure that American veterans get the proper 
skills, certification, and education to be more competitive and 
successful in the civilian job market.
    AMVETS is fighting to ensure that veterans are not unfairly 
treated by employers, landlords, or educational institutions 
due to the often erroneous misconception that all veterans are 
dealing with the negative effects of mental or physical health 
issues will not fit into their corporate culture, do not have 
the necessary skills and experience to do the job.
    This issue of negative stereotyping is creating an 
unnecessary burden on our veterans and is also proving to be a 
significant barrier to employment.
    One of the chief responsibilities of the Department of 
Veterans Affairs, VA is providing primary specialty, physical, 
mental health care to American veterans.
    AMVETS calls on Congress and the Administration to ensure 
that VA health care programs are fully funded in a timely 
manner so that all eligible veterans are able to receive the 
medical services they are entitled to.
    Thanks to a decade plus dominated by American military 
actions in Iraq and Afghanistan, a new generation of veterans 
have become eligible for a wide range of Federal benefits. 
Securing those benefits should not involve a nightmare of red 
tape, inefficiency, confusion, or frustrations.
    We need to find ways to cut through the bureaucratic 
inertia and to strengthen efficiencies through coordination and 
stimulation on eliminating waste and redundancy across 
department and agency lines.
    AMVETS believes in the promise made to our military members 
and veterans when they agreed to leave their homes and families 
to go fight in our stead. It is crucial that veterans' benefits 
become a national priority and they must be viewed in the 
context of the service and sacrifices performed by our men and 
women in uniform.
    Among the most crucial issues facing women veterans today 
are homelessness, military sexual trauma, MST, and the lack of 
gender specific health care. These three issues are the factors 
of humiliation and deprivation for women veterans.
    How can we as a Nation allow some of our most vulnerable 
veterans, many of whom also have children, to be living on the 
streets of our cities? It is not right that a woman should have 
to fear for her personal safety and not only from foreign 
enemies but from her comrades in arms simply because she made a 
conscious decision to serve in the military.
    AMVETS fully supports H.R. 679, the Honor America's Guard 
and Reserve Retirees Act, introduced for the third year in a 
row by Representative Walz which would grant veteran status for 
national guard and reserve members with 20 years or more in 
service.
    This cost-neutral bill would not restore any new or 
unearned benefits. It will simply provide--I understand my time 
is about gone. I appreciate being able to come before you this 
morning and I appreciate being here. Thank you.
    The Chairman. Thank you, sir. And your complete statement 
will be entered into the record. But if you just have a few 
more comments, you are welcome to finish.
    Mr. Geer. I thank you for your time this morning and the 
consideration you have given us to come before you to express 
our views and I ask for your continuous support of our 
veterans. Thank you.

    [The prepared statement of Cleve Geer appears in the 
Appendix]

    The Chairman. Thank you, sir, very much.
    Doc.

             STATEMENT OF JOHN R. ``DOC'' MCCAUSLIN

    Sergeant McCauslin. Chairman Sanders, Chairman Miller, and 
Members of these Committees, good morning. On behalf of our 
110,000 plus members of the Air Force Sergeants Association, I 
thank you for this opportunity to offer our views on the fiscal 
year 2014 priorities for the VA.
    Addressing that budget, the Administration has not yet 
submitted its budget request, so, therefore, we cannot comment 
on the proposal at this time. However, I want to make it clear 
that AFSA concurs with the funding levels recommended by the 
Independent Budget.
    We are particularly grateful with the recent establishment 
of advanced appropriations authority for VA health care 
funding. We strongly support legislation introduced by Chairman 
Miller and Ranking Member Michaud to fully fund the 
discretionary budget of the VA a year in advance.
    H.R. 813 would make it easier for the VA to plan for their 
key investments and ensure that funding for veterans' programs 
do not become a casualty of the legislative paralysis we have 
seen here in Washington lately.
    Regarding sequestration, like our partner associations 
represented here today, we are very concerned how this policy 
will affect the availability of veterans' benefits. We were 
relieved with OMB's announcement that the VA's budget is exempt 
from sequestration, but it may take time to fully realize the 
true impact of their programs.
    The Administration cannot say with absolute certainty that 
veterans' benefits will not be affected because many of VA's 
efforts are closely tied to those of other Federal agencies who 
are subject to that sequestration.
    For instance, cuts to the Department of Housing and Urban 
Development could result in a reduction of vouchers that are 
used to house homeless veterans. Secretary Shinseki and the VA 
have made tremendous progress in lowering the number of 
homeless veterans on our streets, so let's not undermine those 
efforts.
    Regarding the integrated electronic health record, we, too, 
were very disappointed with DoD and VA's recent decision to 
abandon an integrated electronic health record and retain their 
respective systems, and they wasted $1 billion of taxpayers' 
money.
    The issue of suicide is a challenging issue facing the VA. 
We were very grateful for Congress to include suicide 
prevention and resilience provisions in the fiscal year 2013 
NDAA.
    We also thank Senator Patty Murray for her tireless efforts 
on this issue.
    However, the provisions in that Mental Healthcare ACCESS 
Act of 2012 which were adopted for the DoD were not considered 
for the VA health system and nor has action been taken to fix 
this.
    The subject of women veterans is noteworthy. We applaud the 
Committees for championing women veteran issues in past years. 
However, the unique health care of women veterans must be 
addressed to ensure that VA program developments match that 
shifting demographic.
    The disability claims and backlog is still with us. When I 
addressed your Committees last March, there were 1.4 million 
total claims pending. Today that figure is closer to two 
million. More money and people certainly did not fix that 
issue.
    To their credit, VA processed over one million claims last 
year, but it has been unable to catch up with the rising 
demand.
    AFSA supports a comprehensive, integrated strategy for 
improving the claims management system with primary emphasis on 
quality decisions at the initial stage of their process to save 
reworks and delay.
    As a biostatistician, I know the VA can certainly do 
better.
    Each of our 50 states has a state veterans' home and their 
program has proven itself to be the most cost-effective source 
of high-quality and long-term health care services for veterans 
that need skilled nursing, domiciliary, adult day health care, 
and other specialized programs. The cost of providing care at 
these facilities is roughly half of what it costs our VA.
    Last year, the Committees were instrumental in passing 
legislation by Ranking Member Michaud and Chairman Miller that 
allowed the VA to enter into programs with state homes. We 
believe that additional savings can be achieved by allowing 
similar reimbursement of adult day health care services. I 
recommend your Committees look into this further and get the VA 
to publish their regulation that has taken them nearly four 
years to date without a release.
    Speaking on veterans' preference, we need a common-sense 
approach to our current veterans' preference point system. 
Wounded warriors aside, if a military member stood before you 
this morning without an arm as a result of their military 
service, why in heaven's name do they need to fill out the 
paperwork to prove they are a disabled vet and get their ten 
points' preference? Surely there is a better way. How about 
concurrent receipt?
    Thanks to Congressman Gus Bilirakis for his continued 
persistence in this area to compensate all eligible disabled 
veterans.
    Who is a veteran? AFSA supports full veteran status for 
reserve component members with 20 years or more service who do 
not quality for veteran status under current law.
    The House passed H.R. 1025 which was introduced by 
Representative Tim Walz last year, but the Senate failed to 
move forward on Senator Mark Pryor's companion bill, S.491. 
Representative Walz has already reintroduced his legislation as 
H.R. 679. Passing it will not cost a penny. It simply bestows 
upon them the honorarium of being called a veteran.
    We applaud the recent passage of legislation that 
authorizes the restoration of the veterans' cemetery at the 
former Clark Air Base in the Philippines and places it under 
the care of the American Battlefields Monuments Commission.
    I want to personally thank Chairman Miller and Congressman 
Bilirakis for visiting the Clark Cemetery recently to help get 
it up to American standards of dignity.
    Related to taking care of military retirees and their 
survivors, we want to thank Congressman Joe Wilson for his H.R. 
32 with 70 co-sponsors, for his legislation to repeal the SBP/
DIC offset. I am told Senator Nelson plans to introduce a 
Senate companion version very soon.
    Last, but not least, a proposal called the chained CPI has 
been floated in Congress to change how the consumer price index 
is calculated. If adopted, it would result in significant cuts 
for payments to our senior citizens, military retirees, 
disabled veterans, and their survivors.
    I thank you personally, Chairman Sanders, for leading 
strong opposition to this unconscionable plan.
    Chairman Sanders, Chairman Miller, thanks again for this 
opportunity. We sincerely believe that the work of the House 
and Senate Veterans' Affairs Committee is among the most 
important.
    On behalf of AFSA members, we appreciate your efforts and, 
as always, we are ready to support you in matters of mutual 
concern.

    [The prepared statement of John R. McCauslin appears in the 
Appendix]

    The Chairman. Thank you very much, Doc.
    Also, for the record, Mr. Michaud and Mr. Walz were both 
with Congressman Bilirakis and I at the cemetery at Clark as 
well.
    Mr. Ohren, are you next or Mr. Lawson? I do not know which 
one of you wants to go next, but----
    Mr. Lawson. Sir, the reason for the flipflop was because 
there is----
    The Chairman. Got you. Who wants to go next?
    Mr. Lawson. --the leg. I could not get up to the table, so, 
anyway----
    The Chairman. Mr. Lawson, you are recognized.
    Mr. Lawson. I will go. Thank you, sir.

                    STATEMENT OF BILL LAWSON

    Mr. Lawson. Chairman Miller, Chairman Sanders, and Members 
of the Committees, I appreciate the opportunity to present the 
legislative priorities for 2013 of the Paralyzed Veterans of 
America.
    It is important to note that funding issues and ongoing 
concerns with the claims process generally supersede lesser 
issues. That being said, I will limit my remarks today to some 
specific issues that impact Paralyzed Veterans' members.
    We have developed long-standing partnerships with other 
veteran service organizations and are proud to have recently 
released the 27th edition of the Independent Budget.
    For details on funding recommendations for VA funding and 
specifically for veterans' health care, I would encourage you 
and your staffs to review the fiscal year 2014 Independent 
Budget.
    We cannot emphasize enough the importance of ensuring that 
sufficient, timely, and predictable funding is provided to the 
VA.
    We anxiously await the budget submission to be released by 
the Administration that will include funding recommendations 
for VA programs for fiscal year 2014 and the advanced 
appropriations for fiscal year 2015.
    Once again this year, Congress failed to fully complete the 
appropriations process, instead choosing to fund the Federal 
government through a six-month continuing resolution. This 
business as usual for funding the Federal government is simply 
unacceptable.
    For two fiscal years in a row, the Administration's 
recommended funding levels were not changed in any appreciable 
way and Congress simply signed off on those recommendations 
without thorough analysis.
    As Congress completes work on appropriations for this year, 
I cannot emphasize enough that sufficient funding must be 
provided for VA programs.
    The VA specialized services are incomparable resources that 
often cannot be duplicated in the private sector. However, 
these services are often expensive and are severely threatened 
by cost-cutting measures and the drive toward achieving 
management efficiencies.
    Paralyzed Veterans strongly believe that VA remains the 
best option for veterans seeking health care services. 
Specialized services such as spinal cord injury care which our 
members require are part of the core mission and responsibility 
of the VA.
    These services were initially developed to care for the 
unique health care needs of veterans. The provision of 
specialized services is vital to maintaining the viability of a 
VA health care system.
    With growing pressure to allow veterans to seek care 
outside of the VA, the VA faces the distinct possibility that 
the critical mass of patients needed to keep all services 
viable could significantly decline. If primary care services 
decline, then specialized care will be diminished.
    Paralyzed Veterans is very concerned with the recent 
changes that have been made to the VA prosthetics and sensory 
aid services. These changes have resulted in delayed delivery 
of prosthetic devices, diminishing of quality service delivery 
for disabled veterans, and prolonged hospital stays for 
veterans waiting for prosthetic equipment.
    We have heard complaints from many of our members who have 
been negatively impacted by this change. One paralyzed veteran 
was forced to spend nearly a month longer in the hospital just 
because he had to wait for approval for some adaptive housing 
modifications. Leaving him in the hospital put him at higher 
risk for contracting other illnesses. We just cannot accept 
that.
    It is time for Congress or Committees to take an active 
role in the oversight of these prosthetic changes. Some VISNs 
are trying to make these changes work to best benefit veterans 
through a local initiative and freelancing.
    It should be troubling to everyone here that there is not a 
national standard in place to ensure that this program works 
the way it is supposed to work.
    In the end, many of the concerns that I have raised reflect 
the belief that this is not one VA. While our ears hear one VA, 
our eyes and our experiences show us 21 individual VA systems 
masquerading as veterans integrated service networks or better 
known as VISNs.
    The VISN model of health care was intended to create 
strategic alliances among VA medical centers, clinics, and 
other sites, sharing agreements with other government providers 
and other such relationships.
    Instead we see VISNs being run like autonomous entities in 
a fragmented system with inconsistent policies and budgetary 
turf battles that leave many veterans faced with delayed or 
denied access to care and prosthetic items.
    In fact, Paralyzed Veterans' service officers had to 
intervene when one of our members, a 94-year-old paralyzed 
marine who fought in World War II, endured a longer inpatient 
stay because two VISNs could not decide which VISN would pay 
for the Hoyer lift and commode chair that he needed to live 
independently.
    In the one VA world, it is not his burden. But in this real 
instance, he was the unfortunate one caught in the middle of 
two independently operating VISNs, thus defying any notion of 
there being one VA.
    On balance, VA is fortunate to have good people who will 
adhere to the principles that veterans come before cost 
considerations and policies. Even in times of national economic 
difficulty and profound organizational transformation, our 
Nation's security is still preserved by the men and women who 
take the oath and believe in the country's promise to care for 
him or her should they suffer injury or disease.
    But until we have 21 VISNs that operate with a common 
purpose, under common policies, variability between VISNs will 
create even more gaps in which the most vulnerable veterans 
will fall. We hear one VA. We would like to see one VA.
    Chairman Miller, Chairman Sanders, I would like to thank 
you once again for the opportunity to testify today, and I 
would be happy to answer any questions you may have.

    [The prepared statement of Bill Lawson appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Lawson.
    Senator Sanders apologizes, but they have called a vote 
over on the Senate side. So he asked that I please pass his 
apologies on to the witnesses here.
    Mr. Ohren, you are recognized for your testimony, sir.

                   STATEMENT OF SHELDON OHREN

    Mr. Ohren. Thank you.
    Chairman Sanders, Chairman Miller, and Members of the 
Senate and House Committees on Veterans' Affairs, my fellow 
veterans, and friends, I am Sheldon Ohren, the National 
Commander of the Jewish War Veterans.
    Senator Sanders, it was a singular honor for JWV to present 
our prestigious JWV Medal of Merit to you at our congressional 
reception during our days on Capitol Hill. It was equally 
rewarding to JWV to have so many distinguished guests 
participate with us.
    Mr. Chairmen, on Friday, March 15th, we at JWV will 
celebrate our 117th birthday. For all of these 117 years, JWV 
has advocated a strong national defense and just and fair 
recognition and compensation for veterans.
    The Jewish War Veterans represents a proud tradition of 
patriotism and service to the United States of America.
    Now I would just like to enter in maybe a definition of a 
veteran. It might be stated as follows: A veteran is someone 
who at one point in his or her life wrote a blank check and 
made it payable to the United States of America for an amount 
up to and including my life.
    Also, George Washington said at one time the willingness 
with which our young people are likely to serve in any war no 
matter how justified may be directly proportional to how they 
perceive veterans of early wars were treated and appreciated by 
our Nation.
    The Military Coalition, JWV continues to be a proud member 
and active participant of the Military Coalition. Past National 
Commander Robert Zweiman, JWV's National Chairman, serves on 
the Board of Directors of the Military Coalition and, again, 
our Executive Director, Colonel Herb Rosenbleeth, army retired, 
continues to serve as the President of the Military Coalition 
and co-chair of the coalition's Membership and Nomination 
Committee.
    The Veterans Affairs Department claims backlog recently 
edged above the 900,000 mark with 608,365, that is 67.6 
percent, stuck in the system more than 125 days. The VA 
reported that total disability claims hit 900,121 as of 
December 24th, 2012. That is up 24,725, 2.7 percent from the 
backlog that existed at the start of the calendar year on 
January 3rd, 2012.
    America's veterans need to have more confidence in the work 
done by the VA.
    Blind veterans are of extra concern to JWV. The large 
number of IED explosions in Iraq and Afghanistan have led to a 
huge number of eye injuries and blinded veterans. In fact, 
orbital blasts, globe injuries, optic nerve injuries, and 
retinal injuries have been all too common. JWV strongly urges 
Congress to ensure adequate funding to care for thousands of 
veterans with eye injuries.
    JWV applauds the VA for processing nearly 230,000 claims 
during June 2012 that involve the three newest Agent Orange 
related conditions. The recent expansion of conditions presumed 
to be linked to Agent Orange exposure certainly created 
additional work for VA which already faces a heavy claims 
backlog.
    But VA Secretary Eric Shinseki argued correctly that it was 
the right thing to do. Decisions about treating and 
compensating veterans exposed to deadly toxins must never be 
motivated by whether or not the road will be challenging or 
costly, but whether or not the veteran has suffered and 
requires treatment because of the exposure.
    JWV strongly supports the establishment of a unified policy 
to deal with the consequences of exposure to hazardous 
materials in the military.
    VA has promised to devote resources necessary to end 
veterans' homelessness by 2015. To formally implement that 
pledge, VA is going to have to work closely with Congress to 
continue making responsible investments in affordable housing 
and supportive service programs to help veterans and their 
families.
    Current estimates put the number of homeless veterans at 
approximately 76,000 on any given night down from the 2011 
numbers of 131,000 or more.
    JWV recommends providing funding for a broad range of 
appropriate and effective interventions including appropriation 
of funds for supportive services for veterans' families 
programs. Supportive SSVF funds have been used effectively by 
community organizations to prevent many veterans from becoming 
homeless and to quickly assist veterans who need nothing more 
than short-term rental assistance and limited case management 
to get back on their feet.
    SSVF funds can also be used for employment services, 
utility assistance, child care costs, and other housing related 
expenses.
    Congressional support for the homeless veterans grant and 
per diem transitional housing program, this program provides 
short-term housing help to homeless veterans allowing them to 
get connected with jobs, support services, and more permanent 
housing, ultimately allowing them to become self-sufficient.
    Promising new models for using grant and per diem funds and 
allowing veterans to remain in our GPD housing units once 
support from the program ends and new programs focused on women 
veterans to help ensure that GPD continues to meet the ever-
changing needs of returning veterans and their families.
    Congress should provide 10,000 new HUD-VASH vouchers 
designed to serve homeless veterans and many of their families 
who need long-term housing, intensive care, management and 
supportive services.
    Since 2008, 37,975 vouchers have been awarded contributing 
substantially to major reductions in veteran homelessness.
    Chairman Sanders, Chairman Miller, our great Nation must 
care for its veterans. Our country must therefore pay for the 
costs involved.
    At our national conventions, our members work diligently to 
develop our legislative priorities. Our dedicated resolutions 
chairman, Past National Commander Michael Berman, works very 
diligently to develop our resolutions and to bring them before 
our convention delegates.
    Following further fine tuning by our convention delegates, 
our resolutions are finalized and become our legislative 
priorities for the coming year.
    We thank you for the opportunity to present them today. 
Thank you again.

    [The prepared statement of Sheldon Ohren appears in the 
Appendix]

    The Chairman. Thank you very much, sir.
    Dr. Wersel.

             STATEMENT OF VIVIANNE CISNEROS WERSEL

    Ms. Wersel. The willingness of America's veterans to 
sacrifice for our country has earned them our lasting 
gratitude, a quote by Congressman Jeff Miller.
    Chairman Miller, Members of the Committees, thank you for 
the opportunity to testify on behalf of Gold Star Wives of 
America.
    I am Vivianne Wersel, the widow of Lieutenant Colonel Rich 
Wersel, United States Marine Corps, who died suddenly in 2005, 
a week after returning from his second tour of duty in Iraq.
    The issue that affects all our members is the dependency 
and indemnity compensation, otherwise known as the DIC. The DIC 
is paid to the survivors of servicemembers and veterans for 
their early death on active duty or as a result of a service-
connected cause, payment based on rank.
    Later Congress changed the rank base to a flat rate. Today 
this calculation of DIC is approximately 43 percent of the VA 
disability compensation received by veterans rated with a 100 
percent disability.
    Survivor benefits for other Federal programs use a 
different standard of measurement, 50 percent, not 43 percent.
    GSW seeks clarity by using 50 percent of the 100 percent 
disabled veterans compensation to calculate the DIC benefit.
    Our second legislative issue is the removal of the DIC 
dollar-for-dollar offset of the survivor benefit plan, SBP. We 
have been told that this Committee would have some jurisdiction 
with this issue because Section 5304 in Title 38 needs to be 
deleted or changed if SBP is restored to DIC recipients.
    H.R. 32, the Military Surviving Spouse Equity Act, if 
enacted will remove the dollar-for-dollar offset and would 
allow a surviving spouse to receive both SBP and DIC. The SBP 
and DIC are two different benefit programs for different 
purposes paid by different government departments.
    For this example, I am going to use a visual. This is for 
the majority of our members. If a surviving spouse is eligible 
for both the DIC and the SBP, there is a dollar-for-dollar 
offset. So the SBP completely goes away and all she has is her 
DIC.
    However, if the surviving spouse has that offset and she is 
57 years old or older and she remarries, she receives her DIC 
and her SBP. All she has to do is remarry to receive her SBP. 
Why should we have to remarry to receive our benefits?
    Please refer to our testimony because we have other 
beneficiary classifications and Jeannette Panini's excellent 
article from USA Today.
    In 2004, Congress allowed concurrent receipt for 100 
percent disabled retirees. Our husbands were 100 percent 
disabled and death should not negate concurrent receipt for 
both benefits. We should be allowed to receive benefits they 
earned.
    In 2007, the Veterans Disability Benefit Commission 
recommended that surviving spouses of military servicemembers 
be allowed concurrent receipt of full SBP and DIC.
    GSW's third legislative agenda is improvements of Chapter 
35 education benefits. The cost of college education has 
increased substantially in recent years. Chapter 35 benefits do 
not come close to covering the cost of tuition, books, fees, 
and living expenses.
    Most Federal education programs have had recent increases 
and changes, but Chapter 35 education benefits have been 
increased only by COLAs.
    Recent proposed legislation requires states to provide in-
state tuition rates for veterans using Federal education 
benefits. Surviving spouses and dependents of Chapter 35 
education benefits are not included in this legislation.
    It is the fiduciary responsibility of Congress to ensure 
that all categories of veterans' education benefits are spent 
wisely and such protections should be extended to all VA 
education chapters.
    GSW recommends other issues to be addressed such as the 
deferment of the tuition until the student receives payment of 
the education benefit as well as allowing all surviving spouses 
an unlimited time to use their education benefit.
    Year after year, Members of this Committee have championed 
the well-being of the deceased veteran's family and GSW is 
grateful for your leadership. We ask you to make us a priority 
to find funding for legislative issues we have been told are 
deemed fixable as soon as money is found.
    Our issues are veterans' issues. Because there is the 
deceased veteran who earned the benefit as a 100 percent 
disabled veteran, that should not disqualify his survivors from 
concurrent receipt of the benefits he earned.
    Our military heroes cannot be here today to ask you why, 
why the benefits they earned or paid for are not recognized, 
honored, and fulfilled along with their fellow comrades who are 
100 percent disabled. Our spouses died because of their 
willingness to sacrifice for their country, but the widows 
should not have to lead the battle for equity.
    I would like to thank Senator Burr for introducing Gold 
Star Wives Day, to make it possible for April 5th to be Gold 
Star Wives Day.
    And I thank the Committee for allowing me to testify today 
and I am here to answer any questions.

    [The prepared statement of Vivianne Wersel appears in the 
Appendix]

    The Chairman. Thank you very much.
    Mr. Kilgore, you are recognized.

                  STATEMENT OF MARK A. KILGORE

    Mr. Kilgore. Chairman Miller, Representative Michaud, and 
Members of both Committees, good morning and thank you for the 
opportunity to share FRA's views on veterans' issues.
    First and foremost, our shipmates are concerned about the 
impact of sequestration on VA programs and the outlook for 
future VA budgets.
    Our thank you to Chairman Miller and former Chairwoman 
Murray for ensuring that many of the VA benefits and programs 
have been protected from budget cuts associated with mandatory 
spending reductions.
    With that in mind, advanced funding for VA health care 
programs must continue and other VA programs must also be 
protected from future automatic cuts.
    The growing VA claims backlog continues to be a major 
concern for our members. Even with significant additional 
resources, as of last month, there are nearly 900,000 
disability claims pending with 70 percent of those pending 125 
days or longer and 317,000 of those are first-time claims.
    The Recovering Warrior Task Force believes that the 66,000 
returning troops from Afghanistan coupled with the downsizing 
of the military will overwhelm the claims systems causing a 
tsunami of new claims resulting in more delays and more 
challenges.
    As I speak, there are hundreds of active duty personnel 
throughout the world standing at xerox machines making copies 
of their medical records to submit to the VA. That is time 
lost, paper wasted.
    The integrated electronic health record project offered 
great promise. However, it was recently announced that the 
program is being downgraded due to budget pressures and higher 
costs. This is not good.
    FRA shares concern about this change to a promising program 
that could improve care to our veterans and help advance the 
goal of a truly seamless transition from DoD to the VA.
    I am here today to put a face on this concern. I am both a 
VA priority group 1 and a TRICARE prime user. In Pensacola, 
thanks to Chairman Miller, the two facilities are collocated 
and share treatment of active duty and veterans alike. However, 
they do not share access to the health records.
    Following my annual VA physical at the end of December 
2011, I was diagnosed with bladder cancer. Actually, it was a 
year ago today. Knowing the availability of immediate access to 
the Navy hospital, I went there. They provided me great 
treatment.
    After my recovery, I made a follow-up VA appointment to get 
paper copies of my six months worth of treatment and my VA 
doctor spent 25 minutes of my 30-minute appointment speaking 
about the need for electronic medical records as the VA now 
would have to scan my records into their computers.
    This past December, I was privileged to be in Hawaii to 
commemorate the 61st anniversary of the Pearl Harbor attack. 
Unfortunately, I was admitted to Tripler Army Medical Center 
with a perforated colon.
    My treatment was exemplary and made even better by the fact 
that the Army was able to access my health record at Naval 
Hospital Pensacola which prevented an unnecessary and very 
serious surgery they initially wanted to perform.
    One concern during my entire treatment process was being 
continually asked about being on Medicare. When I told my 
doctors no, they all said good. I realize the Doc Fix 
Reimbursement Rate program is not under your jurisdiction. 
However, I wanted you to know that that is a real concern 
outside the beltway.
    So much for me. Another priority issue is expanding 
presumption for blue water veterans exposed to Agent Orange 
during the Vietnam War. We urge support for legislation 
addressing this issue.
    We strongly support joint DoD/VA efforts to invest in 
research to improve diagnosis and treatment of both post-
traumatic stress and traumatic brain injury.
    Our other issues are addressed in our complete statement 
including authorization of Medicare subvention for VA, suicide 
prevention, improving care for women veterans, and restarting 
priority group 8 veteran enrollment.
    Thank you again for braving this bad weather for the 
opportunity to offer recommendations and thank you for your 
efforts on behalf of our veterans and all you do every day. I 
am pleased to answer questions.

    [The prepared statement of Mark A. Kilgore appears in the 
Appendix]

    The Chairman. Thank you very much.
    Mr. Rowan.

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Good morning. Chairman Miller, Ranking Member 
Michaud, and Members of the Committees, particularly the new 
Members, we welcome you to this wonderful Committee and to the 
work that they do on behalf of veterans.
    I would right off the bat like to tell Senator Sanders who 
unfortunately had to leave that we have gone on record in 
opposition to the chained CPI proposal.
    This is now my eighth year of testimony before these 
Committees. Unlike some of my colleagues, I get to hang around 
for a while.
    The claims issue obviously everybody talks about and we 
know the backlog and the problems about it.
    We are a little bit optimistic with the implementation of 
the Veterans Benefits Management System, particularly with its 
open architecture and the fact that they actually are talking 
to the users. On a weekly basis, they are talking to the folks 
in the field who actually use this thing and are making patches 
both weekly and on monthly updates. And the system seems to be 
hopefully getting better.
    One thing that has not been talked about very much, 
although it was mentioned by, I believe, one of my colleagues, 
is the non-rating items. The simple clerical addition of adding 
a spouse or a child to your benefits so that you can get the 
extra dollars that comes along with dependents seems to take 
forever.
    I mean, my director of veterans' benefits who is a 100 
percent disabled veteran had a baby seven months ago and 
immediately obviously applied for adding the dependent. They 
still have yet to get that straightened out. That is taking way 
too long.
    The area of mental health, obviously there are all kinds of 
issues going on with that, that we are very concerned about. 
One of the things that concerns us, however, is the management 
within the VA. There are three management positions, two of 
which are already vacant and one that is about to be vacant.
    The chief consultant for mental health, the VET center 
chief have retired, both of them, and Matt Friedman, the 
Director of the National Center for PTSD, is leaving soon.
    We are concerned that the VSOs need to be consulted about 
their replacements and that the VA should create a search 
committee involving the veteran service organizations.
    And we are asking the Senate and House for a four-corners 
letter to the VA to open up the recruitment for these 
positions. If VA does not do so, we ask the Congress to pass a 
law mandating this. The VA needs to listen to the VSOs on 
mental health issues.
    With regards to suicides, we are all appalled at the 
suicide rate inside the military. However, most people do not 
realize it is us older veterans who are committing suicide. 
Seventy percent of the veterans, 70.3 percent of the veterans 
who commit suicide are over the age of 50. That is us, the 
Vietnam era and older, frankly. Even the really older veterans 
unfortunately are still committing suicide.
    So while the VA obviously has to focus on what is going on 
with the younger veterans returning and dealing with their PTSD 
and other issues, they need to talk about the older veterans as 
well, many of whom PTSD is now coming back to haunt them now 
that they have retired.
    We also are coming out with a new program this year to deal 
with the toxic legacy not only of Vietnam but even of the 
present day. We are proposing a new law called the Veterans 
Family Prevention, Health, Maintenance, and Research Act of 
2013 and we are hoping to get some sponsors for it.
    Among the many things that we would hope to see included in 
this, obviously the whole issue of the medical records and the 
health records. We think, frankly, that the DoD should just 
adopt VistA and get it over with and stop wasting money and 
time.
    We need a database registry within the Veterans Health 
Administration like Hep C the registry to talk about all the 
different toxic exposures not only here but stateside as well. 
I mean, we have seen the problems with many of the bases in the 
United States who have all kinds of issues going on, not the 
least of which is Camp Lejeune.
    A national center for the treatment of health conditions 
suffered by the progeny of veterans exposed to toxic substance 
and an advisory committee to oversee that, and an office of 
extramural research. We need more research, period, on all of 
the exposures.
    I talked to somebody once about all of the issues regarding 
Agent Orange and what it really boiled down to is occupational 
medicine. If somebody told you I was a coal miner, they would 
say, fine, let's check out your lungs.
    Well, if I tell you I am a Vietnam veteran, they should 
check out a whole lot more than just my lungs. And if you are a 
new veteran coming back from Iraq and Afghanistan, they need 
all kinds of things checked out as well. And, again, we think 
an advisory committee to oversee doing that.
    And also, the idea of a coordinated national education and 
outreach campaign for all veterans to tell them what is going 
on with them, what they have been exposed to, and what they are 
entitled to by the VA.
    And just an aside issue on that, spina bifida is the only 
disease of children that the VA has accepted as being Agent 
Orange related. They were guaranteed by the VA in official 
testimony in front of your Committees that the children of 
Vietnam vets with spina bifida would receive all kinds of 
custodial care. The VA has reneged on that and we think they 
should be held accountable for that.
    And as an aside, frankly, we are urging everybody to be 
sworn under oath. I am willing to swear and you will take all 
my testimony under oath. And I think the VA should be asked to 
do the same and maybe sometimes we will not get this 
conflicting testimony.
    Last, but not least, is the issue of accountability. We 
have thrown millions at the VA, billions, and that is fine. 
They need it. But now they need to be held accountable for what 
it is they are doing with all those billions.
    And it was interesting my colleague who talked about the 
issue of VistA and their little fiefdoms out there. That whole 
reorganization may need to be revisited.
    And I look forward to answering any questions you may have. 
Obviously my written testimony contains a significant amount of 
more issues than these. Thank you.

    [The prepared statement of John Rowan appears in the 
Appendix]

    The Chairman. Thank you very much.
    Admiral Marsh.

                  STATEMENT OF W. CLYDE MARSH

    Admiral Marsh. Chairman Miller, Chairman Sanders, 
distinguished Members of the Committee, as president of the 
National Association of State Directors, I am honored to 
present comments on their behalf.
    We are the second largest provider of services to veterans 
and our rolls continue to grow. Collectively, states contribute 
more than $6 billion each year in support of our Nation's 
veterans and their family members even in the face of 
constrained budgets.
    We are serving a new generation of veterans from a decade 
of war who must receive medical care, establishment of 
benefits, special assistance transitioning to civilian life 
after honorable service.
    Full funding support from Congress will provide resources 
to address VA's three major areas of emphasis, access to VA, 
eliminating the backlogs and claims processing, and 
establishing or at least eliminating homelessness among our 
veterans.
    NASDVA strongly supports increased efforts for outreach to 
veterans. Many areas of our country are still under-served. 
NASDVA urges the implementation of a grant program that will 
allow VA to partner with the states to perform outreach at the 
local level and development of a comprehensive database.
    NASDVA supports the recommendation of the Veterans Benefits 
Disability Commission to update the VA rating schedule, realign 
DoD and VA process for rating disabilities, and develop new 
criteria specific to rating post-traumatic stress disorder.
    We applaud the efforts of VA to address particular issues 
of health care for women veterans, military sexual trauma, and 
veterans residing in rural areas. Future health care funding is 
crucial to expand outreach and access to include telehealth, 
telehome health, and telemedicine.
    We shared a concern about the mental health of service 
personnel and veterans, especially the number of suicides and 
long-term effects of PTSD.
    We appreciate the proactive steps such as suicide hotline 
and addressing the underlying causes for suicide. However, more 
still needs to be done since suicide rates exceed current 
combat casualties.
    NASDVA recommends an in-depth evaluation of long-term care 
and mental health services to include gap analysis, identifying 
where services are lacking. Future studies should include 
consultation with state directors.
    NASDVA recommends a greater role for state VA and overall 
efforts to manage and administer claims processing. 
Collectively, we have the capacity and capability to assist the 
Veterans Benefits Administration.
    Access to VBA data systems and uniform paperless claims 
software will enhance service officer integration in the 
delivery of benefits and services to veterans.
    NASDVA strongly supports VBA's development of the 
electronics claim processing system.
    We continue to be concerned that the census does not count 
veterans or disabled veterans other than through the America's 
Community Survey which is only a ten-percent sample of the 
population and not a hard count. We urge Congress to mandate 
counting veterans in the next census.
    With the important passage of the Post-9/11 GI Bill, the 
mission of state approving agencies were expanded with more 
compliance requirements, but no additional resources were 
provided.
    We are in agreement with the veteran service organizations' 
support of the distinguished Warfare Medal, but the order of 
precedent should not be above the Bronze Star Medal or the 
Purple Heart.
    We recommend that the fiscal year 2014 budget proposal of 
$46 million for state cemetery grants programs be increased to 
at least $50 million to address the pending construction 
grants.
    As partners with the VA, we are focusing on addressing the 
multiple causes of veterans' homelessness such as medical 
issues both mental and physical, legal issues, limited job 
skills and work history.
    It is vital to continue the partnership with the community 
organizations to provide transitional housing and VA 
partnership with public housing authorities to provide 
permanent housing for veterans and their families.
    Currently, the Bureau of Justice Assistance in conjunction 
with the National Drug Court Institute offers orientation and 
training grants to jurisdictions interested in establishing 
veteran treatment courts. A good example of grant funding is 
Alabama's establishment of 12 veteran treatment courts.
    State directors respectfully request support for increased 
multi-year funding to the Bureau of Justice Assistance so that 
more jurisdictions can participate in veteran treatment courts.
    Regarding the chained CPI, if it reduces disability 
payments, affects retirement and elders, NASDVA does not 
support it.
    Mr. Chairman, thank you for the important work that your 
Committee is doing to improve support for our Nation's veterans 
and thank you for allowing us to participate in these important 
hearings.

    [The prepared statement of W. Clyde Marsh appears in the 
Appendix]

    The Chairman. Thank you, sir.
    General Hargett.

                    STATEMENT OF GUS HARGETT

    General Hargett. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here today to testify on behalf of our 
members.
    First, I would like to testify in support of H.R. 679 
sponsored by Congressman Tim Walz which provides recognition to 
all members of the guard and reserve who have honorably served 
for 20 years and more and who draw a retirement as a retired 
military person.
    This group which swore an oath to our country through no 
fault of their own has written the government a blank check to 
send them anywhere in the world to defend our country. But 
because they were not called to active duty under Title 10 
status, they are not allowed to call themselves veterans.
    They have performed duty in Title 32 status and Title 10 
status around the world including domestic emergencies, 
overseas deployment training, guarding the borders, the 
airports. But because this time was not recognized under Title 
10 for other than training, they are not considered veterans.
    You know, I would like to offer a little email that I got 
from a veteran the other day who was a retired one star general 
who served 35 years in the guard and reserve. And his email was 
something to the effect that he went to a Veterans Day parade 
and he was not allowed to stand as a veteran because he was 
never mobilized.
    But, yet, a young specialist who he had ordered to active 
duty in Vietnam, because he was AWOL from the national guard 
and because he was ordered to active duty, he was able to stand 
as a veteran.
    This legislation is cost free. It does not cost anybody 
anything. It has been passed by the House unanimously for two 
years in a row. I urge all of you to pass this bill. Let's pass 
it through the Senate and all the Houses and honor those who 
have written this Nation a blank check.
    The other thing I would like to ask this Committee to look 
at is the guard disability benefit claim denial rate. Guard 
claims are denied at four times the rate of active duty 
members. I suspect there are many reasons for this. I think 
some of them have been addressed here today because of lack of 
understanding amongst our guardsmen.
    I know when I retired, I asked AMVETS to come and help me 
and I was able to learn a lot that I did not know about what we 
had to do to qualify for retired benefits.
    So I would like to ask this Committee to try to figure out 
why guardsmen and reservists' denial rate is four times that of 
active duty members.
    Like all other veteran service organizations here today, we 
are also concerned about the impact of sequestration. I think 
it will have adverse effects on all of our veterans, our 
veteran service organizations, and the ability to treat all of 
our veterans in a manner that I think we owe to all of them.
    Mr. Chairman, I thank you for the opportunity to come today 
and testify on behalf of all of our members of the National 
Guard Association. I urge all of you to continue to support our 
veterans and our active members. Subject to your questions, 
thank you.

    [The prepared statement of Gus Hargett appears in the 
Appendix]

    The Chairman. Thank you very much.
    Again, thank you all for your testimony.
    Mr. Lawson, if I can come back to you, and it has been 
referenced a couple of times in other testimony the fact that, 
I think you said that the VISN model had devolved into 21 
autonomous entities.
    If they were to do away with the VISN framework, how would 
you foresee them being able to manage what they do?
    Mr. Lawson. Well, I am not actually saying they need to do 
away with that model, Congressman. What I am saying is that 
they all need to operate under the same policies. Each VISN 
operates separately under their own policies and budgets.
    An example, I am going to use myself, I get my primary care 
in Oklahoma City VA Hospital. I get my specialized care in the 
Dallas VA because they have a spinal cord injury center there.
    The wheelchair that I am sitting in was issued to me by 
Dallas. When I was in Oklahoma City and I needed some new front 
wheels for this chair, I was told from Oklahoma City we cannot 
issue that to you. You will have to go back to Dallas.
    I do not understand why. I mean, it is one VA. Let's just 
pay for what is needed and the two VISN directors can fight 
over it later on as far as who is going to pay for that.
    I believe that the VA budget is one budget, but it just 
does not make sense that to cross VISN lines, you have to re-
register. If I go to another VA that is in a different VISN, I 
have got to re-register with that VA if I have to get some care 
there.
    In actuality, the VISN that Oklahoma City is in, I am 
supposed to go to Houston to the spinal cord injury center 
because that is the VISN and that is the budgetary boundaries 
and all this.
    But I thought to myself why should I drive through Dallas 
that has an SCI center, then bypass San Antonio that has an SCI 
center to go to Houston that has got an SCI center. It does not 
make sense.
    If we could revise this to where we operate under all the 
same policies, I think it would greatly help.
    The Chairman. Thanks.
    Doc, you had said in your testimony that VA needs to pursue 
new ways to deliver mental health services. I would like to 
know your opinion. What areas outside of the standard box does 
VA need to be exploring for provision of mental health 
services?
    As we all know, it is growing at an alarming rate with all 
those returning home and new veterans entering into the system. 
The suicide rates that we see, VA is trying to keep up with the 
problem. But unfortunately with mental health issues, a backlog 
is not acceptable.
    Sergeant McCauslin. Yes, sir. I think the first thing we 
need to do is look at some outsourcing because they simply do 
not have the resources, the technicians and the specialists. 
And so they have been overwhelmed.
    And so if you are inclined to need that service, you call 
and there is a backlog. You know, they will talk to you on the 
phone, but in order to get in to get an appointment, there is a 
tremendous backlog. They just do not simply have the resources.
    So it is time to start looking at outsourcing where those 
specialties are throughout the country by region. And the same 
thing goes, as I mentioned earlier, on the domiciliary care, 
the adult health care for the state veterans' home. Same thing. 
They do a better job than the VA and these people are not 
taking a bed overnight. They are coming in one, two, three days 
at the max a week for their care and they go back home.
    So we need that agreement between the VA and the state 
veterans' homes to provide the same thing.
    The Chairman. Thanks.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    My first question is similar to the Chairman to Mr. Lawson.
    I liked your comment about one VA which I believe strongly 
and not only within the VISN but the silos between VBA, VHA, 
cemetery is great as well and looking at how can we not just 
talk about one VA, but actually have one VA. Appreciate your 
comments.
    Have you given any thought at your organization about 
restructuring VA?
    We just came back from a CODEL (sic) where I know in the 
Philippines, they have someone in charge in the region and you 
have got VHA, VBA, cemetery. They report to that person in 
charge and it seems to be working extremely well. I think that 
would also help the secretary, administer his policies down to 
the different regions.
    Have you given any thought about that?
    Mr. Lawson. Well, personally I have. You know, before they 
developed these veteran integrated service networks, I believe 
the VA was basically broken down into four regions. I do not 
see why that had to be changed. It seemed like it was working 
well.
    When they developed the VISN concept, what it was supposed 
to do is establish an office in certain areas to where they 
could build relationships amongst other VA medical centers and 
all that.
    And actually, I believe that personnel that were going to 
be required for this was very minimal, but today it is a big 
bureaucracy at every one of those VISNs. I mean, the staff has 
grown tremendously and I see that as throwing a lot of money 
away.
    A veteran can go to one VISN and he can get a particular 
prosthetic item issued to him. He can go to another VISN and 
they will deny that very same piece of equipment. So as I say, 
with this concept of them operating autonomously is where the 
problems come in.
    I mean, we have Federal regulations that mandate how VA is 
supposed to do things. There are directives and all this 
other--that here--is what you need to provide. It is veterans' 
choice on wheelchairs, this, this, this. But when you go to 
different VISNs and it is not the same. I personally would 
prefer that we go back to the four regions.
    Mr. Michaud. Thank you.
    Next one is for Doc.
    You mentioned about the adult daycare services and I know 
the veterans' home in Maine is thinking about building a 
facility right on the same complex as a CBOC.
    Have you talked to the veterans' home nationally to see if 
that is something that they are interested in doing and 
participating in the adult daycare services for our veterans?
    Sergeant McCauslin. Thank you, sir.
    In fact, this past week, I believe it was Tuesday, I went 
to their winter convention downtown D.C. and we addressed that 
very issue. And so they are asking why can't the VA publish 
their regulation to get this across the country. It has been 
four years.
    So there are three states that are doing it right now, but 
the rest of them are holding back because there is no 
correlation with the VA.
    Mr. Michaud. Thank you.
    My last question is for Mr. Rowan.
    You mentioned about if a veteran adds a dependent and it 
takes so long to get the claim through. One of the concerns, I 
have, and I know the VBMS system is a tool, but you have to 
look at policies and how to make that system work.
    Have you found cases where a veteran might have ten 
conditions, VBA approves nine of them, but they are waiting for 
the tenth one before they get disability payments? Is that 
common throughout the system?
    Mr. Rowan. They are supposed to handle that separately, 
but, you know, that may fall through the cracks. Just like the 
VISNs are different, the VA regional offices are unfortunately 
different as well. We see that some claims get different 
percentages depending on which VISN you go to.
    You know, the thing about the dependents and adding them on 
is the fact that the raters get no credit for it. So because 
they are all desiring to get their full credit so they can get 
paid, they slough that stuff off and maybe once in a year they 
will put a bunch of people together to clean up the backlog.
    Well, I understand all of that and I can even understand 
the priority issue, but they ought to be able to do it on a 
more timely basis either weekly or monthly. You know, you want 
to do it once a month, do it once a month, but do not do it 
once a year.
    Mr. Michaud. Okay. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Walz.
    Mr. Walz. I would yield my time to Mr. Boozman if he walked 
in.
    The Chairman. You sure? He gets to stay behind after we 
leave, so----
    Mr. Walz. I like that he is going after the Senate. It 
might segue well to my comments that are coming, so thank you, 
Mr. Chairman.
    Thank you all for being here and to the folks who braved 
the snow-quester to get here and testify on a really important 
issue. I am always grateful.
    I think you hear it a lot, but I think it is important to 
remember. You being here and speaking with that moral authority 
makes all the difference in the world.
    I am convinced there are some that just think they are 
going to wait us out, us until we lose, you until you die, and 
then move on as business as usual. We cannot allow that to 
happen.
    And I said no matter what the time, a moral argument cannot 
be trumped by a fiscal argument. If there is a responsibility 
to do what is right in this Nation and prioritizing, as you 
heard the Chairman say, putting things first, we need to do 
that.
    So I am grateful for you being here. Thank all of you for 
your testimony on 679. That bill does not cost us a dang penny. 
It does cost us, I think, our dignity and our integrity for not 
recognizing and allowing to be recognized by other Americans, 
those who did their service.
    The general is right. It passed over here. I would 
encourage my Senate colleagues to figure out what the hangup is 
on that thing because we are starting to be a little cynical 
about it. There is no reason not to let it go. So I am 
appreciative of that.
    I will say, too, that some of you mentioned this, I along 
with my colleagues, got to witness a demonstration in San 
Diego. Down in the southern California area, the electronic 
medical record that is working together with VA, with DoD, with 
Kaiser Permanente, and the private sector, we witnessed it 
working.
    If that can be the norm and go, I think what you are going 
to see--and you have brought up a great point, Mr. Kilgore. 
This is not only a money saver. This saves people's lives. 
Electronic medical records are a key to making sure we get the 
right care.
    In this Nation, we have about 90,000 deaths by medical 
errors that happen every year in our private hospitals across 
the country. A lot of those can be alleviated by having proper 
data at the hands of the physician. So I appreciate you pushing 
this.
    If I could just ask you by a show of hands how many of you 
realistically think that the VA is going to get their 
processing times down to 125 days by 2015.
    And I say that. You are not a cynical bunch. You are an 
optimistic bunch. You are problem solvers. You are doers. So we 
have a real challenge with this, that I talk to people and I, 
too, have watched with my colleagues. We ask this to people who 
are in charge of this and they say yes. And I make the analogy 
it is just like sports teams. Everybody wants to win. Some just 
do a little better job of preparing to win.
    And I am very concerned that I do not question the desire 
to get it down. I do question if we are going to get there. And 
this thing causes all kinds of problems. It is a broken record, 
I know, but we have got to bust this thing.
    So anything you can do or any ideas you have pushing 
forward would be greatly appreciated.
    And, Mr. Rowan, I share your concerns, too, that I think, 
again, going back to the moral argument, there has not been 
enough research done on these dependents, on these children. It 
is not just going to be Agent Orange. It is going to be Gulf 
War. It is going to be depleted uranium. It is going to be all 
the other issues that go forward.
    And I think we as a Nation, once again, it is not just 
doing the right thing. The better research we have earlier on, 
we can prevent some of these things, I think, and that in 
itself is the right thing to do, right way to save money.
    So I appreciate your dogged commitment to making sure we 
get that.
    With that, we know what we have to do. You hear us. It is a 
matter of results that matters. The talk is nothing. The 
results matter. And I think you being here makes sure those 
results are going to get here.
    I yield back.
    The Chairman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    And I do not have any specific questions, but I just wanted 
to say that I am one of the new Members on this Committee and 
Ranking Member on the Health Subcommittee of this Committee.
    And I just want to first thank all of you for your past 
service and your current service. And I am listening and am 
listening very carefully and methodically and I know that it is 
clear to me that the challenges are growing which is going to 
require us to really step up to the plate like we have never 
done before.
    And I think that none of these challenges, as Mr. Walz was 
saying, results is the key here, but none of these challenges, 
I think, are insurmountable. But I do believe and I do believe 
that every single veteran would never have signed that blank 
check if they thought the challenges of our country were 
insurmountable.
    And so it is incumbent on all of us to step up to the plate 
and make sure that the resources are there for us to serve our 
veterans today and knowing that the challenges are growing and 
growing here very, very quickly, that we are able to meet those 
challenges as well. And I look forward to partnering with you 
to make sure that we can accomplish that small challenge.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I want to start by thanking you for your service to our 
country and for your service to your fellow veterans and to 
tell you that I am also a new Member. And it is a big honor and 
privilege to represent you and the veterans in my hometown of 
El Paso, Texas here on this Committee and in this Congress.
    And you have also done a great service in highlighting and 
outlining the challenges and sometimes outright failures of the 
Federal Government in owing up to its side of the bargain and 
meeting its obligations to you and your fellow veterans.
    And so one question I have for you is who in this country 
is getting it right on a state level or on a local level?
    Congressman Walz mentioned the electronic medical records 
in San Diego. We heard testimony last week of VBA in Pittsburgh 
turning around claims in 30 days. I know some states have 
pioneered workforce transition and hire a vet programs.
    Can any of you and perhaps Mr. Marsh identify some of those 
best practices and best performing communities and states that 
we can draw an example from and learn from at this level?
    Admiral Marsh. I think the one that I would point to is 
regarding the claims processing and backlogs. The VA is in the 
process of rolling out VBMS which is an electronics claims 
processing system, but we have a number of states that have 
their own electronics claims filing system. It is not a true 
database, but it is where we maintain all the veterans' 
information and do the processing. And what we are doing is 
that creates transparency. It makes it easier to work with it.
    And also, we will be able to tie into VBMS via portal once 
that is operational. And there are 20 some states or more that 
have that, but we have got a task force that is working with 
the VA as they develop VBMS so that it will be able to operate 
in all the states that have their systems and then those who 
bring on their systems that could connect to VBMS. And I think 
that is going to help with the overall processing of claims to 
reach veterans.
    Now, the other thing is that we need what that one state 
has and that is a database. It is a veterans' database with all 
the veterans' information in it and it is accessible. So you 
can use that to identify all your veterans, contract those 
veterans, do outreach, and you can target down to specific 
problems or illnesses, if you will, so that you can look at 
those as a segment or study or treat and do outreach.
    So those are two things that I would point to.
    Mr. O'Rourke. Are there any states specifically that you 
would point this towards who are implementing this and sharing 
this data on a level that, you know, are superior to what we 
are doing or what other states in the country are doing?
    Admiral Marsh. The one state that I mentioned is Utah that 
has that database that they created with the help--I think they 
got some help from rural health in the VA department. But the 
states that are participating with the IT development of VBMS, 
that task force is Virginia, California, Kentucky, San Diego, 
and Utah. And that is who developed this system so that it will 
be compatible and able to connect to all the states so that 
everybody will be connected.
    So when a claim is submitted at any state, it has 
visibility in VA headquarters or anywhere. Anybody can look at 
that information if they go into the database and pull up a 
file. That is how transparent and accessible it should be.
    Mr. O'Rourke. Thank you.
    Mr. Chair, I yield back.
    The Chairman. Mr. Ruiz.
    Mr. Ruiz. Thank you, Chairman.
    And thank all of you for trekking this snow and for 
traveling so far from your homes and the comfort of your homes 
to stand up for something that you really believe in.
    And as I said before, you know, we owe our veterans more 
than just lip service. And I am committed to making sure that 
we come together to find out what the solutions are.
    I am a new Member of Congress. I am from the Palm Springs, 
California area. It is a place where a lot of veterans like to 
go and retire. So a lot of the issues that I hear here are very 
similar to what I hear in my district.
    Funding for veterans' benefits and health care services is 
without question a top priority for me and Congress. And as a 
new Member of Congress, I look forward to getting to know all 
of you and your departments and organizations and together work 
to improve the veterans' health care services and benefits.
    I had the opportunity to review this year's Independent 
Budget and I appreciate the VSOs' insight on the Department of 
Veterans Affairs' funding levels for fiscal year 2014. Although 
we currently operate in a challenging fiscal climate, I believe 
that we must make a concerted effort to work together in a 
bipartisan manner to ensure that the VA delivers the quality of 
health care for veterans they deserve.
    I am an emergency medicine physician, so when I talk about 
to ensure high-quality care, I really mean high-quality care.
    I am looking forward to hearing more statements in the 
future about the VA budget for fiscal year 2014 as well as the 
other legislative priorities of the organizations that are 
here. My doors are always open.
    And I yield back my time.
    The Chairman. Thank you very much.
    And I will now recognize Senator Boozman.

           OPENING STATEMENT OF SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you very much, Mr. Chairman.
    I apologize for being late. We actually had votes on our 
side and I know that the guys and gals have to clear out now 
and go vote.
    The Chairman. Yeah, one vote a week, right?
    Senator Boozman. As you can tell, I do not get any respect 
over here at all anymore. But I do want to compliment the 
Chairman and the Ranking Member, the tremendous job that they 
do. You know, this truly is, and, again, you know, Senator Burr 
and Senator Sanders, you know, everybody working together. But 
that really is what it is all about.
    So I apologize for being late. I really do not have any 
questions. I just want to thank you for being here, especially 
on a very difficult day. I cannot tell you how much we 
appreciate you being up here in the sense that we are trying to 
push things forward, but there is no substitute for you all 
being here and helping us do that. All of you all we enjoy 
working with.
    I particularly know that it works in the sense that, you 
know, my dad retired from the air force after 20 years as a 
master sergeant and I do not think I was ever over at his house 
that that publication was not out on the coffee table. I know 
that whatever, you know, was out, he read cover to cover and 
kept up.
    The other thing that I understand and the Committee 
understands, but I think in particular at the latter stage of 
his career, he was in recruiting, and I understand that the 
things that we are talking about are earned benefits. You know, 
it is not something that, you know, that is given, but they are 
earned benefits.
    And also, the other day when Senator Rubio was introducing, 
you know, somebody from Florida that was testifying on behalf 
of veterans, he said at the close that they were there for us 
and we need to be there for them meaning you guys. And so that 
is our commitment.
    We really do appreciate all you do. Look forward to working 
with you. I know we have discussed a bunch of issues today and 
we are going to be discussing those this Congress, but 
certainly our intent is to help any way we can.
    So thank you very much.
    The Chairman. Thank you very much, Senator.
    Thank you, everybody, for being here today. Regardless of 
inclement weather or threat of inclement weather, we certainly 
do appreciate it. And hopefully we will see a little snow later 
on today. Look forward to seeing folks at PVA tomorrow.
    And I would ask unanimous consent that all Members would 
have five legislative days with which to revise and extend 
their remarks and add any extraneous material. Without 
objection, so ordered.
    And with that, ladies and gentlemen, thank you, and this 
hearing is adjourned.

    [Whereupon, at 11:34 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller

    Joint Hearing of the House and Senate Veterans' Affairs Committees 
to Receive the Legislative Presentation of AMVETS, Air Force Sergeants 
Association, Paralyzed Veterans of America, Jewish War Veterans, Gold 
Star Wives, Fleet Reserve Association, Vietnam Veterans Association and 
the National Association of State Directors of Veterans Affairs

    March 6, 2013

    This hearing will come to order.
    Good morning.
    It is my privilege to welcome you to today's joint hearing of the 
House and Senate Veterans' Affairs Committees to receive the 
legislative presentations of AMVETS, the Air Force Sergeants 
Association, Paralyzed Veterans of America, Jewish War Veterans, Gold 
Star Wives, the Fleet Reserve Association, Vietnam Veterans 
Association, and the National Association of State Directors of 
Veterans Affairs
    These groups represent what is truly great about the veteran 
community--that veterans and their families, no matter what generation 
or branch of service, continue to tend to the needs of their fellow 
Americans who have served.
    We are also joined here today by Chairman Sanders, Ranking Member 
Michaud, and Ranking Member Burr as well as Committee Members from both 
the House and the Senate.
    In the interest of time and in keeping with the tradition of these 
hearings, after hearing from myself, Chairman Sanders, Ranking Member 
Michaud, and Ranking Member Burr, I would like to ask all other 
Committee Members to waive their opening statements.
    There will be an opportunity for remarks following today's 
testimony.
    Hearing no objection, so ordered.
    I would also like to welcome the members of each organization's 
auxiliary, and thank each of you for your work behind the scenes.
    The energy and attention that the auxiliaries bring to these issues 
ensures that no one is overlooked.
    Thank you all for your service to our country and your service to 
your fellow veterans.
    Before we go any further, I would like to take a moment to 
recognize the members of the different organizations who - like myself 
- are proud to call Florida home. Gentlemen and ladies, would you 
please stand?
    On behalf of all our neighbors in the Sunshine State, I thank you 
for your service and your sacrifice.
    These committees, with your help, worked hard in the One Hundred 
and Twelfth Congress to ensure that the commitment America has made to 
its veterans remains strong. Again in the One Hundred and Thirteenth 
Congress, we will look to you and your organizations to help us address 
the problems facing America's veterans.
    Together we reduced veteran unemployment and created new programs 
aimed at providing veterans Twenty First century job skills.
    We have vigilantly conducted oversight into all areas of the 
Department of Veterans Affairs in order to keep our veterans safe and 
to maximize the care they receive. In these difficult fiscal times, 
there is no excuse for the waste of funds allocated to taking care of 
our veterans.
    While these committees have worked hard to ensure that the 
sequester does not impact VA, we must continue to work to ensure that 
our Nation's veterans receive the care they deserve.
    Given the uncertain budget process, Ranking Member Michaud and I 
introduced H.R. Eight Hundred and Thirteen: Putting Veterans Funding 
First Act of Two Thousand and Thirteen.
    This bill will require Congress to fully fund the Department of 
Veterans Affairs discretionary budget a year ahead of schedule, 
ensuring that all VA services will have timely and predictable funding.
    While every one of your organizations has a unique set of 
legislative priorities, you also share a common goal, one that we on 
these Committees share with you: providing nothing short of the best 
for our veterans, their families, and their survivors who have shared 
in their sacrifice.
    In times like these, the work of organizations like yours has never 
been more important.
    Thank you all once again.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud

    Good Morning.
    I welcome all of the Members and Leadership of the Veteran Service 
Organizations attending today for this joint legislation presentation.
    It is great to see so many important organizations here today, and 
I look forward to hearing the priorities set forth in your testimony.
    I want to take a moment to recognize those of you who have traveled 
from Maine. Thank you for making the trip.
    Our Nation has a ``sacred trust'' with all veterans--a national 
promise to care for and stand up for those who have served and 
sacrificed. The VSOs represented here today help to ensure that the 
most important issues facing American veterans remain at the center of 
the national stage. You fulfill a vital role in the ``community of 
support'' America provides its national heroes.
    As you know, the Administration has delayed the release of its 
FY2014 budget proposal. While VA programs are spared from the effects 
of sequestration, that does not mean that veterans will be left 
unaffected in their capacity as citizens. State and local government 
services--services on which our veterans rely--will come under 
additional strain.
    In many ways, the VA is facing unprecedented challenges as it 
continues to serve the veterans of the Second World War, Korean War, 
and the Vietnam War as well as those just now returned from the Middle 
East. Together, we must work to ensure everyone who has stepped up to 
serve this Nation is served by this Nation. No one should fall through 
the cracks.
    I look forward to your testimony today, and again thank you for 
your organization's years of service to our veterans.

                                 <F-dash>
                    Prepared Statement of Cleve Geer

    As the National Commander of AMVETS, it is my honor to share our 
concerns and comment on the issues under the purview of your 
committees. As one of the largest veteran service organizations in the 
country, as well as one of the authors of the Independent Budget, 
AMVETS has a proud history of assisting veterans and advocating for 
veterans rights and benefits. Since 1944 AMVETS has been at the 
forefront of public policy related to military and veteran issues and 
national defense.
    In anticipation of working with your Committees throughout this 
year, I offer this introduction to some of the areas of interest to the 
quarter of a million members of AMVETS. Today, with more than a decade 
of continuous war behind us, horrific budget cuts just beginning to be 
implemented and fiscal uncertainty on the horizon, our men and women in 
uniform have remained steadfast in their mission to defend this great 
nation. Over the last dozen years of war, many of these brave service 
members paid the ultimate price for our freedom and others, at the 
completion of their service or due to injuries, have joined the ranks 
of our nation's veterans. This dedication and sacrifice must never be 
forgotten and the promises made to this nation's heroes must be fully 
and faithfully honored.
    Now is the time for the Administration and Congress to step up and 
acknowledge all that our veterans have done for this country. We, as a 
nation, have, through the sacrifice of our veterans and military 
members, incurred a solemn obligation to support them in every way 
possible now and into the future. President Obama once said that the 
national budget would not be balanced on the backs of veterans and 
AMVETS adamantly supports this concept of preserving all earned veteran 
benefits. Our service members and veterans do not deserve to be asked 
to continue making sacrifices; they don't deserve excuses or broken 
promises, they deserve this nation's full support and nothing less. 
They've done the hard work on behalf of all Americans; now is the time 
for all Americans to relieve them of their heavy burdens.
    Today's military and veteran community is faced with many 
challenges and AMVETS is dedicated to aggressively tackling these 
issues on behalf of American Veterans everywhere including:

    Veteran Unemployment
    <bullet>  Reserve Component
    <bullet>  Active Component
    <bullet>  Veteran Anti-Discrimination

    VA/DoD Health Care & Mental Health
    <bullet>  Traumatic Brain Injury (TBI) & Post-Traumatic Stress 
(PTS)
    <bullet>  Prosthetic & Sensory Aides
    <bullet>  Suicide Prevention
    <bullet>  Ft. McClellan Toxic Chemical Exposure

    Veterans Benefits
    <bullet>  Maintain Military Retirement and Health Care Benefits
    <bullet>  Concurrent Receipt (Active & Reserve Component)
    <bullet>  VA Claims & Appeals Backlog

    Women Veterans & Service Members
    <bullet>  Military Sexual Trauma (MST) Prevention and Treatment
    <bullet>  Creation of a Sexual Assault Oversight and Response 
Office
    <bullet>  Gender Specific Healthcare

    National Guard & Reserve Service Members
    <bullet>  Improved USERRA Protections
    <bullet>  On-going Transition Between State and Federal Service
    <bullet>  Veteran Status

    Homeless & Rural Veterans
    <bullet>  Provide a Full Continuum of Care for Homeless Veterans 
(employment training, housing, legal aid)
    <bullet>  Access to Physical and Mental Health Care and other 
benefits
    <bullet>  Increase Travel Reimbursement Rates

    POW/MIA Recovery/Identification & Cemetery Affairs
    <bullet>  Improved Over Site of Mortuary Affairs Operations
    <bullet>  Increase Veterans Burial Benefits

    Veterans Treatment Courts
    <bullet>  Increase Number of and Access to Veterans Treatment 
Courts Nationally
    <bullet>  Enhance Resources to Address Mental Health and Substance 
Abuse Issues

    Honor and Remembrance
    <bullet>  Establish the National Desert Storm War Memorial in 
Washington, D.C.
Veteran Anti-Discrimination
    AMVETS believes that perhaps the greatest and most comprehensive 
assistance this nation could provide for its veterans is to protect 
them from all forms of discrimination and employer bias by enacting the 
AMVETS Veteran Anti-Discrimination Initiative and by strengthening 
USERRA. Since moving to an all-volunteer military, the number of 
veterans serving in Congress and at all levels of leadership is the 
smallest it's ever been and this, added to the years of constant focus 
on the negative aspects of war, has created the perception that all 
veterans are flawed, dangerous and unstable. While it is true that 
veterans should be protected from all forms of discrimination under 
USERRA, sadly that is not the case, in part, due to ignorance of its 
legal requirements as well as lax oversight and enforcement. Sadly, 
those who have served and fought for their country do not enjoy the 
same protections and advantages under the law. In fact, just the 
opposite is often true; frequently those who have served and sacrificed 
are at a disadvantage in comparison to their peers.
    With this in mind, AMVETS is seeking protected status for all 
American veterans to give them every advantage in finding gainful 
employment, housing, and educational opportunities. This comprehensive, 
nearly cost-neutral initiative would enhance veteran access and equity 
in all areas and it would provide legal recourse to veterans 
experiencing any form of discrimination.
Veteran Unemployment
    During this time of persistent unemployment in our country, the 
problem of veteran unemployment, especially for our National Guard and 
Reserve members, should be seen as a national disgrace. In recognition 
of those who honorably and selflessly fought to maintain the freedoms 
of those who stayed behind, we as a nation cannot do enough to ensure 
that American Veterans get the proper skills, certifications/
credentials and degrees necessary to be successful and competitive in 
the civilian job market.
    Veteran unemployment is a complex problem which will require the 
efforts of federal and state governments, the business community and 
the military/veterans community working in concert if any meaningful 
solution is to be developed. The efforts of any one entity alone will 
be insufficient to meet the challenges posed by this massive problem 
facing American Veterans everywhere and it's important to keep in mind 
that veterans, like their civilian counterparts, require not just a 
job, but living-wage employment following their service. The vast 
majority of working-age veterans want to continue to be productive 
citizens and they need to be provided every opportunity to achieve 
their career goals. In recognition of the unimaginable sacrifices made 
by American Veterans, Congress and the Administration need to continue 
to make a concerted effort to guarantee that veterans have access to 
employment and training opportunities.
    Additionally there needs to be a better system to connect employers 
with open positions to unemployed veterans; the current system of 
merely posting jobs online, while beneficial, just isn't enough. There 
are literally hundreds of online employment and career sites catering 
to veterans and civilians alike, which unfortunately can leave veterans 
confused and overwhelmed. What is needed is a comprehensive `veteran 
employment resource guide' along with a single portal or site where all 
of these opportunities can be accessed in one place. The `Hero2Hired' 
program is a good example and should serve as a good foundation to 
build on.
    In addition to the previous issues, there is the very real problem 
of licensing and credentialing which is required in certain career 
fields. AMVETS believes that if an individual has received training and 
practical experience in a career field while serving in the military 
there should be a streamlined process for demonstrating their knowledge 
and expertise in order to qualify for any necessary license or 
credential.
    Lastly, Congress and the Administration need to consider the very 
real connection between unemployment and its effects on the already 
vulnerable mental health of our veterans. Common sense suggest that 
individuals who are gainfully and appropriately employed, who are able 
to support themselves and their families, who are able to utilize their 
skills and abilities, who are receiving any necessary health care, who 
feel useful, challenged and appreciated are less likely to suffer from 
depression, substance abuse problems and/or commit suicide.
Health Care & Mental Health
    The Veterans Health Administration (VHA) is not only the largest 
direct provider of healthcare services in the nation, it also provides 
the most extensive training environment for health professionals as 
well as providing the most clinically focused setting for medical and 
prosthetic research. While providing primary care to American Veterans 
is among the VA's prime responsibilities, it also provides specialized 
health care services including: spinal cord injury, blind 
rehabilitation, traumatic brain injury, prosthetic services, mental 
health, and war-related poly-trauma injuries. AMVETS believes that in 
order to avoid catastrophic degradation to these critical services that 
Congress needs to:

    <bullet>  pass a budget on a regular basis. The need for 
sufficient, timely and predictable funding cannot be over-emphasized;
    <bullet>  continue advanced appropriations;
    <bullet>  continue to introduce and support legislation that 
protects veterans' benefits such as HR 813, the Putting Veterans 
Funding First Act of 2013, introduced by Chairman Miller. Thank you 
sir! Another example of benefits protection legislation introduced by 
both Chairman Miller and Ranking Member Michaud is HR 357 the G.I. 
Tuition Fairness Act of 2013, which gives public institutions of higher 
education a choice - either charge veterans in-state tuition or no 
longer be eligible to accept G.I. bill students. Last but by no means 
least, I'd also like to acknowledge the important work done by Chairman 
Sanders on the chained CPI threat. The chained CPI would cut benefits 
to disabled veterans and social security recipients, who are among the 
most vulnerable Americans. Thank you sir!

    Unfortunately, the VA also faces significant challenges ensuring 
that newly returning war veterans have access to post-deployment 
readjustment services and specialized treatments while guaranteeing 
that all other enrolled veterans gain and keep access to effective, 
timely, high-quality mental health services. In fact, outreach to 
veterans from all eras needs to continue to improve.
    The mental health of our service members and veterans may be one of 
the greatest challenges facing the VA today and while there have been 
improvements, there's still a long way to go. This is especially true 
in the case of women veterans who not only respond to and deal with 
combat stress differently than their male counterparts, but also need 
gender-specific treatment.
    There can be no doubt that the problem of military/veteran suicide 
is of great concern to everyone in the military community and sadly the 
problem continues to grow. Only recently, the military released a 
report showing that suicides among active duty service members reached 
an all-time high in 2012. The report indicated that the number of 
suicides among active duty personnel was almost one a day or 349 to be 
exact.
    These numbers are especially distressing in light of the ongoing 
efforts of the Department of Defense (DoD), Veterans Affairs (VA) and a 
variety of public and private enterprises. It seems obvious that more 
needs to be done to uncover the complex mental and physical factors 
that lead military service members and veterans to commit suicide.
    One significant aspect that may shed some additional light on this 
unacceptable situation is the possible correlation between blast 
injuries caused by Improvised Explosive Devices (IEDs) and suicide. By 
collecting information about the physical injuries sustained by suicide 
victims, we may be able to get a clearer idea of the underlying causes 
of military and veteran suicide.
    In a war fought largely on the principals of indiscriminate 
violence and terror, the IED is often the weapon of choice. According 
to data compiled by DoD and the Global Campaign Against IEDs, between 
November 2011 and October 2012, over 15,000 individual IED events were 
experienced by coalition forces in Afghanistan. Those IED events were 
responsible for fully 58% of coalition casualties. In fact, IEDs are 
the number one cause of casualties for American service members and 
will be for the foreseeable future.
    Additionally, IEDs are the major cause of the top 4 most prevalent 
injuries to veterans including:

    <bullet>  hearing loss and Tinnitus,
    <bullet>  traumatic brain injury (TBI),
    <bullet>  post-traumatic stress disorder (PTSD) and
    <bullet>  vision loss

    Even more significant are the alarming number of service members 
and veterans who experienced repetitive, low level TBI that did not 
require medical attention but, taken cumulatively, produce serious 
medical conditions years later. These conditions often exhibit symptoms 
that affect mood, behavior and thoughts. Many of our veterans are 
experiencing a complex combination of mental and physical health 
problems, the weight of which should be viewed as a contributing factor 
to the feelings of pain, hopelessness, loneliness, helplessness and 
depression that can lead to suicide.
    IED survivors face challenges ranging from the minor to the 
monumental: fractures, amputations, disfigurement, cognitive and motor 
impairments, emboli, headaches, personality changes, visual and 
auditory disturbances, altered effect, hypersensitivities, and dulled 
judgment.
    The good news is that thanks to swift triage and aeromedical 
evacuations and improvements in battlefield trauma medicine and 
surgical procedures, many more combat-wounded personnel are surviving 
military action. Unfortunately blast injuries by their very nature 
usually include vision injuries, hearing loss, and brain trauma.
    The bad news is that those same individuals will likely require 
highly specialized neurological, psychological, and ophthalmological 
care, life-long mental health care, sophisticated prosthetics and other 
vital services. At this juncture, there is no definitive connection 
between IED injuries, these conditions, and veterans' suicides because 
this possibility has not been adequately investigated. Now is the time 
to do so.
    It must be remembered that we are looking at an issue that will 
span decades. We applaud the VA for working to reduce the stigma 
surrounding PTSD and the increase in support services. AMVETS is 
committed to addressing this issue by piloting a warrior transition 
workshop. Our team of veterans, trainers and experts associated with 
Freedom and Honor have shown success since 2005; serving more than 
7,000 active duty/veterans in 60,000 hours of training. We recommend 
that the VA consider both clinical and non-clinical treatment options 
when deciding how to fill the gap between need and timely access. Non-
clinical mental health treatment options are readily available in most 
communities, are generally much more cost effective than clinical 
options with shorter wait times and can be an effective segment in an 
overall mental health treatment program. The Freedom and Honor Warrior 
Transition program focus' on making veterans more resilient and can be 
effectively integrated into the DoD and VA systems. AMVETS will have 
four pilot programs this year, with one being directed specifically to 
women veterans.
    As previously mentioned, untreated/unhealed physical and mental 
health combat injuries play a significant role in the number of 
military/veteran suicides in this country. The data on these suicides 
are startling and they have continued to rise. This horrific trend is a 
national disgrace and finding effective, practical solutions should be 
not only a service-wide, but a nation-wide priority.
Veterans' Benefits
    AMVETS believes in the solemnity of the promises made to our 
military members and veterans when they agreed to leave their homes and 
families to go fight in our stead. In addition to providing physical 
and mental healthcare to millions of veterans, the VA is also the 
primary federal agency providing a variety of benefits to our nation's 
veterans including: disability compensation, dependency and indemnity 
compensation, pensions, retirement, education benefits, home loans, 
ancillary benefits for service-connected disabled veterans, life 
insurance and burial benefits. It is crucial, that veterans' benefits 
become a national priority, as they had been following earlier 
conflicts, and they must be viewed in the context of the service and 
sacrifice performed by our men and women in uniform. These benefit 
programs however must not only be maintained, they need to be carefully 
monitored and constantly improved so they maintain their value and 
effectiveness.
    Like every other VSO, and no doubt every member of these 
committees, AMVETS is appalled by the seemingly insurmountable 
disability claims backlog problem, however, since everyone is already 
so aware of the need to deal with this issue, I will not do more than 
acknowledge the problem and our commitment to carefully monitoring 
developments and assisting as appropriate.
    As far as the issue of concurrent receipt in concerned, AMVETS 
firmly believes that all military retirees should be permitted to 
receive their full, earned military retirement as well as any and all 
VA disability compensation they may be entitled to; in other words 
there should be no offset between full military retired pay and VA 
disability compensation. Each form of compensation is individually 
earned, in its own right, by the veteran and other federal employees 
are not unjustly penalized this same way when in an identical 
situation. AMVETS strongly urges Congress and the Administration to 
enact legislation to repeal this inequity faced by so many American 
Veterans.
Women Veterans and Service Members
    It is a fact, that every woman who ever served in the military in 
America did so as a volunteer! Their history of service to this country 
is long and proud even though their service prior to the Civil War was 
strictly unofficial; they have been involved in every battle, one way 
or another, going back to the Revolutionary War. Today, women comprise 
between 17% - 20% of the U.S. military and they are fully integrated 
into the combat zones around the world. In the near future women will 
be allowed to serve in direct combat roles and may be required to sign 
up for selective service both of which suggest we are entering a new 
era for women in the military. One can only imagine how these decisions 
will affect the generations of women to come. VA is already so far 
behind in meeting the needs of current women service members and 
veterans that AMVETS is gravely concerned about VA's ability to meet 
increasing future needs.
    Among the most critical issues facing women veterans today are: 
homelessness, employment, military sexual trauma (MST) and the lack of 
gender specific health care. These three issues are the trifecta of 
degradation and deprivation for women veterans. They are also somewhat 
of a `Catch-22' in that each issue overlaps and effects the other two, 
making it that much more difficult to escape this negative cycle. How 
can we as a nation allow some of our most vulnerable veterans, many of 
whom also have children, to be living on the streets of our cities? Why 
is it that a woman should have to fear for her personal safety, not 
only from foreign enemies, but from her comrades-in-arms simply because 
she made a conscious decision to serve in the military? All veterans, 
by their very service to their country, should be guaranteed some 
basics: shelter, any necessary physical and mental health care, food, 
job training or education, and an opportunity to support themselves and 
their children upon exiting the military.
    Some of these veterans are already victims of MST and PTSD while on 
active duty and now they are faced with the dangers and lack of 
appropriate physical and mental health care inherent in being homeless. 
These veterans are often unable to locate temporary housing at local 
homeless shelters because many of these facilities are not set up to 
house to accommodate the specific safety and privacy needs of women, 
not to mention their children. It's a sad fact that homeless 
individuals are not infrequently involved in the criminal justice 
system for a variety of offences, including crimes against women and 
children. This situation is truly a national disgrace and must not be 
allowed to continue.
    A new report from the Government Accountability Office shows that 
the number of homeless women veterans doubled between 2006 and 2010, 
with 3,328 women veterans unable to access shelter. Of these women, 
``almost two-thirds were between 40 and 59 years old and over one-third 
had disabilities.'' The numbers are not encouraging and they are 
expected to get worse. With tens of thousands of troops leaving 
military service and more slated over the next year, for women veterans 
with families, it's especially difficult to find work and housing. As 
of December 2011, The Veterans' Administration estimated that of the 
roughly 68,000 homeless veterans, more than 5,000 were women. To combat 
the problem, the VA is training many of its 7,000 case managers to deal 
with issues specific to women.
National Guard & Reserve Service Members
    AMVETS fully supports H.R.679, the Honor America's Guard-Reserve 
Retirees Act introduced for the 3rd year in a row by Rep. Walz (thank 
you, Sir!) which would grant Veteran Status for National Guard and 
Reserve members with 20 years or more in service. This cost neutral 
legislation would not bestow any new or unearned benefits, it would 
simply provide career Reserve Component (RC) members the honor of being 
recognized as a veteran for their many years of service and sacrifice. 
This bill would also provide an opportunity for Congress and the 
Administration to show their support for America's military retirees.
    What is a military retiree? A military retiree is what a National 
Guard or Reserve Component member, who has completed a 20(+) year 
career, is designated upon retirement. If these individuals have never 
served on active duty (Title 10) orders for other than training 
purposes for a specified number of days, they are not legally 
considered veterans. Mind you, they are entitled to virtually all the 
same retirement benefits as their Active Component brethren, but they 
are not considered veterans under the law. This unjust situation is not 
widely known among members of Congress (outside of these committees) or 
even among members of the RC themselves.
    This legislation would authorize Veteran Status under Title 38 for 
National Guard and Reserve members of the Armed Forces who are entitled 
to a non-regular retirement under Chapter 1223 of 10 USC but were never 
called to active federal service during their careers - through no 
fault of their own. As an example, the service of our National Guard 
members now serving on Operation Noble Eagle on our Southwestern border 
on Title 32 orders would not qualify them to earn the status of 
``Veterans of our Armed Forces'' because it is technically a 
``training'' status.
    Currently, the Code of Veterans' Benefits, Title 38, excludes from 
the definition of ``Veteran'' career reservists who have not served on 
Title 10 active duty for other than training purposes. Drill training, 
annual training, active duty for training, and Title 32 duty are not 
qualifying service for ``Veteran'' status. It does not make sense that 
an individual can serve three years on active duty, during a time of 
war or not and upon leaving the military they are considered a veteran; 
however, a National Guard or Reserve member who has 20(+) years of 
service but has not called to federal service is not considered a 
veteran -even though they wear the same uniform and receive similar 
benefits.
Homeless Veterans
    We as a country have failed many veterans who now find themselves 
mentally or physical ill, alone, unemployed and homeless. AMVETS urges 
the committees to consider the importance of supportive housing 
facilities for homeless veterans, many of which are situated on VA 
property and/or owned and operated by the VA. One of the first steps 
that need to be taken to break this chain of poverty is to get our 
veterans, men and women, off the streets and into supportive housing. 
Consistent with Secretary Shinseki's goal of eliminating homelessness 
among veterans by the year 2015, these facilities are vital to the 
scores of homeless veterans - including those from Operations Enduring 
Freedom and Iraqi Freedom - that rely upon them for shelter, health 
care, and other services.
    AMVETS appreciates the support that the committees have shown for 
programs to mitigate the scourge of homelessness among veterans. The 
VA's ``housing first'' approach - which has largely been carried out 
via a combination of increases in HUD-VASH vouchers, enhanced funding 
for the grant and per diem program, and support for outreach 
coordinators - has, in recent years, allowed the VA to make important 
progress toward its goal of eliminating veterans' homelessness.
    Even as this progress continues, AMVETS encourages the committees 
and the VA to prioritize the construction or repurposing of facilities 
on VA property to be used for supportive housing for homeless veterans. 
The shortage of such housing is particularly acute in the Los Angeles 
region, where approximately 8,000-10,000 veterans remain homeless. This 
represents an approximate 10 percent share of all homeless veterans 
nationwide. Remedying the homeless veterans' problem in Los Angeles is 
essential to meeting Secretary Shinseki's goal of elimination.
Mortuary Affairs
    There is no more sacred responsibility than the dignified and 
respectful recovery, return and burial of our men and women in uniform. 
With this in mind, we need to remember that NCA's most important 
obligation is to honor the memory of America's service members. AMVETS 
is pleased with the fact that NCA continues to meet its goals thanks to 
the dedication and commitment of Under Secretary Muro and his staff.
    NCA does a good job of looking ahead in anticipation of the future 
needs of our veterans by:

    <bullet>  securing land for additional cemeteries, including two 
new national cemeteries in Florida and working in CO & NY;
    <bullet>  getting the word out on burial benefits to stakeholders. 
Including developing new online resources for Funeral Directors;
    <bullet>  making it easier for family members to locate and 
chronicle loved ones by partnering with Ancestry.com to index historic 
burial records;
    <bullet>  awarding grant money for State and Tribal Veterans 
Cemeteries; and
    <bullet>  expanding burial options in rural areas (National 
Veterans Burial Grounds)

    NCA is also a leader among federal agencies in veteran employment 
programs including:

    <bullet>  The Homeless Veteran Supported Employment Program (HVSEP) 
provides vocational assistance, job development and placement, and 
ongoing supports to improve employment outcomes among homeless Veterans 
and Veterans at-risk of homelessness. Formerly homeless Veterans who 
have been trained as Vocational Rehabilitation Specialists (VRSs) 
provide these services;
    <bullet>  VA's Compensated Work Therapy (CWT) Program is a national 
vocational program comprised of three unique programs which assist 
homeless Veterans in returning to competitive employment: Sheltered 
Workshop, Transitional Work, and Supported Employment. Veterans in CWT 
are paid at least the federal or state minimum wage, whichever is 
higher; VA's National Cemetery Administration and Veterans Health 
Administration have also formed partnerships at national cemeteries, 
where formerly homeless Veterans from the CWT program have received 
work opportunities; and
    <bullet>  The Vocational Rehabilitation and Employment (VR&E) 
VetSuccess Program assists Veterans with service-connected disabilities 
to prepare for, find, and keep suitable jobs. Services that may be 
provided include: Comprehensive rehabilitation evaluation to determine 
abilities, skills, and interests for employment; employment services; 
assistance finding and keeping a job; and On the Job Training (OJT), 
apprenticeship, and non-paid work experiences.

    Does this mean that there are no areas needing improvement at NCA - 
absolutely not. From October 2011 through March 2012, NCA conducted an 
internal gravesite review of headstone and marker placements at VA 
National cemeteries. During that review a total of 251 discrepancies at 
93 National cemeteries were discovered which included:

    <bullet>  218 misplaced headstones;
    <bullet>  25 unmarked graves;
    <bullet>  8 misplaced veteran remains

    While these incidents were corrected in a respectful, professional 
and expeditious manner, the internal phase of the NCA review failed to 
identify, and therefore to report, all misplaced headstones and 
unmarked gravesites. These additional discrepancies came to light 
thanks to the diligent oversight of Chairman Miller and the HVAC which 
had tasked the Inspector General (IG) with conducting an audit of the 
internal NCA review. The IG report highlighted several concerns and 
made corrective recommendations. Based on those recommendations, the 
Under Secretary for Memorial Affairs developed an appropriate action 
plan and AMVETS recommends continued oversight to ensure the carrying 
out of all corrective actions.

                                 <F-dash>
    Prepared Statement of CMSGT (Ret) USAF John R. ``Doc'' McCauslin
    Chairmen Sanders and Miller, on behalf of the 110,000 plus members 
of the Air Force Sergeants Association, I thank you for this 
opportunity to offer the views of our members on the FY 2014 priorities 
for the First Session of the 113th Congress. This hearing will address 
issues critical to those who have served and are serving our Nation.
    For more than 50 years, the Air Force Sergeants Association has 
proudly represented active duty, guard, reserve, retired, and Veteran 
enlisted Air Force members and their families. Your continuing effort 
toward improving the quality of their lives has made a real difference 
and our members are grateful. In this statement, I have listed several 
specific goals that we hope this Committee will pursue for FY 2014 on 
behalf of current and past enlisted members and their families. The 
content of this statement reflects the views of our members as they 
have communicated them to us. As always, we are prepared to present 
more details and to discuss these issues with your staffs.
    How a Nation fulfills its obligations to those who serve reflects 
its greatness. Since 1973 with the inception of the all volunteer 
force, we have continued to meet our objectives in recruiting. It is 
evident that today's treatment of the military influences our ability 
to recruit future service members, since a significant percentage of 
those wearing the uniform today come from of military families.
    It is important that this Committee view America's Veterans as a 
vital National resource and treasure rather than as a financial burden. 
As you deliberate on the needs of America's Veterans, this Association 
is gratified to play a role in the process and will work to support 
your decisions as they best serve this Nation's Veterans. We believe 
this Nation's response for service should be based on certain 
principles. We urge this Committee to consider the following principles 
as an underlying foundation for making decisions affecting this 
Nation's Veterans.

                           GUIDING PRINCIPLES

    1. Veterans Have Earned a Solid Transition from Their Military 
Service Back into Society: Our Nation's all-volunteer force has served 
with great pride and distinction. This country owes its Veterans 
dignified, transitional, and recovery assistance. This help should be 
provided simply because they faithfully served in the most lethal of 
professions in some of the most hostile or remote locations. After 
writing a blank check to their country, payable up to their life, all 
Veterans should be afforded favorable chances to excel upon returning 
to the civilian sector.
    2. Most Veterans Are Enlisted Members: According to the VA's 
vetpop2011 product, there were 22.3 million Veterans as of September 
30, 2012. Of them, only 1.4 million (6 percent) are officers and 20.9 
million (94 percent) are enlisted. While on active service, there is an 
obvious need for differentials between ranks in order to execute the 
unique missions of the military. Aside from the obvious (such as pay), 
additional differences include education, training, fellowships and 
other opportunities. We should factor in the unique circumstances of 
enlisted Veterans, especially in the area of service member and their 
family's needs once they have completed their tour of service to our 
country.
    3. Decisions on Veterans' Funding Should be Based on Merit: Funding 
for military Veterans must, of course, be based on fiscal reality and 
prudence. However, Congress and, in turn, the VA must never make 
determinations simply because ``the money is just not there'' or 
because there are now ``too many'' Veterans. Funding for Veterans' 
programs should be viewed as a National obligation--a ``must pay'' 
situation. If congress can vote, fund, and send our servicemembers to 
war, they need to facilitate, fund, and provide care for those who have 
returned.
    4. Remember that the Guard and Reservists are Full-fledged Veterans 
Too! AFSA strongly supports pending legislation to identify all 
Guardsmen and Reservists as full-fledged Veterans. In Iraq, 
Afghanistan, and around the world, reserve component members are 
valiantly serving their Nation, ready to sacrifice their lives if 
necessary. Since September 11, 2001, record numbers have been called up 
and continue to support operations. Nearly half of U.S. forces that 
served in Iraq were guardsmen and reservists. Without question, 
enlisted guard and reserve members are full-time players as part of the 
``Total Force.'' Differences between reserve component members and the 
full-time force, in terms of VA programs or availability of services, 
are well overdue for review and updates.
    5. The VA Must Openly Assume the Responsibility for Treatment of 
the Maladies of War: We are grateful for VA decisions in recent years 
that show a greater willingness to judge in favor of the service 
member. The VA focus on health care conditions caused by battle should 
be on presumption and correction, not on initial refutation, delay, and 
denial. It is important that the decision to send troops into harm's 
way also involves an absolute commitment to care for any healthcare 
condition that may have resulted from that service. Many Veterans call 
and write to this Association about our government's denial, waffling, 
and reluctant recognition of illnesses caused by conditions during past 
conflicts. We applaud past decisions of your Committees toward 
reinforcing a commitment to unconditional care after service, and 
encourage you to do the same in the future.
    6. Taking Care of Families: Taking care of families is as essential 
as taking care of our Veterans. This is especially true for family 
members who now serve as the primary caregivers of ill or injured 
Veterans. By taking care of these family members, we honor a commitment 
made by our country to our Veterans and military members.

                  ANNUAL FUNDING OF VETERANS PROGRAMS

    Annual Funding: The Administration has not yet submitted its FY 
2014 Budget request so unlike past years we cannot comment on the 
Administration's proposal which I am told may be another month in 
coming. However, I want to make it clear that AFSA concurs with funding 
levels recommended by The Independent Budget (IB), a document co-
authored by the VFW, AMVETS, Disabled American Veterans, and Paralyzed 
Veterans of America. I understand you are already aware of these 
recommendations so I will only briefly comment on them. AFSA endorses 
the IB because we believe this careful review of Veterans programs 
reflects a more realistic assessment of the resources VA will need for 
the coming fiscal year.
    This year's Independent Budget recommends the following:

    <bullet>  $58.8 billion total for health care for FY 2014--$1.3 
billion more than what the Administration recommended ($57.5 billion) 
in the FY 2014 advance appropriation last year
    <bullet>  $2.4 billion for the Veterans Benefits Administration--
approximately $226 million more than the expected FY 2013 appropriated 
level
    <bullet>  $2.25 billion for all construction programs--
approximately $900 million more than the expected FY 2013 appropriated 
level and well below the true funding needs of construction projects 
that the VA must undertake
    <bullet>  $611 million for medical and prosthetic research, which 
is approximately $28 million more than the expected FY 2013 
appropriated level; and
    <bullet>  For the first time, the Independent Budget includes an 
advance appropriation recommendation for health care for FY 2015, 
recommending $61.6 billion.

    As in past years, I'm confident you will give the recommendations 
of the Independent Budget the consideration they deserve. We appreciate 
that because thousands of service members will be released by DoD in 
the coming months for budget reasons and as we draw down in 
Afghanistan, it is important to realize that many of them will soon 
turn to the VA for their care! VA needs to be prepared to accept 
responsibility for their care. If the Department of Defense is forced 
to lower its end strength levels to cut personnel costs, VA funding 
must be raised accordingly to account for the large influx of new 
Veterans into their system. AFSA is very concerned with VA's ability to 
meet the needs of America's transitioning Veterans including employment 
initiatives to help our Veterans find jobs during these challenging 
economic times. We will monitor this transition very carefully, and 
trust the Members of these Committees will as well.
    No patriot should be turned away or have their benefits delayed and 
it is imperative that VA is provided the full complement of resources 
to address this shift in the Nation's obligation. Equally important is 
the timeliness of VA funding for all VA programs.
    AFSA thanks the Committees for your leadership and steadfast 
resolve to preserve and protect Veterans' health care and benefits. We 
are particularly grateful for the more recent establishment of the 
advance appropriations authority for VA health care funding. Advance 
Appropriations have allowed the VA to maintain robust health care 
services for our Nation's Veterans in this most difficult fiscal 
climate. We strongly support legislation introduced by House Chairman 
Jeff Miller and Ranking Member Mike Michaud to fully fund the 
discretionary budget of the Veterans Affairs Department one full year 
in advance. H.R. 813 would make it easier for VA to plan for key 
investments in information technology, benefits claims processing and 
construction projects. It also would ensure that all VA services will 
have timely, predictable funding in an era where continuing resolutions 
and threats of government shutdowns are all too frequent.
    Passing this legislation will ensure funding for Veterans programs 
do not become a casualty of the legislative paralysis we are 
experiencing lately. It is up to you, the members of these Committees, 
to protect the care and benefits our Veterans have earned for their 
service. The ``Putting Veterans Funding First Act of 2013'' is a 
common-sense approach to ensure arbitrary budget cuts don't jeopardize 
the care and benefits America has promised our Veterans and I want to 
thank Mr. Miller and Michaud publicly for introducing this legislation. 
I hope the remainder of you will find it appropriate to support their 
efforts.
    Sequestration: I want to touch briefly on the subject of 
sequestration. Like our partner Associations represented here today, we 
are concerned how this could affect the availability of Veterans' 
benefits now and in the future. We were somewhat relieved with the 
White House Office of Management and Budget's recent announcement that 
that the entire Veterans Affairs Department's budget is exempt from 
sequestration, but feel it will take time before we understand 
sequestrations true impact on Veteran's programs. The Administration 
cannot say with certainty that Veterans' benefits won't be affected 
because many of VA's efforts are closely tied to those of other federal 
agencies who are subject to sequestration. For instance, the Department 
of Labor's Veterans Employment and Training Service now see their 
budgets cut under sequestration and this could affect VA's transition 
support services. Likewise, cuts to the Department of Housing and Urban 
Development will result in a reduction of vouchers that are used to 
house homeless Veterans. VA has made tremendous progress in lowering 
the number of homeless Veterans on our streets and it would be an 
absolute shame if sequestration undermined these herculean efforts by 
Secretary Shinseki. Last but not least, we are sincere in the hope that 
our Nations leaders can reach an agreement soon on a plan that helps 
control the budget deficit without adversely affecting those who serve 
in our military or our Veterans. Our members have made it clear they 
just want to see a solution that works, and they are frustrated because 
they want to be sure of what's going to happen to themselves and their 
families. Please do all you can to help provide this certainty for 
them.

                          VETERANS HEALTH CARE

    Integrated Electronic Health Record (iEHR): Secretary of Defense 
Panetta and Secretary of Veterans Affairs Eric Shinseki recently 
announced plans to ditch their two department's efforts to develop a 
single, bi-directional electronic health record as they and many of 
their predecessors have pledged to do. Like many of you, we were very 
disappointed to learn of their decision. The two departments now plan 
to retain their respective systems but continue to exchange common 
medical data. We share Chairman Miller's frustration on this issue!
    Conceived as a simple goal to improve the care of Veterans, this is 
something seemingly well within the grasp of modern technology but 
instead has wasted $1 billion taxpayer dollars. Now DoD and VA's action 
have veterans wondering why the two departments are throwing in the 
towel on this important endeavor.
    This is not the first time the two departments have stepped back 
from an effort like this. Plans to create an iEHR go back to the mid 
1980s at least. Numerous times the effort has been set aside usually 
followed by a new pledge, publically and with vigor, that the two 
Secretaries plan to ``resolve this problem once and for all.'' At some 
point the superfluous hype begins to lose its meaning.
    In the end it all boils down to leadership, or the lack thereof. If 
DoD and VA are truly committed to making the joint electronic health 
record a reality, we would have one by now. Civilian healthcare systems 
have one, why can't we?
    An iEHR remains critical for continuity of health care, VA claims 
processing, transparency, and because of the enormous demand for mental 
health care and other medical services arising from the drawdown of 
forces in Afghanistan and scheduled cuts in our Armed Forces. AFSA 
recommends the Committees' direct a comprehensive review of the 
accomplishments, current plans and future of the integrated Electronic 
Health Record project, and re-commit to the successful completion of an 
iEHR at the earliest practicable date.
    Suicide Prevention and Mental Health Services: The mental health 
and well-being of our courageous men and women who have served the 
Nation should be the highest priority for VA, and even one suicide is 
one too many. The tragic loss of Veterans who have served in the Armed 
Forces including members of the National Guard and Reserves to suicide 
is arguably the most challenging issue facing the VA. Although a report 
released by VA last month indicates that the percentage of Veterans who 
die by suicide has decreased slightly since 1999, the estimated total 
number of Veterans who have died by suicide has increased so clearly 
more effort is needed to break this trend.
    We were very grateful for Congress including suicide prevention and 
resilience provisions in the FY 2013 National Defense Authorization Act 
(NDAA). We thank the former Chair of the Senate Veterans Affairs 
Committee, Senator Patty Murray (D-WA) for her tireless efforts on this 
issue.
    However, the provisions in Senator Murray's ``Mental Health Care 
Access Act of 2012'' adopted for currently serving women and men were 
not considered for the VA health system. Nor has action been taken on 
the provisions that specifically direct the VA to ``develop and 
implement a comprehensive set of measures to evaluate mental health 
care services furnished by the Department of Veterans Affairs. These 
include measures to assess the timeliness of the furnishing of mental 
health care by the Department; the satisfaction of patients who receive 
mental health care services provided by VA; and the capacity of VA to 
furnish to furnish mental health care.
    VA is currently engaged in a commendable, aggressive hiring 
campaign to expand access to mental health services with 1,600 new 
clinical staff, 300 new administrative staff, and is in the process of 
hiring and training 800 peer-to-peer specialists who will work as 
members of mental health teams. We strongly support these efforts.
    VA's 24/7 suicide prevention hotline has proved to be effective by 
extending the Department's reach to more at-risk Veterans. I'm told the 
phones never stop ringing and in its five-plus years of existence, the 
crisis line has fielded more than 750,000 calls and more importantly 
has helped save some 26,000 callers on the brink of taking their own 
lives. Staffing at the center has grown from 13 to 300, and some, but 
not all, of the counselors are Veterans. The number of phone lines has 
increased from 3 to 30 but not all of the callers are Veterans. Besides 
handling calls from or about Veterans, the crisis line fields calls 
from Active Duty service members serving all around the world. These 
facts alone lend evidence of the scope of the problem the department 
faces.
    Despite the success of the hotline, we remain concerned that 
outreach efforts like this and community coordination efforts need to 
be increased and targeted at providing care and services when and where 
Veterans need it--not necessarily when and where the VA says they need 
it as was noted at a recent House Veterans' Affairs Committee hearing 
on mental health. AFSA urges the Committees to continue to support 
funds to expand VA's mental health capacity, and to improve oversight, 
accountability and responsiveness in the areas of access, timeliness, 
quality, delivery, and follow-on care and information. Witnesses at a 
recent mental health hearing reported that it's time for change and VA 
simply cannot continue to do ``business as usual.'' The Department must 
aggressively pursue outside assistance to be certain that every Veteran 
needing mental-cognitive services is not just handed over to a system, 
but handed over to an actual person who will arrange for short and 
long-term mental health care. Any expert in the field of mental health 
could tell you how crucial this live hand-off is for a Veteran 
contemplating taking his or her own life.
    Expansion efforts and funds should include marketing and outreach 
to encourage enrollment of eligible Veterans, with particular emphasis 
on rural Veterans and high risk populations. Further, we recommend the 
Committees review and adopt pertinent provisions for suicide prevention 
and resilience as enacted for the actively serving force in Sections 
579 through 583 of the FY 2013 NDAA to enhance the Department's support 
to Veterans. We support the rapid expansion of partnerships between the 
VA and outside mental health care providers like those in TRICARE 
networks and state-level programs. VA should pursue new ways to deliver 
mental health services, including establishing protocols with DoD to 
seamlessly transfer high risk service members with mental health or 
drug or alcohol abuse conditions directly (live hand-off) to a 
designated VA or partner provider prior to discharge from the military 
to ensure continuity of care. We ask that you to support additional 
funding for collaborative, mid- long-term research between DoD and VA 
on mental health care, and encourage you to conduct an oversight 
hearing to assess the effectiveness of implementation of Executive 
Order 13625, ``Improving Access to Mental Health Services for Veterans, 
Service Members, and Military Families'' and determine other actions 
that may be needed. Again, one suicide is too many. We need to do all 
we can to ensure the mental well-being of our Veterans before we can 
ever hope to curb the tragedy of Veterans taking their own lives.
    Wounded Warriors: Thousands of service members have been wounded in 
action over the past twelve years. Thousands of others have suffered 
service-connected illness and injuries in related support actions. As a 
Nation, we have no greater responsibility than to care for our warriors 
now suffering from the maladies of war. We are pleased high levels of 
funding for Wounded Warrior care and hope this trend never wanes. 
Continued emphasis and funding is needed for VA programs that address 
Traumatic Brain Injury (TBI) and Post-Traumatic Stress Disorder (PTSD), 
the two ``signature injuries'' of the most current conflicts. 
Oftentimes TBI and PTSD do not produce visible signs until long after 
the battle is over. Nor are they easy to treat. There is no ``one size 
fits all'' treatment and VA must research and ensure a variety of 
effective ones are readily available. At the same time, greater numbers 
of Veterans are returning from the battlefield with significant visual 
and auditory-impairments. We are concerned that VA may not have 
adequate resources to address the influx of Veterans with auditory and 
visual disabilities, and believe this area of care merits further study 
by these Committees.
    Care for Women Veterans: We applaud the actions of your Committees 
in recent years for championing women Veteran issues! The unique health 
care requirements of women Veterans must be addressed with a sense of 
higher urgency from Congress. According to a recent VA Fact Sheet, more 
than 1.8 of the Nations 22.2 million Veterans are women. Currently, 
women make up more than 19 percent of the active duty Air Force and 
approximately 21 percent of the Air Force Reserve. We currently have 
more than 214,000 women serving in the DoD today, many of whom served 
in Iraq and Afghanistan. Of those who have served, VA estimates that 
more than 40 percent have already enrolled for healthcare, a percentage 
that is expected to double in the next 20 years. They too, suffer from 
the same effects of battle as many of their fellow male service 
members; such as PTSD, TBI, and Wounded Warrior issues that come with 
wearing the uniform. While these and many other conditions are 
indiscriminate of sex, the fact remains that there are needs unique to 
females in and after service. As the number of women Veteran's 
increases, VA must not only be funded accordingly to meet their 
specific health care needs, but program developments must also match 
the shifting demographic.
    Defense Centers of Excellence: VA should actively support the 
efforts of many Defense Centers of Excellence (DCOE) which have been 
created to address specific areas of military related medicine. Their 
participation with each of the individual DCOE's will contribute to the 
diagnosis and treatment of the many types of severe injuries Veterans 
are experiencing as a result of the conflicts in Iraq and Afghanistan.
    Family Caregivers: Thanks to the past work of the Committees, 
catastrophically disabled OEF/OIF veterans whose spouses serve as 
primary care givers, receive additional allowances due to the severity 
of their service-connected multiple disabilities. Spouses who are full-
time caregivers are precluded from earning a retirement or Social 
Security benefits in their own right. However, when the veteran dies, 
the widow(er)'s income is reduced to the same Dependency and Indemnity 
compensation rate that other surviving spouses of veterans receive when 
the death was service connected. The percentage of replacement income 
can be as little as 15 percent whereas the income replacement of other 
federal survivor benefit plans is closer to 50 percent. To ensure 
fairness, AFSA recommends the Committees increase the income 
replacement rate for widow(er) s of catastrophically disabled veterans 
to a more appropriate level.
    At the same time, AFSA strongly supports the full expansion of the 
caregiver program to include Veterans of other engagements. There 
should be no distinction in the sacrifices made by a severely disabled 
Veteran or their family, regardless of where or when they served. The 
service of our Veterans from previous wars must be honored similarly, 
and we encourage Congress to pass legislation that expands caregiver 
benefits to Veterans of all eras.
    Support the judicious use of VA-DoD sharing arrangements: AFSA 
supports the judicious use of VA-DoD sharing arrangements involving 
network inclusion in the DoD health care program, especially when it 
includes consolidating physical examinations at the time of separation. 
It makes no sense to order a full physical exam on your retirement from 
the military and then within 30 days, the VA orders its own complete 
physical exam with most of the same exotic and expensive exams. The 
decision to end that duplication process represents a good, common-
sense approach that should eliminate problems of inconsistency, save 
time, and take care of Veterans in a timely manner. Initiatives like 
this will save funding dollars. However, AFSA recommends that these 
Committees closely monitor the collaboration process to ensure these 
sharing projects actually improve access and quality of care for 
eligible beneficiaries. DoD beneficiary participation in VA facilities 
must never endanger the scope or availability of care for traditional 
VA patients, nor should any VA-DoD sharing arrangement jeopardize 
access and/or treatment of DoD health services beneficiaries. One 
example of a successful joint sharing arrangement is the clinic with 
ambulatory care services in Colorado Springs, Colorado. This will aid 
the large number of Veterans remaining in the area and support the 
increases in Colorado Springs as a result of BRAC initiatives. The VA 
and DoD each have a lengthy and comprehensive history of agreeing to 
work on such projects, but follow-through is lacking. We urge these 
Committees to encourage joint VA-DoD efforts, but ask you to exercise 
close oversight to ensure such arrangements are implemented properly.
    Support VA Subvention: With more than 40 percent of Veterans 
eligible for Medicare, VA-Medicare subvention is a very promising 
venture, and AFSA offers support for this effort. Under this plan, 
Medicare would reimburse the VA for care the VA provides to non-
disabled Medicare-eligible Veterans at VA medical facilities. This 
funding method would, no doubt, enhance elderly Veterans' access to VA 
health care and enhance access for many Veterans.
    Other Healthcare Issues: Other Veteran's health-care issues not 
addressed in this statement but included in our Associations top 
priorities are:

    <bullet>  Limit user fees and prescription co-pay increases at VA 
medical facilities
    <bullet>  Require the VA to accept licensed civilian medical/dental 
provider prescriptions
    <bullet>  Pursue the VA to have chiropractic care where possible

                        GENERAL VETERANS ISSUES

    Disability Claims and Backlog: As the saying goes the biggest house 
in the room is the room for improvement and nowhere in VA does this 
adage hold more truth than in the area of claims processing. When I 
addressed the Committees last March there were 1.4 million total claims 
pending (initial, secondary, appeals, education, pension, etc.). Today 
that figure is closer to two million and this lack of progress just 
goes to show that throwing more money and people at a problem doesn't 
always guarantee success.
    To their credit, VA processed over one million claims last year but 
it has been unable to catch up to the rising demand. With the prospect 
of thousands of service members being forced to separate as a result of 
budget cuts, this problem is likely to get worse before its gets 
better. Frankly that disturbs me because for many Veterans, association 
with the VA begins with the claims process. AFSA supports a 
comprehensive, integrated strategy for improving the claims-management 
system with primary emphasis on quality decisions at the initial stage 
of the process. I don't profess to be an expert here, but I am aware 
larger VSOs have already made recommendations to these Committees in 
this area--changes my organization can and will support. One suggestion 
I do have lies in the area of the accuracy of claims processing because 
we should be focused on the ``quality'' of claims, not just the 
``quantity.'' I'm told the accuracy rate of completed claims at some 
regional facilities barely eclipses 50 percent where others reach 
upwards of 90 percent or more. The latter facilities clearly have a 
winning model and we should benchmark this process across all 
facilities. Instead of throwing more resources (money, people) at 
facilities with less than satisfactory ratings, we should bolster the 
capacity at facilities with high performance ratings then shift some of 
the workload there.
    Transition Assistance Program: The ``VOW To Hire Heroes Act'' made 
the Transition Assistance Program, or TAP as it's commonly referred to, 
mandatory for service members. This interagency workshop is coordinated 
by the Departments of Defense, Labor and Veterans Affairs to help them 
secure meaningful employment at the end of their service. We appreciate 
the efforts of your committees to make sure all separating members 
receive this important transition benefit. At the same time, AFSA is 
concerned that the content of TAP has changed very little in the last 
25 years. We understand the Department of Labor plans to unveil a new 
program in the near future, and we encourage Members of Congress to 
ensure it provides Veterans with information and tools that are 
current, relevant and useful for successful transition into the 
civilian sector. We hope the new program will place greater emphasis on 
the participation of military spouses because they too play a key role 
in the successful transition of the entire military family.
    Policy Consistency: We appreciate your Committees' efforts to 
reduce the pervading feeling among Veterans that our government's 
approach to providing adequate service to an ever-growing number of 
Veterans is to shrink the number of patients by excluding more classes 
of Veterans. Please continue to resist any effort that limits Priority 
8 Veterans who deserve to have the VA option available to them.
    Provide a Written Guarantee: Many Veterans are frustrated and 
disappointed because existing programs they thought they could depend 
on have been altered or eliminated due to changing budget philosophies. 
That has created a perception among service members and Veterans that 
the covenant between the Nation and the military member is one-sided--
with the military member/Veteran always honoring his/her obligation, 
and hoping that the government does not change the law or the benefits 
upon which they depend. We urge your Committees to support a guarantee 
in writing of benefits to which Veterans are legally entitled by virtue 
of their service. This would demonstrate that the government is 
prepared to be honest and consistent with its obligation to its service 
members and ``Keep America's Promise to America's Military ``
    State Veterans Homes: The State Veterans Home program has proven 
itself to be the most cost-effective source of high quality long-term 
health care services for the Nation's Veterans who need skilled 
nursing, domiciliary, adult day health care and other specialized 
programs to meet their needs. The cost of providing care at these 
facilities is roughly half of what it cost for VA. Last year these 
Committees were instrumental in passing the ``Honoring America's 
Veterans and Caring for Camp Lejeune Families Act of 2012'' which 
authorized the VA to enter into contracts or agreements with State 
homes, to pay for nursing home care provided to certain Veterans with 
service-connected disabilities. This provision was authored by Ranking 
Member Michaud and Chairman Miller and on behalf of the thousands of 
Veterans residing in these homes I thank you for this important quality 
of life change.
    Additional savings are possible by allowing similar reimbursement 
of adult day health care services at State Veteran Homes. Adult day 
care is integral part of the continuum of care for our Veterans and 
this change would help to preserve their individual choice and 
independence. Currently only three states have adult day health care 
programs within their facilities but plans are in the works at other 
state homes to provide this care in the future. The VA is already 
reimbursing community nursing homes for adult day health care to 
service-connected disabled Veterans Nationally and the department has 
established a prevailing rate for skilled nursing care at all State 
Veterans Homes. Therefore we recommend that the VA reimburse all State 
Veterans Homes providing adult day health care at 65 percent of the 
prevailing rate for a daily visit. And we urge the Veterans 
Administration to include adult day health care under the existing VA-
SVH provider agreements thereby providing full cost of care to Veterans 
with service-connected disabilities. The long overdue regulation in 
this area is hampering State Veterans Homes from full implementation. 
Why does it take the VA nearly 4 years to write a regulation?
    On a related matter, every state operates at least one State 
Veterans Home, and more are planned or projected annually to meet a 
growing demand of long term care programs and facilities for American's 
elderly, sick and disabled Veterans. Subchapter III of Chapter 81, 
Title 38, United States Code, authorizes the State Extended Care 
Facilities Grant Program, funded by VA through congressional 
appropriations, to assist the States through grants for construction of 
new State Veterans Homes and for significant renovations of existing 
facilities, at a cost not to exceed 65 percent of the total cost of any 
such project proposed by a State and approved by the Secretary of 
Veterans Affairs. Currently there are $322 million in Priority One 
projects and $752 million total in grant applications waiting funding, 
but last year the Administration requested $85 million for that 
program. It doesn't take a rocket scientist to figure out at that rate 
we won't get the state home program where it needs to be at that rate. 
Again, it is difficult to make a recommendation in the absence of a FY 
2014 Budget Proposal so this Association simply asks that you consider 
providing a greater level of funding for the program in FY 2014--at 
least $100 million in order for the Department of Veterans Affairs and 
several states to help reduce the structural backlog of worthwhile 
projects.
    Protect VA Disability Compensation: Despite being clearly stated in 
law, Veterans' disability compensation has become an easy target for 
former spouses and lawyers seeking money. This has been allowed to 
transpire despite the fact the law states that Veterans' benefits 
``shall not be liable to attachment, levy, or seizure by or under any 
legal or equitable process, whatever, either before or after receipt by 
the beneficiary.'' Once a rare occurrence, we hear this is happening 
with increasing frequency. Now is the time to consider enactment of a 
specific probation to preclude the award of VA disability dollars to 
former spouses or third parties during civil proceedings.
    Homeless Veterans: Fighting in a war can be a harrowing experience, 
but imagine coming back and not being able to find a home. Although 
flawless counts are impossible to come by, the U.S. Department of 
Housing and Urban Development (HUD) estimates that 62,619 Veterans are 
homeless on any given night--down from about 67,500 one year ago. Over 
the course of a year, approximately twice that number may experience 
homelessness. Only 7 percent of the general population can claim 
Veteran status, but nearly 13 percent of the homeless adult populations 
are Veterans. Of particular concern are homeless Veterans that have 
young children because we understand their numbers are increasing. 
Another at risk group are younger vets--those who have served in Iraq 
and Afghanistan because unemployment rates in this group are much 
higher than the National average. Now we learn of homeless female 
Veterans to add to the woes.
    The Department of Veterans Affairs is taking decisive action to end 
Veteran homelessness by 2015 and it is clear their efforts are having a 
positive effect on this problem. Thanks to your efforts, the department 
has the resources it needs to provide numerous opportunities for 
Veterans to return to employment which is an important element in 
preventing homelessness. Compensated Work Therapy (CWT) is comprised of 
three unique programs which assist homeless Veterans in returning to 
competitive employment: Sheltered Workshop, Transitional Work, and 
Supported Employment. Veterans in CWT are paid at least the federal or 
state minimum wage, whichever is the higher. The Homeless Veteran 
Supported Employment Program (HVSEP) provides vocational assistance, 
job development and placement, and ongoing supports to improve 
employment outcomes among homeless Veterans and Veterans at-risk of 
homelessness. Formerly homeless Veterans who have been trained as 
Vocational Rehabilitation Specialists (VRSs) provide these services.
    In terms of providing direct housing support, VA's Homeless 
Providers Grant and Per Diem Program provides grants and per diem 
payments (as funding is available) to help public and nonprofit 
organizations establish and operate supportive housing and service 
centers for homeless Veterans. This important partnership goes far in 
reducing the number of homeless vets on our streets each night. The 
HUD-VA Supportive Housing (VASH) Program is a joint effort between the 
Department of Housing and Urban Development and VA. HUD has allocated 
nearly 38,000 ``Housing Choice'' Section 8 vouchers across the country. 
These vouchers allow Veterans and their families to live in market rate 
rental units while VA provides case management services. The Acquired 
Property Sales for Homeless Providers Program makes all VA foreclosed 
properties available for sale to homeless provider organizations--at a 
20 to 50 percent discount--to shelter homeless Veterans. And the 
Supportive Services for Veteran Families (SSVF) Program provides grants 
and technical assistance to community-based, nonprofit organizations to 
help Veterans and their families stay in their homes.
    VA's Health Care for Homeless Veterans (HCHV) Program offers 
outreach, exams, treatment, referrals, and case management to Veterans 
who are homeless and dealing with mental health issues, including 
substance use. Offered at 135 facilities nation-wide, this program and 
others like it are helping to meet the healthcare needs of our homeless 
Veterans. More can be done and will be needed if we truly hope to 
eradicate the Nations homeless program once and for all.
    Legitimate, Sincere Veterans Preference: Commendable moves in 
recent years by VA and the Department of Labor have enhanced the job 
preferences available to Veterans. However, we need to ensure that OPM 
guidelines that allow selective hiring practices within the federal 
government are removed. Some Veteran applications are never even 
considered for employment in the federal government, due to allowed 
restrictive qualification wording and narrowed hiring practices. We 
continue to urge your Committees to support any improvement that will 
put ``teeth'' into such programs so that those who have served have a 
``leg up'' when transitioning back into the civilian workforce.
    Additionally we hope these Committees will look at ways how the 
additional 5 Veterans preference points given to disabled Veterans can 
be extended to those who are clearly eligible, but do not yet have a 
completed claim by VA. Wounded Warriors aside, if a military member 
stood before you, absent an arm as a result of their military service, 
why on God's green earth do they need to fill out paperwork to prove 
there are a disabled Vet and entitled to the full 10 points? Current 
statues require a determination by VA before the additional points can 
be given. With claims processing taking years to complete, that's an 
awful long time to make someone wait for the addition consideration. 
It's unnecessary and this simple action would complement the work of 
the Administration and these Committees to enhance employment 
opportunities for our Veterans.
    Concurrent Receipt: AFSA continues its advocacy for legislation 
that provides concurrent receipt of military retired pay and Veterans' 
disability compensation for all disabled retirees without offset. Under 
current statues, retirees with 50 percent or greater disabilities will 
receive their full retired pay and VA disability in FY 2014. We were 
pleased with language Congress approved in the FY 2013 National Defense 
Authorization Act that fixed a long-standing glitch in the current 
statutory formula that underpaid (and in some cases eliminated any 
payment) of Combat-Related Special Compensation for combat-disabled 
military retirees. Congress should now focus on eliminating this unjust 
offset for Veterans with lesser disabilities and in particular, 
individuals who were medically retired with less than 20 years of 
service due to a service-connected illness or injury. They are not 
treated equally! Currently 3 bills have been introduced in the 113th 
Congress to address this issue. They are: H.R. 303, H.R. 333, and S. 
234 by Representative Gus Bilirakis (R-FL), Representative Sanford 
Bishop (D-GA), and Senate Majority Leader Harry Reid (D-NV) 
respectively. I understand the issue of concurrent receipt actually 
falls under the purview of the Armed Services Committees, but it is so 
closely linked with the efforts of these Committees, I urge you to 
support it as well.
    Veterans Status for Certain Reserve Component Members: AFSA 
supports full Veteran status for Reserve component members with 20 
years or more of service, who do not otherwise qualify for Veterans 
status under current law. Due to military funding and accounting 
protocols, many reservists performed operational missions during their 
careers but the orders purposely were issued under other than Title 10 
authority to comply with funding and accounting protocols. Ironically, 
these career reservists have earned specified veterans' benefits, but 
they can't claim that they are veterans--at least not by the letter of 
the law.
    In October 2011 the House passed H.R. 1025, which was introduced by 
Representative Tim Walz (D-MN) to address this issue but the Senate did 
not approve that bill or its companion measure introduced by Senator 
Mark Pryor (D-AR). Representative Walz has reintroduced his 
legislation; H.R. 679. Passing this bill will not cost a penny; it does 
not extend any benefit to these individuals that they have not already 
earned. It simply bestows upon them the honorarium of being called a 
veteran. The House is likely to pass the bill again this year so I urge 
the Senate to take a hard look at this legislation and stop denying 
these individuals the dignity of being called a veteran.
    Retirement Benefits: Last year the Administration's FY 2013 budget 
proposal called for higher TRICARE fees, the establishment of new ones 
and the creation of a BRAC-like panel that will review current military 
compensation and recommend changes (most likely reductions) for 
Congress to consider. The President, some Members of Congress and many 
senior civilian leaders repeatedly said they will ``not balance the 
budget on the backs of Veterans.''
    With roughly 20 percent of Congress having served in the military, 
the Legislative Branch far exceeds the National average in that only 1 
percent of US Citizens have served in the military. Unfortunately that 
means that 80 percent of Congress and 99 percent of the Nation don't 
understand one subtle, but ever so important nuance of military 
service.
  A Veteran is someone who has dedicated their life to their country.
     A military retiree is a Veteran who has dedicated a lifetime.
    A military retiree should be treated as a National treasure and 
senior military leaders often speak of the importance of ``keeping the 
faith'' with military members - particularly where earned benefits are 
concerned. Benefits like retired pay and healthcare. Right now, Airmen 
are asking ``Where is the faith?'' And they are looking to you, the 
Members of Congress, to provide that answer. A large portion of the 
success of the all-volunteer force can be directly attributed to the 
benefits we provide military members in return for their service and 
sacrifice, regardless of length. It will only serve to undermine long-
term retention and readiness when current service men and women hear 
the talk of how their predecessors . . . the Veterans, the military 
retirees, the National treasures . . . might get treated by their 
country instead of fulfilling their promised benefits.
    Stolen Valor of 2013: Those who serve our country in uniform take a 
solemn vow to protect this nation and put their lives on the line so we 
can continue to enjoy the freedoms we have today. They deserve our 
honor; our respect, our support and our prayers but they do not deserve 
to have their service and sacrifice devalued and desecrated by 
impostors. Too many in this country wrongfully claim military service 
or high military honors in order to garner unearned benefits like a 
job, a donation, political favors or a scholarship for their children. 
H.R. 258 by Representative Joe Heck (R-NV) and S. 210 by Senator Dean 
Heller (R-NV) will help keep these scammers in check by making it 
illegal to benefit by lying about military service or detract from an 
honored veteran's accomplishments.
    POW/MIAs: AFSA remains committed to provide the fullest possible 
accounting of missing military members from all past and future 
military actions, and promotes international compliance in recovery 
efforts. We urge the members of these Committees to fully support and 
fund the efforts of the Joint POW/MIA Accounting Command (JPAC), a 
joint task force within DoD whose mission is to account for Americans 
who are listed as Prisoners Of War (POW), or Missing in Action (MIA).
    Full accounting of those Missing in Action is not just a term for 
us, it is a commitment to the memory of those missing in action and 
their families. We, as a Nation, owe these families our very best 
efforts to account for all missing members of our Armed Forces.

                          SUPPORT OF SURVIVORS

    SBP/DIC Offset: With current military deployments and increasing 
casualties, it is imperative that we plan to properly take care of 
those who may be left behind if a military member makes the ultimate 
sacrifice. We commend these Committees for previous legislation, which 
allowed retention of Dependency and Indemnity Compensation (DIC), 
burial entitlements, and VA home loan eligibility for surviving spouses 
who remarry after age 57. However, we strongly recommend the age-57 DIC 
remarriage provision be reduced to age 55 to make it consistent with 
all other federal survivor benefit programs.
    We also endorse the view that surviving spouses with military 
Survivor Benefit Plan (SBP) annuities should be able to concurrently 
receive earned SBP benefits and DIC payments related to their sponsor's 
service-connected death. AFSA has SBP-DIC offset repeal as their #1 
focus item for survivors! We want to thank Congressman Joe Wilson, (R-
SC) for introducing H.R. 32 in the 113th Congress which addresses this 
issue as well as the 70 cosponsors who have already endorsed this 
effort. I'm told Senator Bill Nelson (D-FL) plans to reintroduce a 
Senate companion bill soon and I urge the members of the Senate to 
cosponsor that bill as well.
    Special Survivor Indemnity Allowance: The fiscal year 2008 NDAA 
(Public Law 110-181) created the Special Survivor Indemnity Allowance 
(SSIA) for surviving spouses' whose military Survivor Benefit Plan 
(SBP) annuities were being offset, in whole or in part, by Dependency 
and Indemnity Compensation (DIC) which are paid by the Department of 
Veterans Affairs. It also applies to the widows of members who died on 
active duty whose SBP annuity is partially or fully offset by their 
DIC. Congress approved this legislation in lieu of repealing the SBP/
DIC offset.
    SSIA began as a $50 monthly payment on October 1, 2008, and was 
scheduled to increase by $10 each year through 2013 when the benefit 
expired. In 2009, a provision in the Family Smoking Prevention and 
Tobacco Control Act (Public Law No: 111-31) extended the allowance 
another five years and increased projected monthly rates. Provisions in 
the House version of FY 2012 NDAA would have extended the benefit 
through 2021, and raise monthly rates slightly through FY 2017, but the 
provision was dropped in Joint Conference. Needless to say we were 
disappointed with this action and continue to call on Members of 
Congress to eliminate this unjust offset altogether.
    CHAMPVA Dental Plan Participation: AFSA supports a plan that allows 
Survivors qualified for CHAMPVA health care to be allowed to enroll in 
a proposed CHAMPVA Dental program. The proposal, which is modeled on 
the TRICARE Retiree Dental Plan, would have no PAYGO offset requirement 
since it would be fully funded by enrollees' premiums.
    Final Paycheck: Finally, it is time to end the government's 
practice of electronically withdrawing the last paycheck of military 
retirees upon their death. Automatically withdrawing these funds can 
inadvertently cause essential payments to bounce and place great 
financial strain on a beneficiary already faced with the prospect of 
additional costs associated with their loved one's death. In the 112th 
Congress Congressman Walter Jones, (R-NC) introduced H.R. 493, the 
``Military Retiree Survivor Comfort Act,'' which would allow survivors 
to retain the full month's retired pay for any month the retiree was 
alive for at least 24 hours. To offset the cost associated with his 
proposal, a provision of the bill would delay the first Survivor 
Benefit Plan (SBP) annuity payment until the month after the retiree 
dies. Congress passed a similar law in 1996 allowing surviving spouses 
to retain Veterans disability and VA pension payments issued for the 
month of the Veteran's death. AFSA strongly believes military retired 
pay should be treated no differently.

                               CEMETERIES

    National Cemeteries: VA's National Cemetery Administration (NCA) is 
responsible for providing final honors to many of our Nation Veterans. 
Thanks to your efforts, many expansion projects and construction 
projects have been completed, are underway or are being planned to 
ensure everyone who served this Nation in uniform has a final resting 
place. However we urge your continued oversight of the system to ensure 
the Nations solemn obligations in this area are maintained.
    Clark Veterans Cemetery: We applaud the recent passage of 
legislation authored by Senator Kelly Ayotte (R-NH) that authorizes the 
restoration of the Veterans Cemetery at former Clark Air Force Base in 
the Philippines and places it under the care of the American 
Battlefields Monuments Commission (ABMC). This cemetery was established 
in 1948 by moving remains and head stones of over 7,000 graves from 
several older U.S. military base cemeteries located throughout the 
Philippines to include Fort McKinley in Manila, Sangley Point Naval 
Station and two cemeteries located on Fort Stotsenberg. Over 5,000 
alone were disinterred from the old Fort McKinley cemetery to make room 
for a new World War II American Military Cemetery and Memorial on the 
same site, forever linking the Clark and new Manila Cemetery. The Air 
Force continued military burials at Clark until November 1991. The CVC 
then fell into disrepair with overgrown vegetation, vandalism, ash 
damage and looting. In 1994 the local VFW Post restored the cemetery as 
best they could and began a program of maintenance as well as burial of 
our Veterans. Today, over 8,600 American Veterans and their families 
are interred, Veterans who served in every war since the Civil War, to 
include the Iraq War. For years it was an abandoned and forgotten 
American Military Cemetery with over a hundred years of history as rich 
as any other of our Nation's military cemeteries. I know the very 
recent funding and responsibility changes will fix the problems and I 
applaud Chairman Miller and Vice Chair Bilirakis for going to the Clark 
Cemetery during the recent congressional recess to assess the problems 
there first-hand.

                               EDUCATION

    Post 9/11 GI Bill: Arguably the best piece of legislation ever 
passed by Congress in recent times and thanks to the efforts of many of 
you here, the Post-9/11 GI Bill (Chapter 33) is providing unprecedented 
educational opportunities for thousands of men and women who served in 
uniform since 9/11 and many of their family members. Last year VA 
provided educational benefits to nearly a million students with more 
than half of the recipients receiving their education via the Post-9/11 
GI Bill.
    We are especially grateful for the bi-partisan and bi-cameral 
effort that resulted in final passage of H.R.4057, the ``Improving 
Transparency of Education Opportunities for Veterans Act of 2012.'' 
This important legislation directs access to upgraded information 
resources for Veterans so they make smart choices about their 
education, improves reporting on outcomes and strengthens oversight of 
all institutions receiving GI Bill funding. Each of these will go far 
in ensuring the best stewardship of our tax dollars.
    AFSA asks the Committees to consider other potential improvements 
to the Post 9/11 GI Bill these include:

    <bullet>  Authorizing in-state tuition rates for all non-resident 
student Veterans enrolled in public colleges and universities;
    <bullet>  Allowing use of Post 9/11 benefits to cover costs 
required in the pursuit of a degree;
    <bullet>  Expanding the VetSuccess On Campus program so that more 
Veterans can get benefit from academic and career counseling support;
    <bullet>  Amending the educational counseling provisions in Chapter 
36, 38 U.S.C. to mandate such counseling via appropriate means, 
including modern technologies, and permit Veterans to opt out of the 
program;
    <bullet>  Raising the $6 million cap in the counseling provision to 
meet the enormous demand of new GI Bill enrollments; and
    <bullet>  Requiring all programs receiving funding under the GI 
Bill be ``Title IV'' eligible. In other words, post-secondary academic 
programs should be required to meet Department of Education 
accreditation and other requirements

    Providing in-state tuition rates at federally supported State 
universities and colleges-regardless of residency requirements, is an 
important goal for AFSA due to the mobile nature of the military.
    Education Benefits for Survivors and Dependents: VA's Survivors & 
Dependents Assistance (DEA) Program (Chapter 35) provides education and 
training opportunities to the spouse and eligible children of certain 
Veterans. Whereas most VA educational programs increased payment rates 
in recent years, the DEA program has not. As a result, the value of 
this benefit continues to erode as college costs continue to climb. 
Congress should boost these rates to closely match the current cost of 
a four-year public university.

                               CONCLUSION

    Chairman Sanders, Chairman Miller, in conclusion, I want to thank 
you again for this opportunity to express the views of our members on 
these important issues as you consider the FY 2014 budget. We realize 
that those charged as caretakers of the taxpayers' money must budget 
wisely and make decisions based on many factors. As tax dollars must be 
prioritized, the degree of difficulty deciding what can be addressed, 
and what cannot, grows significantly. However, AFSA contends it is of 
paramount importance for a Nation to provide quality health care and 
top-notch benefits in exchange for the devotion, sacrifice, and service 
of military members during their prime adult working years, 
particularly while the Nation remains at war. So too, must those making 
the decisions take into consideration the decisions of the past, the 
trust of those who are impacted, and the negative consequences upon 
those who have based their trust in our government.
    We sincerely believe the work the House and Senate Veterans' 
Affairs Committees do is among the most important on the Hill. Year 
after year, these two Committees have illustrated the value of non-
political cooperation with the full focus of your efforts on the well-
being of those who have served and are serving this Nation. On behalf 
of all AFSA members, we appreciate your efforts and as always, we stand 
ready to support you in matters of mutual concern.
    The Air Force Sergeants Association looks forward to working with 
you in this first Session of the 113th Congress.
    Respectfully submitted this 6th day of March, 2013

                                 <F-dash>
                   Prepared Statement of Bill Lawson

    Chairman Miller, Chairman Sanders and members of the Committees, I 
appreciate the opportunity to present the legislative priorities for 
2013 of Paralyzed Veterans of America (Paralyzed Veterans). Since its 
founding, Paralyzed Veterans has developed a worthy record of 
accomplishment, of which we are extremely proud. Again, this year, I 
come before you with our views on the current state of veterans' 
programs and services and recommendations for continued improvement in 
the services and benefits provided to veterans.
    BACKGROUND--Paralyzed Veterans was founded in 1946 by a small group 
of returning World War II veterans, all of whom had experienced 
catastrophic spinal cord injury and who were consigned to various 
military hospitals throughout the country. Realizing that neither the 
medical profession nor government had ever confronted the needs of such 
a population, the returning veterans decided to become their own 
advocates and to do so through a national organization.
    From the outset the founders recognized that other elements of 
society were neither willing nor prepared to address the full range of 
challenges facing individuals with a spinal cord injury, be they 
medical, social, or economic. Paralyzed Veterans' founders were 
determined to create an organization that would be governed by the 
members, themselves, and address their own unique needs. Being told 
that their life expectancy could be measured in weeks or months, these 
individuals set as their primary goal actions that would maximize the 
quality of life and opportunity for all veterans and individuals with 
spinal cord injury--it remains so today.
    To achieve its goal over the years, Paralyzed Veterans has 
established ongoing programs of research, sports, service 
representation to secure our members' and other veterans' benefits, 
advocacy in promoting the rights of all citizens with disabilities, 
architecture promoting accessibility, and communications to educate the 
public about individuals with spinal cord injury. We have also 
developed long-standing partnerships with other veterans' service 
organizations. Paralyzed Veterans, along with AMVETS, Disabled American 
Veterans, and the Veterans of Foreign Wars, co-author The Independent 
Budget--a comprehensive budget and policy document that has been 
published for 27 years.
    Today, Paralyzed Veterans is the only congressionally chartered 
veterans' service organization dedicated solely to the benefit and 
representation of veterans with spinal cord injury or disease.
    SUFFICIENT, TIMELY AND PREDICTABLE FUNDING FOR VA HEALTH CARE-- As 
the country faces a difficult and uncertain fiscal future, the 
Department of Veterans Affairs (VA) likewise faces significant 
challenges ahead. Congress and the Administration continue to face 
immense pressure to reduce federal spending. With these thoughts in 
mind, we cannot emphasize enough the importance of ensuring that 
sufficient, timely and predictable funding is provided to the VA. We 
anxiously await the budget submission to be released by the 
Administration that will include funding recommendations for VA 
programs for FY 2014, the advance appropriation recommendation for FY 
2015, and an updated analysis of the funding needs for health care 
programs for FY 2014.
    Meanwhile, Paralyzed Veterans is particularly concerned that the 
broken appropriations process continues to have a negative impact on 
the operations of the VA. Once again this year Congress failed to fully 
complete the appropriations process in the regular order, instead 
choosing to fund the federal government through a 6-month Continuing 
Resolution. As a result of the enactment of advance appropriations, the 
health care system is generally shielded from the difficulties 
associated with late appropriations (an occurrence that has become the 
rule, not the exception). However, we cannot be certain that health 
care spending will not be negatively impacted by this 6-month 
continuing resolution. The unacceptable manner with which the FY 2014 
advance appropriations funding was handled in the FY 2013 continuing 
resolution reaffirms this concern.
    Moreover, The Independent Budget co-authors remain concerned about 
steps VA has taken in recent years in order to generate resources to 
meet ever-growing demand on the VA health-care system. The 
Administration continues to rely upon ``management improvements,'' a 
popular gimmick that was used by previous Administrations to generate 
savings and offset the growing costs to deliver care. Unfortunately, 
these savings were often never realized leaving VA short of necessary 
funding to address ever-growing demand on the health-care system. 
Additionally, the VA continues to overestimate and underperform in its 
medical care collections. Overestimating collections estimates affords 
Congress the opportunity to appropriate fewer discretionary dollars for 
the health care system. However, when the VA fails to achieve those 
collections estimates, it is left with insufficient funding to meet the 
projected demand. As long as this scenario continues, the VA will find 
itself falling farther and farther behind in its ability to care for 
those men and women who have served and sacrificed for this nation.
    For FY 2014, The Independent Budget recommends approximately $58.8 
billion for total medical care, an increase of $3.3 billion over the FY 
2013 operating budget. Meanwhile, the Administration recommended an 
advance appropriation for FY 2014 of approximately $54.4 billion in 
discretionary funding for VA medical care. When combined with the $3.1 
billion Administration projection for medical care collections, the 
total available operating budget recommended for FY 2014 is 
approximately $57.5 billion.
    The medical care appropriation includes three separate accounts--
Medical Services, Medical Support and Compliance, and Medical 
Facilities--that comprise the total VA health-care funding level. For 
FY 2014, The Independent Budget recommends approximately $47.4 billion 
for Medical Services. For Medical Support and Compliance, The 
Independent Budget recommends approximately $5.84 billion. Finally, for 
Medical Facilities, The Independent Budget recommends approximately 
$5.57 billion.
    As explained previously, P.L. 111-81 required the President's 
budget submission to include estimates of appropriations for the 
medical care accounts for FY 2013 and subsequent fiscal years. With 
this in mind, the VA Secretary is required to update the advance 
appropriations projections for the upcoming fiscal year (FY 2014) and 
provide detailed estimates of the funds necessary for the medical care 
accounts for FY 2015.
    For the first time this year, The Independent Budget offers 
baseline projections for funding for the medical care accounts for FY 
2015. While we have previously deferred to the Administration and 
Congress to provide sufficient funding through the advance 
appropriations process, we have growing concerns that this 
responsibility is not being taken seriously. The fact that for two 
fiscal years in a row the Administration recommended funding levels 
that were not changed in any appreciable way upon review, and the fact 
that Congress simply signed off on those recommendations without 
thorough analysis, leads us to conclude that VA funding is falling 
farther and farther behind the growth in demand for services. We 
believe the continued feedback from veterans around the country about 
long wait times and lack of access to services affirms this belief. As 
such, we have decided to offer our own estimates of what we believe the 
true resource needs will be for the VA health care system in FY 2015.
    For FY 2015, The Independent Budget recommends approximately $61.6 
billion for total medical care. Unfortunately, the Administration has 
yet to provide its FY 2014 Budget Request which will include an advance 
appropriation recommendation for FY 2015 for VA health care. For FY 
2015, The Independent Budget recommends approximately $49.8 billion for 
Medical Services. For Medical Support and Compliance, The Independent 
Budget recommends approximately $6.14 billion. Finally, for Medical 
Facilities, The Independent Budget recommends approximately $5.69 
billion.
    Paralyzed Veterans would like to applaud Chairman Miller and 
Ranking Member Michaud for introducing H.R. 813, the ``Putting Veterans 
Funding First Act of 2013.'' This legislation requires all accounts of 
the VA to be funded through the advance appropriations process. It 
would provide protection for the operations of the entire VA from the 
political wrangling that occurs as a part of the appropriations process 
every year. Similarly, we would like to thank Representative Brownley 
for introducing H.R. 806, the ``Veterans Healthcare Improvement Act.'' 
This legislation permanently establishes the Government Accountability 
Office's reporting requirements as a part of VA advance appropriations.
    PROTECTION OF THE VA HEALTH CARE SYSTEM, WITH A FOCUS ON 
SPECIALIZED SERVICES--The VA is the best health care provider for 
veterans. Providing primary care and specialized health services is an 
integral component of VA's core mission and responsibility to veterans. 
Across the nation, VA is a model health care provider that has led the 
way in various areas of medical research, specialized services, and 
health care technology. In fact, the VA's specialized services are 
incomparable resources that often cannot be duplicated in the private 
sector. However, these services are often expensive, and are severely 
threatened by cost-cutting measures and the drive toward achieving 
management efficiencies.
    Over the years, the VA has earned a reputation as a leader in the 
medical field for its quality of care and innovation in both the health 
care and medical research fields. However, even with VA's advances as a 
health care provider, some political leaders and policy makers continue 
to advocate expanding health care access for veterans by contracting 
for services in the community. While we recognize that VA must tap into 
every resource available to ensure that the needs of veterans are being 
met, such changes to the Veterans Health Administration (VHA) would 
move veterans out of the ``veteran-specific'' care within VA, leading 
to a diminution of VA health care services, and increased health care 
costs in the federal budget. Despite recent calls for providing 
veterans with increased access through vouchers for private care or the 
expansion of fee basis care, Paralyzed Veterans strongly believes that 
VA remains the best option available for veterans seeking health care 
services.
    The VA's unique system of care is one of the nation's only health 
care systems that provide developed expertise in a broad continuum of 
care. Currently, VHA serves more than 8 million veterans, and provides 
specialized health care services that include program specific centers 
for care in the areas of spinal cord injury/disease, blind 
rehabilitation, traumatic brain injury, prosthetic services, mental 
health, and war-related poly-traumatic injuries. Such quality and 
expertise on veterans' health care cannot be adequately duplicated in 
the private sector.
    Moreover, specialized services, such as spinal cord injury care, 
are part of the core mission and responsibility of the VA. These 
services were initially developed to care for the unique health care 
needs of veterans. The provision of specialized services is vital to 
maintaining a viable VA health care system. Specialized services are 
part of the primary mission of the VA. The erosion of these services 
would lead to the degradation of the larger VA health care mission. 
Reductions in beds and staff in both VA's acute and extended care 
settings have been reported, even though Public Law 104-262, ``The 
Veterans' Health Care Eligibility Reform Act of 1996,'' mandated that 
VA maintain its capacity to provide for the special treatment and 
rehabilitative needs of veterans. In addition, Congress required that 
VA provide an annual capacity reporting requirement, to be certified or 
commented upon, by the Inspector General of the Department. 
Unfortunately, this basic reporting requirement expired in 2004.
    With growing pressure to allow veterans to seek care outside of the 
VA, the VA faces the possibility that the critical mass of patients 
needed to keep all services viable could significantly decline. All of 
the primary care support services are critical to the broader 
specialized care programs provided to veterans. If primary care 
services decline, then specialized care is also diminished.
    Meanwhile, as VA services are designed specifically to meet the 
needs of veterans, VHA has received excellent ratings from patient 
satisfaction surveys, and garnered much recognition for its national 
safety program. The VA's system of patient-centered and coordinated 
care helps to ensure safe and consistent delivery of services. 
Additionally, independent research organizations have also found VA to 
be the lowest cost provider when compared to private health care 
systems. Paralyzed Veterans will continue to oppose any efforts that 
place the VA health care system at risk of being unable to properly 
meet the health care demands of veterans, particularly veterans with 
spinal cord injury or dysfunction.
    OVERSIGHT OF THE VA PROSTHETICS PROGRAM--The VA Prosthetic and 
Sensory Aids Service (PSAS) has created a prosthetics and surgical 
products contracting center within the VA Office of Acquisition and 
Logistics that is responsible for ordering prosthetic devices that cost 
$3000 or more. This change has resulted in delayed delivery of 
prosthetic devices, the diminution of quality service delivery for 
disabled veterans, and prolonged hospital stays for veterans waiting 
for prosthetic equipment that they need to safely move forward in the 
rehabilitation process.
    The implementation of the new warrant transition process has not 
unfolded as planned, and an increasing number of veterans are suffering 
the consequences, languishing in hospitals as in-patients, or at home 
without their much needed prosthetic equipment. The VA is not 
communicating effectively with veterans and stakeholders in the veteran 
community to learn of the various ways that this change is impacting 
veterans and the delivery of their care. Paralyzed Veterans believes 
that VA's new warrant transition process requires more attention than 
it is currently receiving, and we recommend increased Congressional 
oversight to bring attention to the negative outcomes that have 
resulted from this change, and identify ways to address the issues.
    Although the warrant transition involves a small percentage of the 
total workload for VHA, this change includes critical prosthetic 
devices such as artificial limbs, wheeled mobility chairs, and surgical 
implants. Delays in these procurements prove costly to both the 
government, in terms of unnecessarily extended hospital stays while 
awaiting equipment, and veterans, in terms of lost independence and 
quality of life.
    PROTECTING VETERANS BENEFITS WHILE MODERNIZING THE VA CLAIMS 
PROCESS--Paralyzed Veterans believes that VA benefits have no place in 
deficit reduction efforts. VA disability compensation is a benefit 
provided because an individual became disabled in service to the 
country. In addition, many ancillary benefits--particularly Specially 
Adapted Housing benefits, adaptive automobile assistance, and 
vocational rehabilitation--are provided to service connected disabled 
veterans. Moreover, education benefits, such as the Post-9/11 GI Bill, 
are earned through service. These benefits reflect the debt of 
gratitude this nation owes the men and women who served in uniform and 
recognize the challenges they face every day as a result of their 
service. Any attempt to reduce or modify eligibility criteria would be 
considered an abrogation of the responsibility that this nation has to 
veterans and would be wholly unacceptable. Additionally, reduction in 
funding for VA pension programs would place veterans who live on the 
financial margins to face the prospect of poverty and homelessness.
    Meanwhile, the Veterans Benefits Administration (VBA) continues to 
work toward reducing the backlog of VA claims, but they must focus on 
creating a veteran's benefits claims processing system designed to 
``get each claim done right the first time.'' This goal cannot be over 
emphasized. This system needs to be based upon modern, paperless 
information technology (IT) and workflow systems focused on quality, 
accuracy, efficiency and accountability and must be capable of 
continuous improvement. VBA must evolve its corporate culture to focus 
on information gathering, systems analysis, identification of problems, 
creative solutions and rapid adjustments. If VBA stresses quality 
control and training, and continues to receive sufficient resources, 
timeliness will improve and production will increase and then and only 
then can the backlog be reduced and eventually eliminated.
    VA has presented over 40 initiatives as components of its 
transformation plan which signals a commendable effort on VA's part to 
comprehensively confront issues that have long plagued its systems and 
processes. However, the success of this litany of initiatives depends 
heavily on whether the VA Regional Offices are properly staffed and 
resourced, training is adequate, and the cost-benefit analyses are 
thorough and honest. Given the enormous pressure to reduce the backlog, 
Paralyzed Veterans is also concerned that there could be a bias towards 
process improvements that result in greater production over those that 
lead to greater quality and accuracy.
    VA's most anticipated initiative, the Veterans Benefits Management 
System (VBMS), pioneered the development of a paperless claims IT 
solution to improve future business processes. It was intended to 
enable more efficient claims process flow to reduce cycle time by 
eliminating paper claims and supporting process changes, but its 
success to date is qualified by the reality that the system is designed 
to handle simpler cases than those Paralyzed Veterans typically sees 
and few cases processed to date have involved catastrophic 
disabilities. Rules-based processes like VBMS treat all veterans the 
same and can be flawed by imperfect rulemaking and application and does 
not have the human interaction to fully understand the circumstances of 
a specific injury.
    VBA has struggled for decades to provide timely and accurate 
decisions on claims for veterans' benefits, especially disability 
compensation. However, despite repeated prior attempts to reform the 
system, VBA has never been able to reach the goals it has set for 
itself. Whether VBA can be successful this time depends to a large 
extent on whether it can complete a cultural shift away from focusing 
on speed and production to a business culture of quality and accuracy.
    There have been some encouraging steps towards such a cultural 
shift over the past few years; however, this early progress must be 
institutionalized in order to create the long term stability needed to 
eliminate the current backlog of claims, and more importantly, prevent 
such a backlog from returning in the future. VBA must change the way it 
measures and reports the work it performs as well as the way in which 
employees are rewarded, in order to reflect the principle that quality 
and accuracy are at least as important as speed and production. It is 
our understanding that VBA is actually making changes to its 
methodology for evaluating claims decisions and performance at this 
time. Ensuring that decisions are correct the first time will, over 
time, increase public confidence in the VA and decrease appeals.
    One of the more positive steps that have occurred as a part of 
VBA's transformation has been the open and candid attitude of VBA's 
leadership over the past several years, particularly progress towards 
developing a new partnership between VBA and veterans' service 
organizations that assist veterans in filing claims. Veterans' service 
organizations have vast experience and expertise in claims processing, 
with local and national service officers holding power of attorney 
(POA) for hundreds of thousands of veterans and their families. We do 
however have concerns that VBA has once again shut the door on VSO 
input with regards to the ongoing revisions of the VA schedule for 
rating disabilities (VASRD). Our initial assessment of VA's proposed 
changes to some of the body systems in the VASRD led us to believe that 
VA was moving in the wrong direction. However, once we began expressing 
our concerns to VA, access to the revision efforts became more 
difficult. As a key stakeholder, we believe it is absolutely imperative 
that VSO's retain a leading role as the VA updates its processes and 
regulations. It will be incumbent upon the Committees to conduct 
substantive oversight on VBA's activities to ensure that the primary 
objective--accurate decisions the first time--is being achieved.
    BENEFITS FOR SEVERELY DISABLED VETERANS--Paralyzed Veterans 
believes that it is time for the Committees to make a concerted effort 
to improve benefits for the most severely disabled veterans 
particularly with regards to the rates of Special Monthly Compensation 
paid to severely disabled veterans. We also believe the Committees 
should consider the larger benefit that providing travel reimbursement 
to catastrophically disabled non-service connected veterans will have 
on the long term care costs that can be saved from this population of 
veterans.
    As you know, there is a well-established shortfall in the rates of 
Special Monthly Compensation (SMC) paid to the most severely disabled 
veterans that the VA serves. SMC represents payments for ``quality of 
life'' issues, such as the loss of an eye or limb, the inability to 
naturally control bowel and bladder function, the inability to achieve 
sexual satisfaction or the need to rely on others for the activities of 
daily life like bathing, or eating. To be clear, given the extreme 
nature of the disabilities incurred by most veterans in receipt of SMC, 
we do not believe that a veteran can be totally compensated for the 
impact on quality of life; however, SMC does at least offset some of 
the loss of quality of life.
    Paralyzed Veterans believes that an increase in SMC benefits is 
essential for veterans with severe disabilities. Many severely injured 
veterans do not have the means to function independently and need 
intensive care on a daily basis. Many veterans spend more on daily 
home-based care than they are receiving in SMC benefits. With this in 
mind, Paralyzed Veterans would like to recommend that Aid and 
Attendance (A&A) benefits be appropriately increased. Attendant care is 
very expensive and often the A&A benefits provided to eligible veterans 
do not cover this cost. In fact, many Paralyzed Veterans members who 
pay for full-time attendant care incur costs that far exceed the amount 
they receive as SMC-A&A beneficiaries at the R2 compensation level (the 
highest rate available). We encourage the Committees to consider 
legislation that specifically address increases to the R1 and R2 rates 
for SMC and A&A benefits soon.
    Also, we believe the Committee should consider expanding travel 
reimbursement benefits to catastrophically disabled non-service 
connected veterans. While we recognize that the VA will face tighter 
budgets in the future, and that this benefit could add a significant 
cost to the VA, we believe the short term costs of expanding this 
benefit to this population of veterans would be far outweighed by the 
potentially greater long term health care costs for these veterans. Too 
often, catastrophically disabled veterans choose not to travel to VA 
medical centers for appointments and procedures due to significant 
costs associated with their travel. They then may end up at an 
outpatient clinic or a private health care facility that is ill-
equipped to meet their specialized health care needs. The result is 
often the development of far worse health conditions and a higher cost 
of care. By ensuring that catastrophically disabled veterans are able 
to travel to the best location to receive necessary care, their overall 
health care costs to the VA can be reduced.
    LONG-TERM CARE--Paralyzed Veterans continues to be concerned about 
the lack of VA's long-term care services for veterans with spinal cord 
injury or dysfunction (SCI/D). Approximately 7,300 of our members are 
now over 65 years of age and another 6,000 are currently between 55 and 
64. These aging veterans are experiencing an increasing need for VA's 
home and community-based services and VA's specialized SCI/D nursing 
home care. Unfortunately, we believe that VA is not requesting and 
Congress is not providing sufficient resources to meet the demand.
    The ability to remain in the home for many of these veterans is 
based on their ability to receive VA home and community-based services 
such as hospital based home care or respite services. For others, their 
living status and independence is based on the health of a primary 
caregiver, usually a spouse, who is also aging and may no longer be 
able to provide the level of support they once could. VA's non-
institutional long-term care services are keys to supporting aging SCI/
D veterans and their caregivers and their desires to remain home as 
they grow older.
    Unfortunately, the ability of veterans with SCI/D to access a full 
range of VA home and community-based care varies across the country. 
Waiting lists exist at almost all VA facility locations and many other 
VA facilities don't offer the full range of services mandated by the 
``Millennium Health Care Act.'' Additionally, VA program geographic 
boundaries often limit access to long-term care services provided by a 
regional VA SCI center.
    The availability of these services is necessary to support veterans 
with SCI/D and their aging caregivers in their own homes, where they 
most want to be, and at a dramatically lower cost of care to VA. 
Paralyzed Veterans requests that your Committees encourage VA to 
provide the full range of home and community-based long-term care 
services, as mandated by P.L. 106-117, the ``Veterans Millennium Health 
Care and Benefits Act of 1999,'' at each and every VA facility within 
the system.
    Currently, VA operates only five designated long-term-care 
facilities for SCI/D veterans. Unfortunately, the existing centers are 
not geographically located to meet the needs of a nationally 
distributed SCI/D veteran population. Often, the existing centers do 
not have space available for new veterans needing long-term-care 
services, and facilities have long waiting lists for admission. VA has 
designated SCI/D long-term-care facilities because of the unique 
medical needs of SCI/D veterans, and the specialty skills and 
qualifications that are necessary to care for and meet the medical 
needs of veterans with SCI/D. Therefore, when veterans do not have 
access to SCI/D long-term-care centers, the quality of care provided is 
compromised and veterans are forced to seek alternative care settings 
such as non-SCI/D nursing homes.
    While VA has identified the need to provide additional SCI/D long-
term-care centers, and has included these additional centers in ongoing 
facility renovations, such plans have been pending for years. To ensure 
that SCI/D veterans in need of long-term-care services have timely 
access to VA centers that can provide quality care, both VA and 
Congress must work together to ensure that the Spinal Cord Injury 
System of Care has adequate resources to staff existing long-term-care 
centers, as well as increase the number of centers throughout VA. 
Paralyzed Veterans, in accordance with the recommendations of The 
Independent Budget for FY 2014, recommends that VA SCI/D leadership 
design a SCI/D long-term-care strategic plan that addresses the need 
for increased access, and makes certain that VA SCI/D long-term-care 
services allow SCI/D veterans to attain or maintain a community level 
of adjustment, and maximal independence despite their loss of 
functional ability''
    REPRODUCTIVE SERVICES FOR CATASTROPHICALLY DISABLED VETERANS--A 
continuing high priority for Paralyzed Veterans is the provision of 
reproductive services for catastrophically disabled service-connected 
veterans. One of the most devastating results of spinal cord injury or 
dysfunction for many individuals is the loss of the ability to have 
children and raise a family. Paralyzed Veterans has long sought 
inclusion of reproductive services in the spectrum of health care 
benefits provided by the VA. We believe they are critical components of 
catastrophically disabled veterans' maximization of independence and 
quality of life.
    Advancements in medical treatments have for some time made it 
possible to overcome infertility and reproductive disabilities. For 
some paralyzed veterans procreative services have been secured in the 
private sector at great cost to the veteran and family. Similar to the 
Department of Defense's recognition that reproductive services are 
crucial elements in affording catastrophically disabled individuals and 
their spouses with life-affirming ability to have children and raise a 
family, so too will passage of legislation that will authorize the VA 
to offer similar services to veterans disabled in service to the 
nation.
    With this in mind, we strongly urge the Senate VA Committee to 
consider and approve S. 131, the ``Women Veterans and Other Health Care 
Improvements Act.'' This legislation would afford catastrophically 
disabled veterans and their spouses the opportunity to finally realize 
the dream of having children. We would also like to point out that 
Representative Rick Larsen (D-WA) is preparing to introduce companion 
legislation to S. 131. We hope that all members of the House VA 
Committee will consider cosponsoring this legislation. Additionally, we 
urge the House VA Committee to take up and approve this legislation as 
soon as it is introduced.
    INCREASE IN CHAMPVA BENEFICIARY AGE--The Civilian Health and 
Medical Program of the Department of Veterans Affairs (CHAMPVA) is a 
comprehensive health care program in which the VA shares the cost of 
covered health care services for eligible beneficiaries, including 
children up to age 23. Due to the similarity between CHAMPVA and the 
Department of Defense (DOD) TRICARE program the two are often mistaken 
for each other. However, CHAMPVA is a VA managed program whereas 
TRICARE is a health care program for active duty service members, 
military retirees and their families and survivors.
    In accordance with the provisions of P.L. 111-148, the ``Patient 
Protection and Affordable Care Act (ACA),'' all commercial health 
insurance coverage along with TRICARE has increased the age for covered 
dependents from 23 years old to 26 years old. At this time the only 
qualified dependents that are not covered under a parent's health 
insurance policy up to age 26 are those of 100 percent service-
connected disabled veterans covered under CHAMPVA. It is time for 
Congress to correct this oversight. We urge the House VA Committee to 
consider and approve H.R. 288 and the Senate VA Committee to consider 
and approve S. 325 in order to fix this injustice once and for all.
    VETERANS EMPLOYMENT AND TRANSFER OF VETS TO VA--The unemployment 
rate for veterans with catastrophic disabilities currently lingers 
around 85 percent. Unfortunately, this statistic was true even when the 
economy was booming. Some of this is due to low self-expectations on 
the veteran's part. But employers have played a role in this as well, 
by submitting to stigmas and misperceptions about the cost of hiring 
disabled veterans. Paralyzed Veterans led the way by launching our 
Paving Access for Veterans Employment (PAVE) Program in 2007 in order 
to erase stigmas and change expectations for veterans who suffered a 
life-changing circumstance and need help regaining independence and 
economic self sufficiency.
    Our PAVE Program provides core services to more than 1500 veterans, 
extended services (benefits, health, and/or career assistance) to over 
30,000, and our Master's-level certified counselors have helped more 
than 250 hard-to-place clients achieve their vocational goals. PAVE 
counselors and service officers serve any veteran, spouse, or 
dependent, at no cost to them. Our services extend to all 50 states and 
Puerto Rico through six regional offices collocated with VA Spinal Cord 
Injury Centers and our network of 69 service offices around the 
country. The secret of our success is the ``supported employment'' 
model we use. This model allows us to engage veterans at the bedside 
while they recover, integrate resources, and customize services to 
individual needs. We then remain Partners For Life with our veterans to 
ensure they never have to go it alone.
    Similarly, we appreciate the emphasis that the Committees have 
placed on veterans' employment in the last few years. And yet, we 
believe more can be done. We strongly recommend the Committees adopt a 
resolution calling for a five-year extension of the Work Opportunity 
Tax Credit (WOTC), including the VOW Act credits for veterans 
incorporated in WOTC. WOTC is particularly important to disabled 
veterans because two out of three veterans find jobs in the private 
sector. Unfortunately, most small and medium size enterprises aren't 
participating in WOTC because the program will expire at the end of 
this year. If WOTC were made permanent or at the very least extended 
for a minimum of five years, we believe significant opportunities would 
be opened to veterans and disabled veterans seeking employment.
    Additionally, we would like to recommend a transfer of all programs 
administered by the Department of Labor's Veterans Employment and 
Training Service (VETS) to the VA. This recommendation is also included 
in The Independent Budget for FY 2014. For nearly two decades, VETS has 
been charged with providing employment services to veterans and 
disabled veterans to reengage them in the workforce. Unfortunately, 
multiple reports from the Government Accountability Office (GAO) and 
other government commissions have shown that VETS has been unable to 
provide adequate oversight of the State Grant program and has failed to 
implement adequate performance metrics to determine the quality of 
services provided to veterans seeking employment. Moreover, too often 
Disabled Veterans Outreach Program (DVOP) specialists and Local 
Veterans Employment Representatives (LVER) have been forced to perform 
other functions with state workforce agencies leaving veterans without 
adequate service.
    For this reason, Paralyzed Veterans continues to advocate for 
legislation that would consolidate the programs administered by VETS 
under the authority of the Department of Veterans Affairs (VA). 
Consolidating these programs under the umbrella of the VA will ensure 
better management, oversight, and ultimately productivity from VETS 
staff. Additionally, it will ensure that these critical services for 
veterans are given the highest priority, a principle that is severely 
lacking under the administration of DOL.
    ``ONE VA''--In the end, many of the concerns that I have raised 
reflect the belief that this is not ``One VA.'' While our ears hear 
``One VA,'' our eyes and our experiences show us 21 individual VA 
systems masquerading as Veteran Integrated Service Networks (VISNs). 
The VISN model of health care was intended to create strategic 
alliances among VA medical centers, clinics and other sites; sharing 
agreements with other government providers; and other such 
relationships. Instead, we see these VISNs being run like autonomous 
entities in a fragmented network, with inconsistent policies and 
budgetary turf battles that leave many veterans faced with delayed or 
denied access to care or prosthetics items.
    In fact, Paralyzed Veterans service officers had to get involved 
when one of our members--a 94-year old paralyzed Marine who fought in 
WWII--endured a longer in-patient stay because two VISNs could not 
decide which VISN would pay for his hoyer lift and commode chair he 
needs to live independently. In the ``One VA'' world, it is not his 
burden. But in this real instance, he was the one caught in the middle 
of two independently operating VISNs, thus defying any notion of there 
being ``One VA.''
    On balance, VA is fortunate to have good people who still adhere to 
the principle that veterans come before cost considerations and 
policies. Even in times of national economic difficulty and profound 
organizational transformation, our Nation's security is still preserved 
by the men and women who take the oath and believe in the Country's 
promise to care for him or her should they suffer injury or disease. 
But until we have 21 VISNs that operate with a common purpose, under 
common policies, variability between VISNs will create even more gaps 
in which the most vulnerable veterans will fall. We hear ``One VA.'' 
Now show us ``One VA.''
    Paralyzed Veterans of America appreciates the opportunity to 
present our legislative priorities and concerns for the second session 
of the 112th Congress. We look forward to working with the Committees 
to ensure that sufficient, timely, and predictable resources are 
provided to the VA health care system so that eligible veterans can 
receive the care that they have earned and deserve. Chairmen Miller and 
Sanders, I would like to thank you again for the opportunity to 
testify. I would be happy to answer any questions you have.

                                 <F-dash>
                  Prepared Statement of Sheldon Ohren

                              INTRODUCTION

    Chairman Sanders, Chairman Miller, and Members of the Senate and 
House Committees on Veterans' Affairs, my fellow veterans and friends, 
I am Sheldon Ohren, the National Commander of the Jewish War Veterans 
of the U.S.A. (JWV). JWV is Congressionally Chartered and also provides 
counseling and assistance to members encountering problems dealing with 
the Department of Defense (DoD), the Department of Veterans Affairs 
(VA), and other government agencies. JWV is an active participant in 
The Military Coalition, a select group of over 30 military associations 
and veterans' organizations representing over five million active duty, 
reserve and retired uniformed service personnel, veterans, families, 
and survivors on Capitol Hill. In fact, I am very proud that our 
National Executive Director, Colonel Herb Rosenbleeth, who is here with 
me today, is the President of the Military Coalition.
    On February 12, 13 and 14, our National Executive Committee members 
were here in Washington to meet with their Senators and Representatives 
as part of JWV's Capitol Hill Action Day(s). Our members prepared 
diligently for these important meetings and successfully presented many 
of JWV's legislative priorities to your colleagues, their members of 
Congress and congressional staff.
    Chairman Sanders, it was a singular honor for JWV to present our 
prestigious JWV Medal of Merit to you at our Congressional Reception 
during our days on Capitol Hill. It was equally rewarding to JWV to 
have so many distinguished guests participate with us!
    Mr. Chairman, on Friday, March 15th, we at JWV will celebrate our 
117th birthday. For all of these 117 years, JWV has advocated a strong 
national defense, and just and fair recognition and compensation for 
veterans. The Jewish War Veterans of the USA prides itself in being in 
the forefront among our nation's civic and veterans groups in 
supporting the well-earned rights of veterans, in promoting American 
democratic principles, in defending universal Jewish causes and in 
vigorously opposing bigotry, anti-Semitism and terrorism both here and 
abroad. Today, even more than ever before, we stand for these 
principles. The Jewish War Veterans of the U.S.A. represents a proud 
tradition of patriotism and service to the United States of America.
    As the National Commander of the Jewish War Veterans of the USA 
(JWV), I thank you for the opportunity to present the views of our 
100,000 members and supporters on issues under the jurisdiction of your 
committees. At the conclusion of JWV's 117th National Convention in 
Norfolk, Virginia, our convention delegates adopted our resolutions for 
the 113th Congress. These mandates establish the legislative agenda for 
JWV during my year as National Commander.
    JWV believes Congress has a unique obligation and compelling 
opportunity to ensure that veterans' benefits are regularly reviewed 
and improved to keep pace with the needs of all veterans in a changing 
social and economic environment. JWV salutes the Chairs and Members of 
both the House and Senate Veterans' Affairs Committees for the landmark 
veterans' legislation enacted over the past several years. Eligibility 
improvement, patient enrollment, long-term care, access to emergency 
care, presumptive Agent Orange disability, enhanced VA/DoD sharing, 
improved preference rights of veterans in the federal government and 
other records recognize the debt this great country owes to those who 
have so faithfully served.
    We must improve access to veterans' health care, increase 
timeliness in the benefit claims process, and enhance access to 
national cemeteries and to state cemeteries for all veterans.

                         NO GOVERNMENT FUNDING

    For the record, the Jewish War Veterans of the USA, Inc. does not 
receive any grants or contracts from the federal government. This is as 
it should be.

                         THE MILITARY COALITION

    JWV continues to be a proud member and active participant of the 
Military Coalition (TMC). PNC Robert M. Zweiman, JWV's National 
Chairman, serves on the Board of Directors of the Military Coalition 
and, again, our National Executive Director, Colonel Herb Rosenbleeth, 
USA (Ret), continues to serve as the President of the Military 
Coalition and as Co-Chair of the Coalition's Membership and Nominations 
Committee.
    JWV requests that the Senate and House Committees on Veterans' 
Affairs do everything possible to fulfill the legislative priorities of 
the Military Coalition which are applicable to your committees. These 
positions are well thought out and are clearly in the best interests of 
our military personnel, our veterans and our great nation.

                             THE THROWAWAYS

    Throwaways are sometimes called disposables or expendables. They 
include razors, toothbrushes, underwear, clothing, and other products; 
and now, we can add military personnel, their family, and their 
dependents.
    If you follow political campaigns, advertisements, and TV, you will 
understand and determine that the most important thing in American life 
is the balanced budget and then possibly the family, but what the 
family politicians talk about is solely their own family - forget about 
yours.
    The budget cutters have specifically programmed your (not their) 
obligation which demands from you the right for you to sacrifice 
yourself for the well being of military personnel. The obligation for 
budgetary cash savings has been imposed on you - the usual political 
``not me'' syndrome.
    The budget cutters have created and imposed on you a fear of 
national financial failure by which they have been able to control your 
way of life. Thus, they have forced you to accept the responsibility 
for the nation's financial failures rather than to place the 
responsibility where it belongs, on the creators of the continuing 
national financial failure.
    The pettiness of the methodology is demonstrated when the proposed 
pay increase of 1.8 percent for military personnel is reduced to 1 
percent while the politicians, at the same time, push for the purchase 
of more tanks while thousands of tanks already exist and lay fallow in 
fields available for use. Does paying off political donors or self 
gratification constitute a moral basis for denying a modest pay 
increase for the personnel we rely on to protect our nation?
    For many years, we have raised questions as to the inadequacy (read 
miserable) of housing for the military and their families. There has 
always been a national responsibility for creating the atmosphere for a 
healthy and normal lifestyle.
    This budgetary failure has existed for many years without a 
national leadership (read both Executive and Congressional) acceptance 
of their moral obligation. The quality of life for military families 
has become budget-wise, a meaningless quality, essential for a loving 
and happy home.
    Now here comes the new budgetary cost reduction approaches to 
further disrespect the military and their dependents. Just imagine that 
for your family breakfast you need to buy some juice, cereal, and milk. 
First you must get onto a bus, taxi, or your car to go to a nearby town 
to buy the food. Then you would pay more for the food than you might 
have to pay on the base plus add the transportation costs and the 
inconvenience of lost time and waste of effort.
    Well, that is the budgetary red tape being forced upon us by the 
removal and the elimination of PX's, commissaries, and exchanges from 
our bases. You must recognize that not only do these units provide 
food, but they also provide clothing, medications, and all the needs 
and requirements of the shopper to be able to make purchases at 
reasonable prices. This applies not only to the military and their 
families but also to retired veterans.
    Many of the families also depend on the discounted product coupons 
found in newspapers which people like my wife, Jeri, send overseas to 
various APOs where the coupon expiration dates are then extended for 
six months while those coupons are not time extended at the local 
stores.
    Irrationality is the best indication of the proposal to eliminate 
and close base schools and require military children to be transported 
to local town schools. We constantly talk about the need for 
educational advancement and the requirement for global leadership based 
on educational skills. Here, we intentionally devalue that goal.
    So now we will have to bus the children to local schools where the 
local students will consider the military students to be ``outsiders'' 
and where our children may be unable to participate in after-school 
activities, sports, and school clubs. They will probably not expect to 
graduate with their class unless their parent remains on that base. The 
psychological affect on these children cannot be quantified. The effect 
on their future lives cannot be projected or protected. And, don't 
expect the locals to do this out of the goodness of their heart by 
raising their own local property taxes to pay for it.
    The budget cutters are morally indefensible and corrupt. Their 
actions can result in some of the families returning home, financially 
unable to live together on base. The budget cutters, by their actions 
and without respecting human decency, have taken a path intended to 
disrupt and disable the family unit and weaken our military personnel.
    The budget cutters are responsible for the current and the future 
of those of our military personnel (and don't forget the family 
members) who may end up with PTSD, homeless, family dysfunction, and 
other ailments. It would have a clear impact on our society as we have 
learned from today's life.
    You may consider that I am being overly frustrated and overly 
downcast, but I do realize that common sense tells me that to nickel 
and dime those who sacrifice themselves on the front lines and define 
our national security is a national disgrace. To treat our troops as 
though they are robots entitled only to a little oiling is not merely a 
dishonor but a serious disease in the soul of America and its citizens.
    We all deserve better than having our military personnel and their 
families being considered a throwaway - especially in one of the 
wealthiest countries in the world.

                           MANDATORY FUNDING

    JWV continues to maintain that the Congress has an unbreakable 
obligation to its veterans. Adequate VA funding must be guaranteed by 
the Congress.
    This country has a sacred obligation to those who have served and 
defended our nation to fully provide for their needs when they return 
from battle. Mandatory funding is necessary so that all category eights 
receive the care they need, so that veterans receive long term care, 
and so that VA medical research will be second to none! This is 
especially important now that we know more about the real challenges 
and expenses resulting from injuries to the brain, eyes, amputations, 
and other catastrophic injuries.
    Only when the VA not only knows in advance the level of its funding 
but also knows with certainty that its funding levels will be adequate 
for all of its requirements can our veterans be assured that all of 
their health care needs can and will be met.

                             SEQUESTRATION

    Last year's failure of the Joint Select Committee on Deficit 
Reduction means that automatic spending cuts, known as sequestration, 
are scheduled to take effect in early 2013 unless Congress finds other 
options to reverse the deficit. Cuts in military spending are projected 
not only to compromise our national security but also increase 
unemployment by as much as an entire percentage point nationwide. The 
JWV is deeply concerned about military spending reductions during a 
time of war. JWV is equally wary about the budget and its potential 
effect on the Department of Veterans Affairs.
    Hundreds of thousands of men and women who served in Iraq and 
Afghanistan now rely on VA for health care. They enter our nation's VA 
medical centers, clinics and nursing homes at a time when veterans of 
previous wars are reaching advanced ages and in need of VA's services. 
These are services they earned, deserve and were promised. No veteran 
should have to wait weeks for appointments nor travel hundreds of miles 
to see providers. Female veterans should have health-care services that 
meet their needs. Cities such as Orlando, Denver and New Orleans should 
not have to wait years for the construction of long-overdue hospitals.
    The pressure on VA will only mount as defense budget cuts drive 
down force sizes and more of our military personnel re-enter civilian 
life. DoD and VA must work in harmony to ease the transition and help 
the influx of new veterans get the help they need, including timely 
benefits, access to high-quality health care and careers that match 
their skills.
    Many key veterans programs require coordination with government 
departments such as Labor, and Housing and Urban Development, which 
enjoy no protection of any kind from sequestration. Veterans programs 
within those departments must be protected if they are to succeed.
    JWV wants Congress to ensure that national security and veterans 
programs in VA and other departments are not sacrificed in the budget 
battle. Previous legislation, such as the Balanced Budget and Emergency 
Deficit Control Act of 1985 and the Statutory Pay as you Go Act of 
2010, included language specifically protecting VA programs from cuts. 
As the budget deficit widens, similar and specific protections are 
necessary today.

                       VETERANS AND BRAIN DISEASE

    There are over 220,000 service members diagnosed with mild and 
severe brain injuries since 2001. Traumatic Brain Injury (TBI) is often 
called the signature wound of the Iraq and Afghanistan wars. Common 
causes of TBI include damage caused by explosive devices, falls, and 
vehicle or motorcycle accidents. Most reported TBI among Operation 
Enduring Freedom and Operation Iraqi Freedom service members and 
veterans has been traced back to Improvised Explosive Devices, or IEDs, 
used extensively against Coalition Forces.
    Severe TBI usually results from a significant closed head injury, 
as in an automobile accident or most open or penetrating injuries, 
where there may be considerable residual deficits of brain function. 
Depending on the injury, a severe TBI could impact speech, sensory, 
vision and cause cognitive deficits including difficulties with 
attention, memory, concentration, and impulsiveness. There is an 
aggressive initial treatment program in the theater with neurosurgical 
expertise.
    Rehabilitation services are needed by individuals with TBI who 
continue to have medical and functional problems following injury and 
initial treatment. Rehabilitation is begun as soon as individuals with 
TBI are medically stable. The degree and rate of recovery are difficult 
to accurately predict because TBI is experienced differently by each 
person depending upon several unique characteristics, such as the type 
of injury and an individual's personal health and resilience. Where 
rehabilitation takes place depends on the person's needs. Individuals 
with severe TBI's may need inpatient care at a Military Treatment 
Facility (MTF), a VA Polytrauma hospital, or a civilian rehabilitation 
center. Individuals with a mild TBI (mTBI)/concussion may be treated at 
outpatient facilities.
    A report released by an Institute of Medicine Committee concluded 
there is ``limited evidence'' that some types of cognitive therapy - 
exercises and strategies taught to patients to recover brain function - 
work in the long term, especially therapies addressing deficits in 
memory, attention and communications.
    JWV strongly urges the Congress to provide the VA with sufficient 
resources to properly care for, and rehabilitate veterans with TBI 
wounds or injuries.

                                SUICIDES

    The Jewish War Veterans of the USA has long advocated the embedding 
of mental health professionals in all active military units, including 
the Reserve and National Guard components. The media is reporting an 
average of one suicide victim per day among the men and women on active 
duty. The presence of such mental health professionals may prevent some 
of the suicides and homicides we are now witnessing among those now 
serving in the military.
    The ``military culture'' demands service members to maintain an 
aura of toughness and stoic acceptance of the horrors of war. The 
``code of silence'' either encourages or requires members of the 
military not to report comrades-in-arms to ``higher authorities'' even 
when that comrade exhibits characteristics of one who might become a 
victim of suicide or might strike out angrily and harm those closest to 
the service member.
    The Jewish War Veterans of the USA repeats its enunciated position, 
that there needs to be a truly innovative approach to anger management 
within the military and a recognition that there is a problem that 
absolutely must be approached creatively and that there need to be 
fewer studies and more action.
    Therefore, the Jewish War Veterans of the USA demands the 
Department of Defense immediately retain the services of as many mental 
health professionals as required to embed one in each and every 
military unit, including the active component, Reserve and National 
Guard.
    Furthermore, the Jewish War Veterans of the USA demands funding be 
provided for the Department of Defense to immediately seek to train the 
Non-Commissioned Officer Corps and the Company Commanders on how to 
recognize depression, anger, and the other signs of possible violence 
either directed inward (suicide) or outward (spousal abuse, etc.)

                           VA CLAIMS BACKLOG

    The Veterans Affairs Department's disability claims backlog 
recently edged above the 900,000 mark with 608,365 - 67.6 percent - 
stuck in the system more than 125 days.
    VA reported that total disability claims hit 900,121 as of December 
24, 2012, up 24,725 - 2.7 percent -from the backlog that existed at the 
start of the calendar year on January 3, 2012.
    Over the past two years, VA has gone backward. According to VA's 
own figures, over 65 percent of veterans with disability benefits 
claims have been waiting longer than 125 days for them to be processed.
    While some regional offices may have an average rate of 76 days per 
claim, others take 336 days--a troubling inconsistency. Although the VA 
has a shortage of trained claims personnel, and there is a long lead 
time to train claims personnel, this average rate of processing must be 
reduced. Unfortunately, accuracy is also a problem.
    VA has been reluctant to publicly post accuracy figures in its 
Monday Morning Workload reports, but VA's own STAR reports for accuracy 
place the rate in the mid 80's.
    VA is hopeful that the Veterans Benefits Management System (VBMS) 
will eliminate many of the woes that have led to the backlog, but 
electronic solutions are not a magic bullet. Without real reform for a 
culture of work that places higher priority on raw speed than accuracy, 
VA will continue to struggle, no matter the tools used to process 
claims.
    While VA's stated goals of ``no claim pending longer than 125 
days'' and 98-percent accuracy are admirable, many veterans would 
settle for their claims being initially processed correctly in a timely 
manner veterans with multiple conditions need to be seen by a primary 
care physician and should not be handled separately with each condition 
reviewed one at a time. One veteran-one visit.
    If VA employees receive the same credit for work, whether it is 
done properly or improperly, there is little incentive to take the time 
to process a claim correctly. When a claim is processed in error, a 
veteran must appeal the decision to receive benefits, and then wait for 
an appeals process that may take months to resolve and possibly years 
for delivery of the benefit.
    JWV believes VA must develop a processing model that puts as much 
emphasis on accuracy as it does on the raw number of claims completed. 
Nowhere does VA publicly post its accuracy figures. America's veterans 
need to have more confidence in the work done by VA.

                            BLINDED VETERANS

    Blinded veterans are of extra special concern to JWV. The large 
number of IED explosions in Iraq and Afghanistan have led to a huge 
number of eye injuries and blinded veterans. In fact, orbital blast 
globe injuries, optic nerve injuries, and retinal injuries have been 
all too common. JWV strongly urges the congress to insure adequate 
funding to care for our thousands of veterans with eye injuries.

                          HAZARDOUS CHEMICALS

    JWV applauds VA for processing nearly 230,000 claims through June 
2012 that involved the three newest Agent Orange-related conditions. 
The recent expansion of conditions presumed to be linked to Agent 
Orange exposure certainly created additional work for VA, which already 
faces a heavy claims backlog, but VA Secretary Eric Shinseki argued 
correctly that it was the right thing to do. Decisions about treating 
and compensating veterans exposed to deadly toxins must never be 
motivated by whether or not the road will be challenging or costly, but 
whether or not the veteran has suffered and requires treatment because 
of the exposure.
    JWV strongly supports the establishment of a unified policy to deal 
with the consequences of exposure to hazardous materials in the 
military.
    JWV urges continued study of all environmental hazards and their 
effects on servicemembers and veterans. New challenges, such as burn 
pits, must be addressed. Evidence suggests more than 227 metric tons of 
waste have been burned in conjunction with JP-8 jet fuel, releasing 
countless carcinogens into the air that servicemembers have breathed. 
At the very least, a full accounting of exposed veterans through a 
burn-pit registry or similar means would be an important step forward.
    Agent Orange remains a concern, as thousands of veterans exposed to 
the toxin are left behind when it comes to vital treatment and 
benefits. JWV remains committed to ensuring all veterans who served in 
areas of exposure receive recognition and treatment for conditions 
linked to Agent Orange. Time is running out for those veterans not 
designated as having ``boots on the ground'' during the Vietnam War. 
Studies indicate ``Blue Water Navy'' veterans may have experienced 
higher exposure rates to Agent Orange than those who were on the 
ground, due to water desalination systems on the ships; this never has 
been satisfactorily addressed by VA. The time is now to recognize all 
Vietnam veterans for their exposure to Agent Orange, not just those who 
had boots on the ground.
    JWV urges VA to work with DoD to finally complete the list of 
exposure locations outside Vietnam, including the C-123 K transport 
aircraft, Thailand and other supporting areas of the Vietnam theater, 
as well as Korea.
    JWV urges continued close scrutiny by the Institute of Medicine 
into Agent Orange, Gulf War illness and other concerns. When problems 
are identified, VA must act swiftly to ensure current compensation and 
treatment is based on the most recent scientific findings.

                          VETERAN HOMELESSNESS

    VA has promised to devote resources necessary to end veteran 
homelessness by 2015. To fully implement that pledge, VA is going to 
have to work closely with Congress to continue making responsible 
investments in affordable housing and supportive service programs to 
help more veterans and their families. Current estimates put the number 
of homeless veterans at approximately 76,000 on any given night, down 
from 2010 numbers of 131,000 or more.
    JWV recommends providing funding for a broad range of appropriate 
and effective interventions, including:

    <bullet>  Appropriation of funds for the Supportive Services for 
Veteran Families program. SSVF funds have been used effectively by 
community organizations to prevent many veterans from becoming homeless 
and to quickly assist veterans who need nothing more than short-term 
rental assistance and limited case management to get back on their 
feet. SSVF funds also can be used to pay for employment services, 
utility assistance, child care costs and other housing-related 
expenses.
    <bullet>  Congressional support for the homeless veterans Grant and 
Per Diem transitional housing program. This program provides short-term 
housing help to homeless veterans, allowing them to get connected with 
jobs, supportive services and more permanent housing, ultimately 
allowing them to become self-sufficient. Promising new models for using 
Grant and Per Diem funds - including allowing veterans to remain in 
their GPD housing units once support from the program ends - and new 
programs focused on women veterans are helping to ensure that GPD 
continues to meet the ever-changing needs of returning veterans and 
their families.
    <bullet>  Congress should provide 10,000 new HUD-VASH vouchers 
designed to serve homeless veterans (and in many cases their families) 
who need long-term housing, intensive case management and supportive 
services. Since 2008, 37,975 vouchers have been awarded, contributing 
substantially to major reductions in veteran homelessness.

               CORRECT THE SURVIVOR BENEFIT PROGRAM (SBP)

    Survivors of military retirees who die of service-connected causes 
and who paid into SBP, and survivors killed in active-duty, should 
receive both SBP and DIC (Dependency and Indemnity Compensation) 
benefits without the current dollar for dollar offset. JWV strongly 
supports legislation to end this offset.
    JWV strongly supports HR 178, The Military Surviving Spouses Equity 
Act, which would correct this inequity.

                                MIA/POW

    JWV has always been an ardent, active supporter of the National 
League of Families of American Prisoners and Missing in Southeast Asia. 
JWV will always remember those who are still unaccounted for and their 
families. We fly the MIA-POW flag in the lobby of our headquarters and 
place that flag in front of our meeting rooms.
    There are still 1,655 personnel listed by the Defense POW/Missing 
Personnel Office (DPMO) as missing and unaccounted-for from the Vietnam 
War. The number of Americans announced by DPMO as returned and 
identified since the end of the Vietnam War in 1975 is 928. Another 63 
US personnel, recovered by the US and ID'd before the end of the war, 
bring the official total of remains repatriated from the Vietnam War is 
991. Of the 1,655 missing and unaccounted-for personnel, 90% were lost 
in Vietnam or areas of Laos and Cambodia under Vietnam's wartime 
control: Vietman-1,280 (VN-470); Laos-314; Cambodia-54; PRC territorial 
waters-7. More than 450 over-water losses are among the 630 DPMO lists 
as No Further Pursuit (NFP) cases.

      RESTORING THE US-RUSSIAN JOINT COMMISSION ON POW/MIA AFFAIRS

    In 1992, the US-Russia Joint Commission on POW/MIA Affairs (USRJC) 
was established by Presidents George H.W. Bush and Boris Yeltsin to 
determine the fate of personnel of the United States and the former 
Soviet Union still missing and unaccounted for from the Vietnam War, 
the Cold War, Korean War and World War II, as well as the former USSR's 
war in Afghanistan.
    The USRJC and its mission have been supported by every President of 
the United States since its formation. In 2006, President George W. 
Bush appointed General Robert ``Doc'' Foglesong, USAF Retired, as the 
American Co-chair and, in June, 2011, Russian President Dmitry Medvedev 
appointed Ms. Yekaterina Priyezzheva as the Russian Co-chair and more 
than 30 Commissioners to the Russian delegation of the Commission.
    Over the past several years the Department of Defense has broken 
promises of support for the USRJC, redirecting funding and personnel to 
other tasks causing irreparable damage to the USRJC and its ability to 
accomplish its mission. The Jewish War Veterans of the USA and other 
veteran's organizations and POW/MIA family member organizations 
repeatedly have asked the President and the Congress to reinforce their 
support for the Commission and have received little response.
    Therefore, be it resolved that the Jewish War Veterans of the USA 
calls upon the President to reaffirm his commitment to the USRJC as a 
Presidential Commission, to General Robert ``Doc'' Foglesong as the 
American Co-chair, and their mission through publicly citing his policy 
priority and backing.
    It is further resolved that the Congress provide and direct the 
Secretary of Defense to restore to the USRJC the funding and personnel 
diverted to other POW/MIA related tasks, thus ensuring the USRJC and 
its mission can be restored to its full potential. It is further 
resolved that the USRJC remain an independent Presidential Commission, 
with the Department of Defense providing the funding and personnel 
determined necessary by the Commission.

                    ANNUAL PTSD SCREENING FOR TROOPS

    The National Institute of Medicine has recommended that all members 
of the military returning from a tour of duty in Iraq and Afghanistan; 
and should be screened for Post Traumatic Stress Disorder.
    Of the 2.6 million service members deployed to Iraq and 
Afghanistan, some 13 to 20 percent exhibit symptoms of Post Traumatic 
Stress Disorder. Per the National Institute of Medicine, barely one-
half of those diagnosed with PTSD actually received treatment.
    Many members of the military do not seek treatment for fear it 
would injure their career within the military were they to seek 
treatment. By placing any results of interviews and screening in the 
member's health file but without any reference to the screening in 
their personnel file more members would be willing to speak frankly 
during the interviews and screening.
    To be truly effective any interviews and screening process needs to 
be performed on an annual basis. Frequently, those who do seek 
treatment are not tracked to determine the success or failure to the 
treatment provided. There are alternative methods of treatment which 
have proven successful in non-DoD/DVA settings.
    Therefore, the Jewish War Veterans of the USA calls upon the 
Departments of Defense and Veterans Affairs to immediately implement 
programs which permit alternative medical therapies such as yoga, bio-
feedback, acupuncture and animal-assisted treatment plans as well as 
the more traditional modalities in order to address the needs of the 
men and women suffering from post traumatic stress disorder.
    Therefore, the Jewish War Veterans of the USA calls upon the 
Departments of Defense and Veterans Affairs to research the rates of 
success and failure of the various modalities so that a full and 
complete conclusion can be made as to the viability of the individual 
modality.

           BENEFITS FOR GLOBAL WAR AGAINST TERRORISM VETERANS

    It appears that the men and women who have served during the Global 
War Against Terrorism may have been exposed to a variety of toxic 
substances. A considerable percent of men and women serving in the 
Global War Against Terrorism are victims of military sexual trauma.
    Military Sexual Trauma is defined by the Department of Veterans 
Affairs as, ``Sexual harassment that is threatening in character or 
physical assault of a sexual nature that occurred while the victim was 
in the military, regardless of geographical location of the trauma, 
gender of the victim, or the relationship to the perpetrator.''
    The Department of Veterans Affairs has developed certain procedures 
to treat these illnesses and injuries, nevertheless, there needs to be 
more done immediately to address the growing requests for these 
services. The only Federal beneficiaries not covered under the Hyde 
Amendment are women in the Armed Forces. There is greater awareness 
among the men and women currently serving and recently separated that 
there is a nexus between their current mental health and physical 
complaints and the service to their country.
    The Department of Veterans Affairs has let it be known that it is 
seeking to hire 2,500 mental health professional of differing academic 
credentialing to confront this epidemic. The Department of Veterans 
Affairs must aggressively recruit and train counselors and evaluators 
to meet the physical and psychological needs of this new class of 
veterans.
    Therefore, the Jewish War Veterans of the USA calls upon the 
Department of Veterans Affairs to immediately take any and all steps 
necessary to handle the needs of the veterans of the Global War Against 
Terrorism, regardless of the nature of the illness or injury and 
regardless of the costs to do so; and calls on Congress to pass 
necessary legislation to have the Hyde Amendment include our 
servicewomen victims of rape or incest.
    Furthermore, the Jewish War Veterans of the USA calls upon the 
Congress to make immediately available to the Department of Veterans 
Affairs such funding as may be required by the Department to meet the 
needs of these veterans.

                           BUDGET CONTROL ACT

    The Budget Control Act takes effect on January 2, 2013. The Budget 
Control Act mandates a decrease of some $600 billion over ten years in 
the country's funding for national security. It appears quite likely 
that this sequestration of funds will result in an active Army of less 
than 400,000 personnel.
    The downsizing of the active component would have a devastating 
result in the ability to meet the needs of the United States' foreign 
policies and would place an abhorrent burden on the Reserve and 
National Guard components of the Army thereby causing many members of 
the Guard and Reserve to leave those components.
    This entire scenario can be avoided by an immediate action of the 
Congress to come to the realization that the Budget Reduction Act must 
be amended to face the dangerous direction it is leading the Nation. 
The totality of the proposed reduction in the strength of the armed 
forces most likely will be: Army-30%, Navy-331/3%, Air Force-30%, 
Marines-20%, Coast Guard-5%.
    Therefore, the Congress must act responsively and step beyond 
partisan politics to prevent the demise of the active Army which would 
become an Army designed solely to prevent a foreign power from actually 
invading American soil but which would not be of sufficient strength to 
be deployed overseas.
    Furthermore, the Congress must act so that the research and 
development of new technologies would continue and new projects and 
programs could be developed.

                    CAPITAL ONE'S VIOLATION OF SCRA

    Capital One Bank violated the Servicemembers Civil Relief Act by 
wrongfully foreclosing servicemembers' homes and repossessing their 
cars. These actions by Capital One were clear violations of the special 
Protections afforded servicemembers by the Servicemembers Civil Relief 
Act.
    In addition to the violations mentioned above, Capital One, also, 
improperly denied some servicemembers interest rate relief on some 
credit cards and car loans. Capital One has agreed to pay at least 
$125,000 to each servicemember whose home was illegally foreclosed upon 
and at least $10,000 to each servicemember whose motor vehicle was 
illegally repossessed. Capital One will provide $5 million to 
servicemembers denied appropriate benefits on credit card accounts, 
automobile, consumer loans. The total value of the settlement reached 
between the Department of Justice and Capital One is approximately $12 
million.
    Therefore, the Jewish War Veterans of the USA congratulates the 
Department of Justice for pursuing the claims of the men and women in 
the military who were wronged by Capital One and by recovering some of 
the money due them from Capital One.
    Furthermore, the Jewish War Veterans of the USA requests of the 
Justice Department that the next institution that can be proven to have 
violated the servicemembers Civil Relief Act not only be required to 
repay the injured servicemembers but, also, be required to pay punitive 
damages, as well.
    Furthermore, any such offending institution shall be required such 
reasonable steps as available to repair the credit rating of their 
wrongful actions.

                       EXPANDING VETERANS' COURTS

    Several jurisdictions have created ``veterans' courts'' wherein 
veterans accused of non-violent crimes are either diverted into 
alternative programs or are tried. The veterans selected to participate 
in these programs must meet several strict criteria in order to qualify 
for the ``veterans' court''. Those veterans who meet the criteria for 
eligibility are placed in an alternative program wherein they are 
required to be drug-free with random drug testing and undergo intense 
psychological counseling including but not limited to anger management. 
If they successfully complete the program their record is either 
sealed, expunged, or both.
    The recidivism rate among veterans who successfully complete the 
``veterans' court'' program is particularly encouraging in the areas of 
drug abuse and anger management thereby allowing the veteran to have a 
better chance of finding and holding a job as well as establishing and 
maintaining a family life.
    Therefore, the Jewish War Veterans of the USA encourages additional 
jurisdictions to establish ``veterans' courts'' and to closely monitor 
these programs and to publish the results of the programs for other 
jurisdictions to study and emulate.

                   EXPEDITING DISABILITY EVALUATIONS

    The Departments of Defense and Veterans Affairs announced that they 
had formed a partnership to create and integrate their evaluation of 
service members into a single system.
    This Integrated Disability Evaluation System (IDES) was designed to 
expedite the evaluation of sick and injured members so that the active 
component could concentrate and focus on the condition that made the 
individual unfit for active duty and prepare the service member for 
follow-up with the Department of Veterans Affairs with a single 
evaluation occurring rather than two separate and distinct evaluations. 
The goal of the IDES was to shorten the average time from the time an 
active duty member first sought an evaluation to the date the member 
received a VA check from 540 days to 295 days ( with Reservists and 
Guard members taking an additional ten days).
    The new program has woefully missed its' goal with only 19% 
achieving the goal in 2011.
    This is a worthy goal, it but requires a greater dedication of 
people, funding and technology to fulfill this goal.
    Therefore, the Jewish War Veterans of the USA calls upon the 
Congress and the Departments of Defense and Veterans Affairs to commit 
to achieving this goal by investing all the requisite resources without 
reservation and without delay.

                     REWRITING THE STOLEN VALOR ACT

    Our Supreme Court has stricken the Stolen Valor Act as an 
unconstitutional violation of the First Amendment's right of free 
speech. This decision by our Supreme Court allows liars, con artists 
and impersonators to gain prestige, financial rewards, and other 
benefits from their lies.
    Those men and women who earned these Medals through their bravery, 
often paid for with their blood and lives.
    There must be developed a law that can meet the Constitutional 
mandate while penalizing these liars, con artists and impersonators as 
frauds and which subjects them to penalties for perpetrating their 
frauds upon others. The Department of Defense could and must prepare a 
roster of the men and women who are the recipients of these Medals 
demonstrating valor and courage.
    The Jewish War Veterans of the USA calls upon the Congress to 
immediately enact a law that does not impinge upon a citizen's freedom 
of speech but does impose sanctions upon anyone who employs such 
prevarications for any form of gain be it pecuniary, political, etc.
    The Jewish War Veterans of the USA calls upon the Department of 
Defense to immediately assemble a list of the men and women who are the 
recipients of the various Medals which denote valor and bravery and a 
list of those who have committed valor fraud and thievery.

       SUSTAINING PRIORITY AND FUNDING FOR ACCOUNTING OPERATIONS

    Congress mandated, within the 2010 National Defense Authorization 
Act, that the POW/MIA accounting community develop the capacity to 
identify 200 remains per year by 2015.
    Accounting for personnel listed as POW, MIA, KIA/BNA from the 
Vietnam War, Cold War, Korean War and World War II, as well as two 
listed as KIA/BNR from Desert Storm/ the Gulf War, and Afghanistan is 
of the utmost importance.
    The accounting community has made it clear that it would be 
impossible to meet the stated identification goal without increased 
funding and personnel, unless the available resources were redirected 
to the exhumation of gravesites in national cemeteries or selected 
sites of multiple casualties, thus diminishing ongoing efforts.
    Recent United States policy indicates interest in renewing 
accounting efforts in North Korea has added additional requirements 
and, despite assurances from the White House, Department of Defense and 
U.S. Pacific Command that adequate funds will be available, there is a 
continuing concern that the current budgetary constraints will impact 
negatively on the accounting mission.
    Political circumstances, environmental conditions and policy 
interests pertaining to each of the countries in which United States 
personnel were lost during the Vietnam War, Korean War, Cold War and 
World War II differ greatly, some posing significant challenges in 
obtaining agreements for access and cooperation.
    Be it resolved that the Jewish War Veterans of the USA calls upon 
the Congress to appropriate fund and provide personnel for the fiscal 
years 2013-2018 necessary to expand the pace and scope of American 
field investigations and remains-recovery operations to ensure that 
answers for the families of American men and women still missing and 
unaccounted for from all our Nation's past wars are pursued 
simultaneously as a matter of the highest national priority of the 
United States Government and the American people.

                     DOD MISSION IN DANGEROUS TIMES

    The Department of Defense is facing large cuts in the near future. 
JWV believes this nation must maintain adequate force levels and 
adequate equipment levels. Military readiness does not come cheaply. 
Our military personnel should all have a reliable benefits package that 
will never be reduced.
    Today's active-duty service members and those who serve in the 
National Guard and Reserve components have volunteered to stand watch 
in this nation's defense. Yet few stand watch for them. Basic benefits 
of their service, from retirement to TRICARE, are under assault. The 
defenders of the country need to be able to focus on defending this 
country. They must not worry their benefits will be pulled out from 
beneath them while they are focused on more pressing concerns such as 
terror plots, IEDs, and insurgents seeking to undermine hard-fought 
gains.
    The Congress must insure that DoD is funded to meet all its 
missions including possible overseas threats from Iran, North Korea, 
and even China.

                             BACK-UP TO DOD

    VA Hospitals must be adequately funded, staffed and equipped to 
perform their vital role as this nation's only back-up for DoD medical 
facilities. U.S. military personnel could possibly suffer casualties 
exceeding the capacity of the combined military medical treatment 
facilities. In such a case, the VA would be vital to the nation. JWV 
again strongly urges the Congress to fund the VA to fully handle this 
potential workload.

                               CONCLUSION

    Chairman Sanders and Chairman Miller, our great nation must care 
for its veterans. Our country must, therefore, pay for the costs 
involved.
    At our annual national conventions our members work diligently to 
develop our legislative priorities. Our dedicated resolutions chairman, 
PNC Michael Berman, works very diligently to develop our resolutions 
and to bring them before our convention delegates. Following further 
fine-tuning by our convention delegates, our resolutions are finalized, 
and become our legislative priorities for the coming year. We thank you 
for the opportunity to present them to you today.

                                 <F-dash>
             Prepared Statement of Vivianne Cisneros Wersel

    Distinguished Chairmen and Members of the Senate and House 
Committees on Veterans Affairs, Gold Star Wives of America, Inc. is 
grateful for the privilege of testifying on issues pertaining to widows 
and widowers of our Nation's veterans.
    My name is Vivianne Wersel and I am a member of the Government 
Relations Committee of Gold Star Wives of America, Inc.
    Gold Star Wives of America, Incorporated (GSW) was founded in 1945 
and is a Congressionally Chartered organization of widows and widowers 
of veterans who died while serving on active duty or died of a service-
connected cause.
    GSW's current members are widows and widowers of military members 
who served during World War II, the Korean War, the Vietnam War, the 
Gulf War, the conflicts in both Iraq and Afghanistan, and every period 
in between. GSW is an all-volunteer organization encompassing 
approximately 8,500 members.
    Our primary mission is to support widows and widowers after the 
death of their spouse and provide a place for widows and widowers to 
connect with each other. GSW also provides information about survivor 
benefits and assists widows and widowers in obtaining these benefits. 
We strive to raise the awareness of Congress, the public, the veterans' 
community and the military community to the many inequities existing in 
our survivor benefit programs.

              Dependency and Indemnity Compensation (DIC)

    In 1956, DIC was established by the Servicemen's and Veterans' 
Survivor Benefit Act. DIC is an indemnity payable to survivors of 
military service members and veterans who die on active duty or die 
from a service connected cause.
    According to the fiscal year 2012 VA Office of Survivors Annual 
Report1 , 338,595 surviving spouses receive DIC.
    There are two types of DIC for surviving spouses2 - rank-based DIC 
which is being phased out and flat rate DIC which is $1215 per month 
for calendar year 2013. To date the surviving spouses of veterans who 
served in military pay grades E1 through E6 have been phased into flat 
rate DIC.
    The base dollar value of flat rate DIC was set in 1993 when flat 
rate DIC was initiated and has been increased only by cost of living 
allowances (COLA) since that time.
    Flat rate DIC is currently 43 percent of the VA Disability 
Compensation received by veterans rated with a 100% disability. The 
Civil Service Retirement System and the military retirement system 
survivor programs provide 55 percent of the retirement pay of a CSRS 
employee or deceased military service member to the surviving spouse.
    The current VA compensation rate for a VA rated 100% disabled 
veteran is $2816. If flat rate DIC were calculated at 55% of $2816, 
flat rate DIC would be $1548 which would be an increase of $333 per 
month.
    The lowest rank-based DIC rate is $1215 (E1-E6) and the highest 
basic DIC rate is $2594 (O10). If you add the current amount of rank-
based DIC of all 23 basic ranks (E1-E9, W1-W4, O1-O10) and divide by 23 
the result averages $1534. This small difference between the requested 
increase ($1548) and the average rank-based DIC ($1534) indicates that 
the overall cost to the Government for DIC was originally calculated as 
55% of the overall cost of to the Government of VA disability 
compensation of a 100% disabled veteran. This ratio needs to be 
restored.

 Elimination of the Dependency and Indemnity Compensation (DIC) Offset 
                   to the Survivor Benefit Plan (SBP)

    If a surviving spouse is eligible to receive both SBP and DIC, SBP 
is reduced dollar-for-dollar by the amount of DIC the surviving spouse 
receives despite the fact that SBP and DIC are different benefit 
programs for different purposes by different government departments. 
DIC is indemnity compensation for the early death of a military or 
veteran spouse due to a service connected cause. SBP is an earned and 
purchased annuity based on a percentage of the military service 
member's retirement pay intended to provide the surviving spouse with 
income after the death of the service member. The DIC offset to SBP 
needs to be repealed.
    Only surviving spouses of active duty or retired military service 
members suffer the DIC offset to SBP. Surviving children do not suffer 
this offset. Surviving spouses of Federal employees do not suffer this 
offset.
    According to a report from the Department of Defense Office of the 
Actuary as of September 30, 2012, there were 59,241 surviving spouses 
subject to the DIC offset to SBP. Of those 59,241 surviving spouses 
35,124 are fully offset and receive DIC and no SBP and 24,117 receive 
some SBP and DIC.
    SBP 3pays an annuity to surviving spouses of retired military 
service members who purchased SBP at retirement, surviving spouses of 
military service members who died on active duty and were retirement 
eligible when they died, and surviving spouses of military service 
members who died on active duty post 9-11. Unless the retired service 
member chooses a lesser amount, surviving spouses receive 55% of the 
service members retirement pay or 55% of what the service member's 
retirement pay would have been had he lived long enough to retire.
    Military retirement pay is deferred compensation,4 i.e., when the 
service member was on active duty he or she accepted less pay in 
exchange for retirement pay. If the service member chooses to purchase 
the full amount of SBP, premiums for SBP are 6.5% of the retired 
service member's retirement pay.
    Surviving spouses of retired service members who purchased SBP and 
who are also entitled to DIC receive an actuarially calculated partial 
refund of the SBP premiums the military spouse paid; the Government 
retains part of the premiums to pay for the reduced amount of SBP the 
surviving spouse receives. This partial refund is made without interest 
despite the fact that the Government had the use of the premiums for 
many years. The partial refund is refunded as a lump sum and the 
surviving spouse must pay income taxes on this lump sum in the year it 
is received.
    As you will see in the videos done by Jeanette Pavini for USA 
Today, many service members and many surviving spouses are unaware that 
their SBP will be offset by DIC.5
    We are most grateful for the Special Survivor Indemnity Allowance 
(SSIA) which Congress provided to those who suffer the DIC offset to 
SBP. As it is now this SSIA simply goes away at the end of FY 2017. We 
hope that the DIC offset to SBP can be repealed, but if it is not, we 
would like to see SSIA stabilized and extended to the years beyond FY 
2017.
    The Veterans Disability Benefit Commission (VDBC) recommended in 
2007 that surviving spouses of military service members be allowed 
concurrent receipt of full SBP and full DIC.6
    Surviving spouses who assigned SBP to the children need to be 
allowed to reselect the SBP for themselves. Children receive the full 
amount of SBP without offset. Recent surviving spouses of those who 
died on active duty were allowed and encouraged to assign their SBP 
benefit to the children. Many of these surviving spouses made the 
decision to assign the SBP to the children without appropriate 
explanation or counseling. These surviving spouses assigned the SBP to 
the children without realizing that the children would only receive SBP 
until they reached the age of majority and that the surviving spouse 
would lose SBP for life.
    Surviving spouses may remarry at or after age 57 and receive both 
full SBP and full DIC. It is utterly ridiculous that surviving spouses 
must find another mate and remarry to receive benefits that the 
deceased military spouse earned and/or purchased. All surviving spouses 
eligible for both benefits should receive full DIC and full SBP whether 
or not they choose to remarry.
    Surviving spouses of retired military service members who remarry 
at or after the age of 57 must repay the partial refund of premiums 
they received at the time of their spouse's death. If they cannot repay 
the partial refund in one lump sum, the Government charges interest on 
the unpaid balance. Since only the most recent 3 years of income tax 
returns may be amended, most of those who repay the partial refund of 
premiums cannot reclaim the income taxes they paid on the lump sum 
refund of premiums.

                   CHAMPVA-26 and TRICARE Young Adult

    Surviving families of military service members who died on active 
duty and retired service members who died of a service connected cause 
receive TRICARE. Surviving families of veterans who died of a service 
connected cause and are not entitled to TRICARE receive CHAMPVA.

    <bullet>  CHAMPVA-26 (H.R. 288) would provide health care coverage 
for surviving young adult children up to age 26 with no premiums.
    <bullet>  TRICARE offers health care coverage for young adults up 
to age 26 7also, however TRICARE requires premiums of $176 per month 
for Prime coverage, or $152 per month for Standard coverage per young 
adult covered.
    <bullet>  The Federal Employees Health Benefit Plan (FEHBP) 
extended health insurance coverage of young adult children up to age 26 
with no increase in premiums.

    Surviving spouses of military service members covered by TRICARE 
and surviving spouses of veterans covered by CHAMPVA receive the same 
amount of DIC.
    Due to the DIC offset to SBP, 60% of military surviving spouses 
otherwise entitled to SBP are completely offset.
    In essence DoD retains the SBP that the surviving spouse does not 
receive in the Military Retirement Trust Fund and then demands that the 
surviving spouse make additional contributions to DoD in the form of 
TRICARE premiums.
    It is grossly inequitable for surviving spouses who receive no SBP 
to be expected to pay premiums of $152 per month for health care 
coverage for young adult children when surviving spouses covered by 
CHAMPVA and FEHBP receive this same benefit with no additional premium. 
This is especially egregious if the surviving spouse must pay premiums 
for two or more young adult children.
    Payment of TRICARE premiums for young adults should be waived for 
all surviving spouses who suffer the DIC offset to SBP.

                              TRICARE Fees

    All surviving spouses and surviving children of military service 
members who died on active duty or died of a service connected cause 
should be exempt from any increases in TRICARE fees and any new TRICARE 
fees which might be levied.

    <bullet>  Currently surviving children of service members who died 
on active duty receive TRICARE Prime without payment of fees until they 
reach the age of majority.
    <bullet>  Surviving spouses and children of veterans who served in 
the military but did not retire, surviving spouses who have remarried 
and whose second or subsequent marriage has terminated and surviving 
spouses who remarry after the age of 57 receive CHAMPVA and most 
medications without charge. Surviving spouses and children who are 
entitled to TRICARE cannot use CHAMPVA and therefore lose part of the 
indemnity compensation from the VA.
    <bullet>  Surviving spouses of those who died on active duty post 
9-11 receive TRICARE Prime for 3 years without payment of fees and are 
exempt from fee increases.
    <bullet>  Surviving spouses of those who died on active duty pre 9-
11 and those who died of a service connected cause pay TRICARE fees for 
themselves and their children.

    Despite all the different categories many of the surviving spouses 
in each category receive flat-rate DIC of $1215 per month. All 
surviving spouses and surviving children whose military sponsor died on 
active duty or as the result of a service connected cause should be 
exempt from TRICARE fee increases and any new TRICARE fees that are 
levied.

                           Education Benefits

    The cost of a college education has increased substantially in 
recent years. The price of tuition, books, fees and living expenses is 
significantly more than in past years.
    The Chapter 35 education benefit of approximately $9878 per month 
for a full-time college student does not come close to covering the 
cost of tuition, books, fees and living expenses. Surviving children 
using Chapter 35 benefits to attend college receive no living allowance 
and no DIC. Chapter 35 education benefits need to be more closely 
aligned with the benefits provided for in the New GI Bill and Fry 
Scholarships.
    Most Federal education programs have had recent increases and 
changes, but Chapter 35 education benefits have been increased only by 
COLAs.
    Colleges often demand payment of tuition 2 or 3 months before 
classes actually start and the student does not receive payment of 
Chapter 35 benefits until 30 or 45 days after the classes start - a 
period of 3 to 4 months. All tuition payments not paid directly to the 
college by the VA should be deferred until the student receives payment 
of the education benefit from the VA. For students using Chapter 35 
benefits to attend college, payment of tuition should be deferred 
nation-wide until benefits are received.
    Recent proposed legislation (H.R. 357 and S.257) requires states to 
provide in-state tuition rates for veterans using Federal education 
benefits. To ensure that Federal education dollars are spent most 
effectively and efficiently, surviving spouses and dependents using 
Chapter 35 education benefits should be included in legislation to 
require that states provide in-state tuition rates.
    The additional costs involved in a college education must be paid 
either by the remaining parent or through student loans. It is very 
difficult for one parent of surviving children to provide the funds for 
a college education that would have been provided by two parents.
    Some states offer a tuition waiver to military and veterans' 
survivors, but not all states do. Additionally, many of these tuition 
waivers only apply to a specific group of survivors such as the 
survivors of combat deaths and exclude the survivors of those who died 
on active duty or died of a service-connected cause.

                  Social Security Consumer Price Index

    There has been much in the news lately about changing the Consumer 
Price Index (CPI) used to calculate inflation and the cost of living 
increase (COLA) for Social Security payments from a CPI-W to Chained 
CPI.

    <bullet>  The CPI-U covers All Urban Consumers and covers 88 
percent of the total population.
    <bullet>  The CPI-W is currently used to calculate COLA for Social 
Security payments. The CPI-W is an inflation calculation based on Urban 
Wage Earners and Clerical Workers and covers 32 percent of the 
population. The CPI-W is a subset of the CPI-U.
    <bullet>  The Chained CPI (C-CPI-U) is based on the same population 
as the CPI-U and on the idea that if the price of one item increases 
the consumer will purchase a lower-priced alternate item, e.g., if the 
price of oranges increases, the consumer will purchase apples instead 
of oranges.

    Changing from the CPI-W to Chained CPI would lower the rate of 
COLAs. Over time the Chained CPI would lower the amount of COLA for 
Social Security substantially.
    A change from CPI-W to Chained CPI would adversely impact not only 
Social Security benefits, but all benefits of veterans, disabled 
veterans, surviving spouses and children. COLAs on all benefits 
received by surviving spouses and children would also be calculated 
using the lower Chained CPI and over time create a substantial 
reduction in the benefits they receive.9

                         VA Office of Survivors

    In 2009 Congress approved the VA Office of Survivor Assistance. GSW 
is very grateful for this office and for the advocacy and the excellent 
service Debra Walker and Scott Bell provide to survivors.
    It is often difficult for new survivors to find grief counseling 
and grief support groups. Grief counseling and grief support groups 
could be offered at very low or no cost by VA medical centers and 
clinics, by the VA Chaplains Service, or by VA Social Services. Contact 
information about grief counseling and support groups could be posted 
on the medical facility website so that survivors could easily find the 
necessary information.
    Training and appropriate reference material on survivor issues 
needs to be provided to VA employees and the call center contractors 
who answer phone calls. A number of our members have called for 
information on survivor benefits and encountered someone who knew 
nothing about survivor benefits and apparently had no reference 
material to which to refer.

                    CHAMPVA Dental Insurance Program

    CHAMPVA recipients need access to dental care to maintain their 
overall health. Congress enacted legislation requiring the VA to 
provide access to dental insurance for veterans, dependents and 
survivors through a CHAMPVA pilot program. Over 3 years have passed and 
this dental program is not yet in place. We are grateful for this 
legislation, but perplexed at the length of time which has passed 
without implementation.

                        DIC and Remarriage at 55

    In 2003 Congress approved legislation to allow surviving spouses 
who remarried at or after the age of 57 to retain DIC benefits. Both 
the military Survivor Benefit Plan and the Federal employees' survivor 
benefit plan allow surviving spouses to remarry at age 55 and retain 
benefits. Allowing surviving spouses to remarry at age 55 and retain 
their DIC benefit would make the age a surviving spouse may remarry 
consistent with other Government programs for surviving spouses.

                 Prohibit Desecration of the U.S. Flag

    Gold Star Wives of America urges passage of H. J. Res. 19, 
proposing an amendment to the Constitution of the United States giving 
Congress power to prohibit the physical desecration of the flag of the 
United States. For the past 20 years, Gold Star Wives of America has 
participated in hearings before the House Committee on the Judiciary, 
Subcommittee on the Constitution because of our heartfelt belief in the 
American flag. We urge the passage of H.J. Res. 19.
    1 http://www.va.gov/SURVIVORS/OUTREACH.asp
    2 http://www.benefits.va.gov/COMPENSATION/resources--
comp03.asp#BM01
    3 http://www.dfas.mil/retiredmilitary/provide/sbp.html
    4 http://militarypay.defense.gov/reports/QRMC/ 11th Quadrennial 
Review of Military Compensation, Chapter 2, Page 20, Deferred 
Compensation
    5 http://usatoday30.usatoday.com/video/military-widows-must-
remarry-to-receive-full-benefits-part-1/1959407678001 http://
www.usatoday.com/media/cinematic/video/1695729/
    6 VDBC Report, October 2007, Executive Summary, Allow Concurrent 
Receipt Honoring the Call to Duty: Veterans' Disability Benefits - U.S. 
Senate
    7 http://www.tricare.mil/TYA
    8 http://www.gibill.va.gov/resources/benefits--resources/rates/
CH35/ch35rates100112.htm
    9 http://www.sanders.senate.gov/newsroom/news/?id=f63f3003-9c5b-
478d-810d-e09b52e4d7c5 http://www.sanders.senate.gov/newsroom/news/
?id=ca71ab54-06d2-42ec-ac6e-568141bb6798

                                 <F-dash>

                 Prepared Statement of Mark A. Kilgore
                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
organization serving enlisted men and women in the active, Reserve, and 
retired communities plus veterans of the Navy, Marine Corps, and Coast 
Guard. The Association is Congressionally Chartered, recognized by the 
Department of Veterans Affairs (VA) and entrusted to serve all veterans 
who seek its help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA testifies regularly before the House and Senate Veterans' 
Affairs Committees and Appropriations Subcommittees, and the 
Association is actively involved in the Veterans Affairs Voluntary 
Services (VAVS) program. A member of the National Headquarters' staff 
serves as FRA's National Veterans Service Officer (NVSO) and as a 
representative on the VAVS National Advisory Committee (NAC). FRA's 
NVSO also oversees the Association's Veterans Service Officer Program 
and represents veterans throughout the claims process and before the 
Board of Veteran's Appeals.
    In 2011, 171 FRA Shipmates provided almost 12,000 volunteer hours 
of support at 59 VA facilities throughout the country, enabling FRA to 
achieve VAVS ``Service Member'' status. Members of the Auxiliary of the 
Fleet Reserve Association are also actively involved in the VAVS 
program and hold an Associate Membership seat on the committee which 
requires involvement at 15 or more VA facilities.
    FRA became a member of the Veterans Day National Committee in 
August 2007, joining 24 other nationally recognized Veterans Service 
Organizations on this important committee that coordinates National 
Veterans' Day ceremonies at Arlington National Cemetery. The 
Association is a leading organization in The Military Coalition (TMC), 
a group of 34 nationally recognized military and veteran's 
organizations collectively representing the concerns of over five 
million members. FRA senior staff members also serve in a number of TMC 
leadership positions.
    FRA celebrated its 88th anniversary on November 11, 2012, and its 
motto is ``Loyalty, Protection, and Service.''

             CERTIFICATION OF NON-RECEIPT OF FEDERAL FUNDS

    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has received no federal grant or contract during the 
current fiscal year or either of the two previous fiscal years.

                              INTRODUCTION

    Distinguished Chairmen, Ranking Members and other Members of the 
Committees, thank you for the opportunity to present the Association's 
2013 legislative goals. Before addressing specific issues, it's 
important to note that veteran's benefits are earned through service 
and sacrifice in the defense of this great Nation and are unlike other 
entitlements or benefits programs.

                  SEQUESTRATION AND THE 2014 VA BUDGET

    A top priority for FRA is to ensure that the VA budget is exempt 
from the effects of the March 1, 2013 sequestration deadline, and to 
also ensure that the likely extension of the FY 2013 continuing 
resolution (CR) after March 27, 2013 does not result in unanticipated 
cuts to VA programs. FRA thanks House Veterans Affairs Committee (HVAC) 
Chairman Miller and former SVAC Chairwoman Murray for their efforts to 
ensure that the entire Department of Veterans Affairs (VA) budget is 
exempt from ``sequestration'' cuts as mandated by the 2011 Budget 
Control Act (BCA).
    Despite this effort, sequestration, the impact of budgeting by CR 
without separate appropriations legislation, and delay of the 
Administration's FY 2014 budget request has created significant anxiety 
within our membership and the entire veterans' community.
    The Veterans Health Administration (VHA) now serves more than eight 
million veterans and thanks to strong support from these committees and 
Congress continues to function via advanced appropriations. Our members 
urge the Administration and Congress to work together to ensure that 
the advanced appropriations amounts for FY 2013 are sustained and 
adequate to meet estimated demand for veterans health care - and ensure 
sufficient funding for FY 2014 and beyond as well. HVAC Chairman Jeff 
Miller (Fla.) and Ranking Member Mike Michaud (Me.) introduced the 
``Putting Veterans Funding First Act'' (H.R. 813). The bill would 
require Congress to fully fund VA budget a year ahead of schedule by 
providing two-fiscal year budget authority, ensuring that all VA 
services will have timely, predictable funding in an era where 
continuing resolutions and threats of government shutdowns are all too 
frequent.
    FRA supports the recommendations of the FY 2014 Independent Budget 
(IB) which was recently released by AMVETS, Disabled American Veterans 
(DAV), Paralyzed Veterans of America (PVA) and the Veterans of Foreign 
Wars (VFW). The IB has served as a guide for funding the VA for 27 
years and provides detailed VA budget analysis to meet the challenges 
of serving America's veterans. Recommendations for FY 2014 include:

    <bullet>  $58.8 billion for VA health care, which is $1.3 billion 
more than the advanced appropriations from last year;
    <bullet>  $2.4 billion for the Veteran's Benefits Administration 
(VBA) which is $226 million than the FY 2013 request;
    <bullet>  $900 million more for FY 2014 VA construction projects 
($2.25 billion); and
    <bullet>  $611 million for medical and prosthetic research which is 
$28 million more than the FY 2013 request.

                       DISABILITY CLAIMS BACKLOG

    FRA views the growing backlog of disability claims as a threat to 
the Nation's solemn commitment to properly care for disabled veterans. 
The cost of defending the Nation should include timely and adequate 
treatment of our wounded warriors. In FRA's online February 2013 survey 
of veterans, nearly 80 percent of those responding view the disability 
claims backlog as ``very important,'' and more than 84 percent cite 
access to VA health care benefits as ``very important.''
    In January 2012, the VA reported that more than 800,000 veterans 
were awaiting decisions, 60 percent of which were pending 125 days or 
more - an increase of more 100% over the previous three years. As of 
February 18, 2013 there are nearly 900,000 (897,714) disability claims 
pending with 69.9 percent pending for 125 days or longer. Thousands of 
additional claims adjusters have been hired since January 2007, yet 
despite the additional resources and manpower, the backlog of 
disability claims continues to increase. Adding to the backlog are 
errors due to inadequate examination, inaccurate processing and lack of 
oversight.
    The Association has for many years urged VA to employ new and 
improved technology to better manage the flood of disability claims 
associated with the war efforts and to shrink the disability claims 
backlog. FRA appreciates efforts by the Veterans' Benefits 
Administration (VBA) to improve the disability claims process. However, 
as is widely known by our VSOs and reported in various publications 
including the Marine Corps Times (``VA head envisions radical 
Improvements in Backlog,'' Nov. 19, 2012), the problem is made more 
challenging by more claims arriving each year. The drawdown of troops 
serving in Afghanistan will likely also result in a million more claims 
each year for the next three years with 43 percent of claims coming 
from the Reserve Component that creates additional access challenges.
    The VBA is charged with achieving the ambitious goal of having 
disability claims pending no longer than 125 days, with a 98 percent 
accuracy rate, and is not only overwhelmed by the quantity of claims 
but also the complexity of many claims.
    The following, Recovering Warrior Task Force statement after its 
January 14-15, 2013 meeting is noteworthy. ``After 12 years of war and 
the implementation of legislative provisions, policies, and services, 
DoD and VA still are plagued with basic command and control, 
coordination, and communication issues that cause inconsistencies and 
distrust across the agencies, ultimately affecting care for 
beneficiaries . . . We will have another system surge when the troops 
come home from Afghanistan, a `tsunami' . . . that will again overwhelm 
the systems - and things will get worse before they get better . . . 
Recovering warriors and their families are starving for practical help 
- even while they are being overwhelmed by a massive volume of 
information they are given.''
    The quality of claims adjudication has also been a concern for FRA. 
For example The Washington Post, (``Md Vets can face Extreme Waits,'' 
Steve Vogel, Feb. 4, 2013) cites that at Regional Office Baltimore, 
Maryland, disability claims (are) pending 429 days on average and more 
than 25 percent of those claims are being mishandled. The Association's 
February 2013 online survey reveals that 89 percent of veterans believe 
the quality of VA health benefits as ``very important,'' which is the 
highest rating of all VA quality-of-life benefits in the online survey.
    The Veterans Benefits Management System (VBMS), a paperless claims 
program now used in 18 regional offices, is scheduled to become 
operational in all 56 regional offices this year has the potential to 
dramatically reduce the time it takes for processing disability claims. 
The Washington Post, (``VA Entering the Digital Age for Claims,'' Steve 
Vogel, Feb. 4, 2013) references ``pilot testing at the Salt Lake City, 
Utah and Providence, Rhode Island offices [that] the VBMS cut the 
average time to process a case from 240 days to 119 days according to 
the agency.'' VBMS will automate five steps of the standard claims 
adjudication process including establishment, development, evidence, 
rating and award.
    FRA appreciates the outreach and expanded communication by VA 
Undersecretary for Benefits Allison A. Hickey. Her leadership at VBA 
has strengthened and expanded partnerships and improved communications 
with FRA and other military/veterans organizations. She has pushed for 
badly needed reform and encouraged a culture of change and reform at 
VBA. Noted improvements include expanded usage of the eBenefits website 
and disability benefit questionnaires (DBQ) completed by the claimant's 
private physician that evaluate disabilities that are the equivalent to 
those completed by VA or VA-contracted examiners. (DBQs are 81 
different templates that solicit medical information necessary to 
evaluate medical conditions.)
    We appreciate efforts to streamline the claims process, however, 
challenges remain with implementing and interpreting these processes by 
both VA and private sector physicians, even with accurately-completed 
DBQs and duplicative VA exams that slow down the disability claims 
process.
    Another important reform at the VBA is the creation of Quality 
Review Teams (QRT) in every regional office, charged with seeking out 
and correcting mistakes with disability claims processing, and 
providing end-of-month performance reviews intended to reduce lag-time 
in measuring quality from the current four months to one week and 
permit timely corrective action. The VBA created three segmented lanes 
for disability claims (Express, Core, and Special Ops) that should 
accelerate adjudication for ``Express'' claims from 250 days to 80 
days, and reduce overall claims processing an average of 51 days.
    The VA is also cutting red-tape for veterans by eliminating the 
need to complete an annual Eligibility Verification Report (EVR). The 
VA has implemented a new process for confirming eligibility for 
benefits. In the past, beneficiaries had been required to complete an 
EVR each year to ensure their benefits continued. VA estimates it would 
have sent nearly 150,000 EVR's to beneficiaries in January 2013. 
Eliminating these annual reports reduces the burden on veterans, their 
families, and survivors to submit routine reports to VA each year to 
avoid suspension of benefits. This will also free up more than 100 
employees that processed EVRs that can work on eliminating the claims 
backlog.
    The VA also launched a new initiative that could eliminate the 
requirement for an in-person medical examination for some veterans and 
shorten the time it takes to process disability compensation claims. 
The initiative is called Acceptable Clinical Evidence (ACE). This is a 
joint effort by the VHA and the VBA to provide a veteran-centric 
approach for disability examinations. The ACE process opens the 
possibility of doing assessments without an in-person examination when 
there is sufficient information in the record.
    The VBA has worked to increase the percentage of Fully Developed 
Claims (FDC) which consists of a complete application, all military and 
civilian medical treatment records, and relevant military records 
including the claimants DD 214. Claims submitted under the FDC program 
are currently processed on average within 115 days. VBA has a goal of 
increasing FDC claims to reach 20 percent of all claims. This would 
increase 153,000 claims adjudicated before the 125 day deadline.
    FRA continues to believe there is strong bipartisan support to 
further reform the system and lawmakers have made clear that they want 
to improve claims processing to eliminate bureaucratic delays and 
ensure more uniformity between branches of the military and the VA in 
how they rate disabilities. An effective delivery system is essential 
along with decisive and appropriate action to correct deficiencies and 
improve processes. That said ,VA can promptly deliver benefits to 
veterans only if it has modern technology, adequate resources, 
sufficient personnel training and staffing.

                 WOUNDED WARRIORS & SEAMLESS TRANSITION

    FRA strongly supports the Administration's efforts to create an 
integrated Electronic Health Record (iEHR) for every service member 
which would be a major step towards the Association's long-standing 
goal of a truly seamless transition from military to veteran status for 
all service members and permit Department of Defense (DoD), VA, and 
private health care providers immediate access to a veteran's health 
data.
    The importance of fully implemented interoperability of electronic 
medical records cannot be overstated. However, SecDef Leon Panetta and 
SecVA Eric Shinseki recently announced jointly that the departments are 
abandoning plans to create a single electronic health record for active 
duty military and veterans. And FRA shares concerns expressed by HVAC 
Chairman Miller at a February 27, 2013 hearing that this change could 
be viewed as a step backwards on this issue apparently due to budget 
pressures and higher costs.
    There is some sharing now between DoD, VA and the private sector, 
but more needs to be done. Wider expansion of data sharing and exchange 
agreements between VA, DoD and the private sector is needed. VA's 
``Blue Button'' initiative permits veteran's online access to some 
medical history, appointments, wellness reminders and military service 
information, but most is only accessible only after in-person 
authentication. VHA is also moving forward on its paperless processes 
that is Health Insurance Portability and Protection Act (HIPPA) 
compliant.
    FRA strongly supports the VA/DoD joint effort to invest more than 
$100 million in new research to improve diagnosis and treatment of post 
traumatic stress (PTS) and mild traumatic brain injury (TBI) in 
response to a August 31, 2012 Presidential Executive Order calling for 
DoD and VA to also establish an inter-agency task force to coordinate 
their efforts, and VA and Health and Human Services (HHS) will 
establish at least 15 pilot programs involving community-based health 
providers to expand mental health services in areas not well served by 
VA.
    The Veterans Affairs and Armed Services Committees must remain 
vigilant regarding their oversight responsibilities associated with 
ensuring a ``seamless transition'' for our Nation's wounded warriors. 
In conjunction with this, FRA is concerned about shifting of 
departmental oversight from the Senior Oversight Committee (SOC) 
comprised of the DoD and VA secretaries per provisions of the FY 2009 
National Defense Authorization Act, to the more lower echelon Joint 
Executive Council (JEC) which is now responsible for supervision, and 
coordination of all aspects of DoD and VA wounded warrior programs. 
This change is perceived by many as diminishing the importance of 
improving significant challenges faced by service members - 
particularly wounded warriors and their families - in transitioning 
from DoD to the VA.
    The Association notes the importance of the eBenefits web site 
which serves as an electronic portal for veterans, service members and 
their families to research, find, access, and in the near future manage 
their VA benefits and track progress on claims processing. The program 
is a service of the VA and DoD and was one of the recommendations of 
the President's Commission on Care for America's Returning Wounded 
Warriors (Dole/Shalala). There are now more than 1.86 million eBenefits 
users.
    The Association also strongly encourages support for the Navy's 
Safe Harbor Program and the Marine Corps Wounded Warrior Regiment 
(WWR), programs that are providing invaluable support for these 
personnel before and after they transition to veterans' status.

                         MENTAL HEALTH/SUICIDE

    FRA believes post traumatic stress (PTS) should not be referred to 
as a ``disorder.'' This terminology adds to the stigma of this 
condition, and the Association believes it is critical that the 
military and VA work to reduce the stigma associated with PTS and TBI. 
Access to quality mental health service is a vital priority, along with 
a better understanding of these conditions and associated care and 
support that's currently available.
    Suicide prevention is also a priority issue for FRA and the VA's 
2012 Suicide Data Report will hopefully help in reducing the number of 
veteran's suicides. In the past, data on veterans who died by suicide 
was only available for those who had sought VA health care services. 
This also includes state data for veterans who had not received health 
care services from VA, which will help VA strengthen its aggressive 
suicide prevention activities. The report indicates that the percentage 
of veterans who die by suicide has decreased slightly since 1999, while 
the estimated total number of veterans who have died by suicide has 
increased.
    As many as 18 veterans are committing suicide every day and access 
to quality mental health services must continue to be a priority for 
the VA. In 2005 the VA's 13,000 mental health professionals were 
providing care for veterans. Today there are more than 20,000 mental 
health professionals at the VA and that number should continue to 
increase. The VA/DoD crisis hot line has assisted more than 640,000 
people and recued over 23,000 from potential suicide, and there must be 
readily available counseling support and expanded awareness of help 
that's available to veterans in crisis. Expanding VA counseling to 
veteran's family members, strengthening oversight of IDES, and 
requiring VA to establish accurate measures for mental health were 
included in the FY 2013 NDAA are also important in addressing this 
issue.
    The Association appreciates the White House efforts at stemming the 
tide of veteran suicides. President Obama signed an Executive Order on 
August 31, 2012 aimed at reducing suicides and improving mental health 
services for veterans, active duty personnel and their families. The 
order requires the VA to increase capacity of its Veterans Crisis 
Hotline by 50 percent to ensure that veterans identified as being a 
danger to themselves or others are connected with a trained mental 
health professional within 24 hours. The order allows VA to refer 
veterans in need of immediate mental health care to the TRICARE network 
and directs the VA and the Department of Health and Human Services 
(HHS) to expand outreach efforts to service members and veterans, and 
fill all vacancies for mental health staff positions.

                              AGENT ORANGE

    From 1964-1975 more than 500,000 service members were deployed off 
the coast of Vietnam and may have been exposed to Agent Orange, a 
herbicide used in Vietnam. Past VA policy (1991-2001) allowed service 
members to file claims if they received the Vietnam Service Medal or 
Vietnam Campaign Medal.
    The Association appreciates the establishment of a presumptive 
service-connection for Vietnam veterans who have B cell leukemia, 
Parkinson's disease or ischemic heart disease. These diseases are 
related to exposure to Agent Orange. VA Secretary Eric Shinseki's 
decision was based upon an Institute of Medicine's (IOM) 2010 report 
and this is a major step in the right direction, but FRA is advocating 
for a broader Agent Orange service-connection.
    However, a January 2013 VA statement referencing a careful review 
of another IOM report in 2011, entitled, ``Blue Water Navy Vietnam 
Veterans and Agent Orange Exposure,'' indicates that there is 
insufficient evidence to establish a presumption of exposure to 
herbicides for Vietnam veterans who served off the Vietnam coast during 
the conflict.
    FRA believes that decision maintains the status quo regarding 
disability claims of these so-called ``Blue Water'' veterans and that 
the IOM report validated the 2002 Royal Australian Navy study that 
confirmed the desalinization process used on Australian and U.S. Navy 
ships actually magnified the dioxin exposure. The Association continues 
to seek a legislative remedy to reverse current policy so Blue Water 
veterans and military retirees who have health problems commonly 
associated with herbicide exposure will be eligible for service-related 
VA medical and disability benefits.
    FRA notes the VA's efforts to expand presumption to ships exposed 
to Agent Orange during the Vietnam era. In January 2012 the Department 
added 47 ships to its list of Navy and Coast Guard vessels that may 
have been exposed to the Agent Orange herbicide. The list expanded as 
VA staff determined that a ship anchored, operated close to shore or 
traveled on the inland waterways and was exposed to the toxic 
herbicide.
    While the expanded VA policy to include veterans who sailed on 
``inland waterway'' ships is significant, FRA believes it does not go 
far enough. The Association has received hundreds of calls from ``blue 
water sailors'' and their surviving spouses, stating that due to 
service on ``their ships'' in Vietnam waters, they too suffer or have 
died from many of the illnesses associated to presumed exposure to 
herbicides as their ``brown water'' and ``boots on the ground'' 
counterparts.
    The Association wishes to thank Representative Chris Gibson (N.Y.) 
for his introduction of H.R. 543 ``Blue Water Navy Vietnam Veterans Act 
of 2013.'' The bill was introduced with 42 original bi-partisan co-
sponsors. FRA looks forward to the Senate introducing companion 
legislation and potential hearings on this priority issue of the 
Association

                        DISABIITY RATING REVIEW

    Aggressive committee oversight of the Integrated Disability 
Evaluation System (IDES) is essential to ensuring that disability 
ratings established by this system are fair and consistent. FRA 
supports the modernization of the VA Schedule of Rating Disabilities to 
guarantee that the ratings are uniform between the different services, 
between enlisted and officers, and uniform between DoD and VA.
    The 2013 Independent Budget (IB), a recent IOM report, the final 
report (2007) of the Veterans Disability Benefit Commission (VDBC), and 
the Dole -Shalala Commission all agree that the current disability 
rating should be reformed to more fully take into account non-economic 
loss and quality of life factors when determining compensation.
    The Association also recommends that Congress change the current 
practice of rounding down veterans and survivors benefits to the next 
lowest dollar. Over time, the effect of rounding down can be 
substantial and our members have expressed concern about these effects.
    FRA urges Congress to authorize a presumption of service-connected 
disability for combat veterans and veterans exposed to high levels of 
noise and subsequently claim hearing loss or tinnitus. Currently, 
veterans must prove that the hearing problem was caused by military 
service.
    The Physical Disability Board of Review (PDBR) was mandated by the 
FY 2008 National Defense Authorization Act to reassess the accuracy and 
fairness of disability claims that resulted in combined disability 
ratings of 20 percent or less for service members who were separated 
from service due to medical conditions rather than being medically 
retired. To be eligible for a PDBR review, service members must have 
been medically separated between September 11, 2001, and December 31, 
2009, with a combined disability rating of 20 percent or less, and 
found ineligible for retirement. PDBR can not downgrade a disability 
for veterans seeking a review if their rating and nearly half of those 
reviewed have been upgraded to 30 percent or more. FRA urges additional 
funding for mailing and other outreach efforts to eligible veterans and 
that adequate staff and resources be provided to the PDBR to be able to 
process an increase in the volume of veterans seeking a review of their 
ratings.

                                  COLA

    FRA supports Rep. Jon Runyan's (N.J.) legislation (H.R. 569) to 
provide automatic annual cost-of-living-adjustments (COLA) for veterans 
with service connected disabilities and survivors of certain disabled 
veterans receiving dependency and indemnity compensation (DIC). 
Currently Congress must authorize veteran's COLA legislation every 
year. Runyan's legislation would make this increase automatic just like 
the automatic annual increases for military retirees.
    The Department of Labor's Consumer Price Index (CPI) is used to 
determine annual COLAs for various benefit programs. Recent budget 
reduction discussions have focused in part on the concept of swapping 
the CPI with the so-called ``chained CPI'' that takes into account the 
effect of substitutions that consumers make in response to changes in 
prices. That change over time would have a significant impact on the 
annual COLAs for military retirees and on veterans' benefits. SVAC 
Chairman Bernie Sanders' (Vt.) effort in leading opposition to the 
chained CPI and the Association is committed to ensuring equitable 
COLAs for military retiree's retainer pay, veterans disability 
compensation, dependency and indemnity compensation for surviving 
spouses and children.

                            POST 911 GI BILL

    The Association strongly supports the ``GI Bill Tuition Fairness 
Act'' (H.R. 357) that would require schools eligible for GI Bill 
education benefits to authorize veterans in-state tuition rates even 
though they may not be residents of the states where the schools are 
located. According to a recent Navy Times story, (Jan. 28, 2013), 
``only 13 states now provide in-state tuition to non-resident 
veterans.'' Those who volunteered to defend this Nation did not just 
defend the citizens of their home states, but the citizens of all 50 
states, and the educational benefits they receive from the taxpayers 
should reflect that fact. The current limit on GI Bill tuition is in 
excess of $18,000 per semester and this legislation will ensure that 
veterans receiving benefits from the Post 911 GI Bill will have their 
tuition reimbursed, which was the intent of the original Post 911 GI 
Bill law.
    FRA appreciates enactment of the ``Improving Transparency of 
Education Opportunities for Veterans Act'' (H.R. 4057), sponsored by 
Rep. Gus Bilirakis (Fla.) that among its other provisions, highlights 
available educational resources to help GI Bill beneficiaries choose 
the school best meeting their educational needs.
    The Post 9/11 GI Bill is a tremendous benefit for service members 
who qualify for the program and has significantly improved the morale 
of those currently serving. The VA has provided more than $24.4 billion 
in tuition and benefits for more than 870,000 veterans, service 
members, and their families. The Association urges sustained oversight 
of the program to ensure that qualifying veterans and their families 
can make informed decisions about choosing the best educational program 
for their needs and that they receive benefits in a timely manner. The 
demand for Post 911 GI Bill benefits is expected to increase as the 
U.S. military disengages from Afghanistan and there is a drawdown of 
forces.
    Timely processing of GI Bill benefits has been a challenge for the 
VA, and FRA appreciates the VBA efforts to work with universities, 
colleges, and trade schools to improve the benefit payment process. By 
law the VA can not pay GI Bill benefits until the School Certifying 
Official (SCO) provides VA enrollment certifications. FRA appreciates 
the VA establishing an SCO hotline for schools having difficulty with 
the certification process.

                           ACCESS TO VA CARE

    In 2009 there was a partial lifting of the ``temporary'' 2003 ban 
on enrolling Priority Group 8 veterans. VA opened enrollment for some 
(10 percent) of these beneficiaries and the intent was to gradually add 
10 percent more enrollments each successive year, however the lifting 
of the ban stopped after the first year significantly limiting access 
to care. More than 260,000 veterans have been impacted by the policy. 
Our Nation made commitments to all veterans in return for their service 
and limiting enrollment conveys the wrong message to those currently 
serving and those who have served in the past.
    Expanding access to VA Hospitals and Clinics for TRICARE 
beneficiaries is important and FRA supports opportunities to expand 
DoD/VA joint facilities demonstration projects such as combining the VA 
Hospital and the Naval Hospital at Great Lakes Naval Base, Illinois, 
and ensuring that military retirees are not required to pay for care in 
VA facilities. All 153 VA medical centers accept TRICARE beneficiaries 
except for TRICARE for Life beneficiaries.
    The Association is concerned that the Inspector General has 
launched an investigation of the failure of medical protocols at the 
Buffalo VA Medical Center that could have exposed more than 700 
patients to HIV, hepatitis B or hepatitis C. FRA welcomes HVAC plans to 
hold a hearing on the problems at that facility.
    FRA supports the CHAMPVA Children's Protection Act (H.R. 288), 
sponsored by HVAC Ranking Member Rep. Mike Michaud (Maine), that 
increases from age 23 to 26 the maximum age of eligibility for certain 
dependent children of veterans for medical care under the Civilian 
Health and Medical Program of the VA. This bill would bring CHAMPVA in 
line with TRICARE and the insurance requirements created by the 
Affordable Care Act.
    Finally, Congress should expand the VA Caregivers Act to cover 
full-time care givers of catastrophically disabled veterans before 
September 11, 2001. In addition, the Defense Centers of Excellence 
should be adequately funded and staffed.

                          MEDICARE SUBVENTION

    FRA believes authorization of Medicare subvention for eligible 
veterans would improve access for Medicare-eligible veterans and 
enhance health care funding for the VA. Under current law, Medicare is 
not authorized to reimburse VA hospitals for care provided to Medicare 
eligible veterans. This results in veterans being forced to decide 
between receiving medical care through the VA, or using Medicare at a 
non-VA facility and foregoing the personalized care of a VA hospital. 
Most veterans pay into Medicare for most of their lives, yet the law 
prohibits them from benefitting from this via care at VA facilities 
later in life.

                             WOMEN VETERANS

    In January 2013 the Pentagon lifted the ban on women in direct 
combat and Defense Secretary Leon Panetta stated that women have become 
an ``integral part'' of the military and have already demonstrated 
their willingness to fight during the wars of the last decade. Even 
before the change women were playing a significant role in the nation's 
defense.
    During the past decade military roles and responsibilities have 
been broadened and the number of women serving has significantly 
increased. There are more than 1.8 million women veterans and today 
they make up more than 15 percent of our active duty forces and 18 
percent of the Reserve Component (RC). FRA strongly supports VA efforts 
to create an appropriate model of care for women veterans and the pilot 
program to provide child care services for women veterans who come to 
the VA for treatment of their wounds and injuries. Further, the VA 
should enhance its sexual trauma and other gender specific programs and 
continue to improve services tailored to women veterans in all VA 
facilities.

                          VETERAN'S EMPLOYMENT

    Veteran's unemployment and programs to assist them in finding jobs 
throughout our Nation are very important. In conjunction with these 
issues, FRA welcomed news that the Senate recently confirmed Keith 
Kelly to serve as the Department of Labor (DoL) Assistant Secretary for 
Veterans Employment and Training Service, a post that had been vacant 
since July of 2011.
    Employer tax credits for hiring veterans are authorized in the 
recently enacted Veterans Opportunity to Work to Hire Heroes Act (VOW). 
And veterans' job fairs are being scheduled throughout the country in 
conjunction with the White House Business Council. These and other 
efforts have resulted in the veterans' unemployment rate dropping to 
6.7 percent, which is more than a full percentage point below the 
national average of 7.8 percent. TAP and DTAP sessions are now 
mandatory to also help with the transition of all service members to 
civilian life and post service employment.

                     TRANSITION ASSISTANCE PROGRAM

    FRA supported making the Transition Assistance Program (TAP) a 
mandatory program for service members leaving the military. TAP was 
established to offer job search assistance and related services for 
separating service members during their period of transition into 
civilian life.
    The Association concurs with the 2014 IB recommendation that 
stresses the importance of a new TAP curriculum that is relevant to 
today's transitioning service members, and that Congress must track 
implementation of the new TAP efforts to ensure its effectiveness. 
Keith Kelly, the newly confirmed Department of Labor Assistant 
Secretary for Veterans Employment and Training Service, indicated 
during his confirmation hearing that he will implement the re-designed 
TAP. Currently multiple government agencies have jurisdiction (DoL, 
DoD, VA, and Department of Homeland Security) over the program and FRA 
supports shifting oversight of these programs to the VA. Kelly also 
pledged to improve outreach to service members and veterans to ensure 
they have access to this and other programs to help them find civilian 
jobs.

                         VETERANS HOMELESSNESS

    FRA supports the goal of eliminating veterans homelessness by 2015. 
With assistance from the Housing and Urban Development (HUD) the VA has 
made progress on this issue. According to The Washington Post, 
(``Donovan, Shinseki hit D.C. Streets for National Homeless Count,'' 
Steve Vogel, Feb. 1, 2013), ``Last year's count found 62,619 homeless 
veterans, representing a 17.2 percent decline since 2009.'' Since HUD 
and VA have joined forces more than 37,000 homeless veterans have been 
place in housing.

           FULL VETERAN STATUS FOR RESERVE COMPONENT SERVICE

    The Association supports full veteran status for Reservists with 20 
years or more of service. FRA appreciates Sen. Mark Pryor's leadership 
in the last session of Congress by introducing the ``Honor American's 
Guard-Reserve Retirees'' (S. 491) bill and filing an amendment to the 
FY 2013 NDAA that unfortunately was not called for a vote. FRA also 
appreciates the leadership of Rep. Timothy Walz's (Minn.) companion 
bill (H.R. 679) that passed the House by voice vote in the last session 
of Congress.

            COURT-ORDERED DIVISION OF VETERAN'S COMPENSATION

    The intent of service-connected disability compensation is to 
financially assist a veteran whose disability may restrict his or her 
physical or mental capacity to earn a greater income from employment. 
FRA believes this payment is that of the veteran and should not be a 
concern in the states' Civil Courts. If a court finds the veteran must 
contribute financially to the support of his or her family, let the 
court set the amount allowing the veteran to choose the method of 
contribution. FRA has no problem with child support payments coming 
from any source. However, VA disability should be exempt from 
garnishment for alimony unless the veteran chooses to make payments 
from the VA compensation award. The Federal government should not be 
involved in enforcing collections ordered by the states. Let the states 
bear the costs of their own decisions. FRA recommends the adoption of 
stronger language offsetting the provisions in 42 USC, now permitting 
Federal enforcement of state court-ordered divisions of veterans' 
compensation payments.

                    NATIONAL CEMETERY ADMINISTRATION

    The National Cemetery Administration (NCA) maintains over three 
million gravesites at 131 national cemeteries in 39 states, the 
District of Columbia, and Puerto Rico that include 3.1 million 
gravesites. The VA estimates that about 22 million veterans are alive 
today. They include veterans from World War II, the Korean War, the 
Vietnam War, the Gulf War, and the War on Terror, as well as peacetime 
veterans. It is expected that one in every six of these veterans will 
request burial in a national cemetery. Annual internments are estimated 
to have increased to 116,000 in the current fiscal year (FY 2013) and 
will remain at that level until 2015.
    FRA believes that transparency is an effective deterrent to 
bureaucratic mismanagement and welcomes the recently released VA 
Inspector General's report that reviewed over three million veteran's 
graves in 131 national cemeteries that indicated an error rate of less 
than 0.0003 percent. This report was a result of HVAC Chairman Miller's 
call last year for a complete audit of gravesites to ensure all 
veterans and their dependents are buried in the correct graves. Our 
members appreciate the House Committee's ongoing oversight to ensure 
that these problems do not arise again at NCA cemeteries. The VA has 
also indicated it will ``tighten procedures'' and will continue to 
conduct audits at the 17 cemeteries where problems were discovered.
    The Association supported the recent enactment of the ``Dignified 
Burial and Veterans' Benefits Improvement Act'' (S. 3202 P. L. 112-260) 
that authorizes the VA to furnish a casket or urn for a deceased 
veteran when VA is unable to identify the veteran's next-of-kin and 
determines that sufficient resources are not otherwise available to 
provide for proper burial in a national cemetery.
    FRA appreciates the increased burial plot allowance from $300 to 
$700 effective October 1, 2011, although there is still a gap between 
the original value of the benefit and the current benefit. The 
Association also supports the FY 2013 IB recommendations to increase 
the plot allowance to $1,150. Further NCA's Operations and Maintenance 
budget should be increased so it can meet increasing demands created by 
the aging veteran population.

                           CONCURRENT RECEIPT

    FRA continues its advocacy for legislation authorizing the 
immediate payment of concurrent receipt of full military retired pay 
and veterans' disability compensation for all disabled retirees. The 
Association appreciates the progress that has been made on this issue 
that includes a recently enacted provision fixing the CRSC glitch that 
caused some beneficiaries to lose compensation when their disability 
rating was increased. Chapter 61 retirees receiving CRDP, and CRDP 
retirees with less than 50 percent disability rating that should also 
receive full military retired pay and VA disability compensation 
without any offset.
    The Association strongly supports legislation to provide additional 
improvements that include Senate Majority Leader Harry Reid's recently 
introduced legislation (S.234), Rep. Sanford Bishop's (N.Y.) ``Disabled 
Veterans Tax Termination Act'' (H.R. 333) and Rep. Gus Bilirakis' 
(Fla.) ``Retired Pay Restoration Act'' (H.R. 303).

                            SCRA ENFORCEMENT

    Certain Servicemembers Civil Relief Act (SCRA) protections have 
limits. SCRA only protects service members and their families from 
eviction from housing while on active duty due to nonpayment of rents 
that are $1,200 per month or less and covering housing leases up to 
$2,932.31 per month. These caps were established in 2003 and FRA 
supports increasing the caps to account for today's higher cost of 
living. The Association also wants to ensure that SCRA is enforced by 
regulatory agencies, including the Consumer Financial Protection Bureau 
(CFPB), Office of Military Affairs.
    Abuses of service members' rights were originally exposed by the 
House Veterans Affairs Committee under the leadership of Chairman Rep. 
Jeff Miller (Fla.) during a February 2011 hearing. The hearing revealed 
J.P. Morgan Chase Bank violated the SCRA by improperly charging higher-
than-allowed interest on 4,500 active duty service members' mortgages 
and foreclosing on 18 service members' homes while they were deployed. 
These hearings lead to settlement between the Federal government, 49 
state Attorneys General, and five of the largest mortgage loan 
servicers: Bank of America, JP Morgan Chase, Citigroup, Wells Fargo, 
and Ally Financial.

                                SBP/DIC

    FRA supports the ``Military Surviving Spouse Act'' (H.R. 32) 
sponsored by Rep. Joe Wilson (S.C.), and understands that Senate 
companion legislation may be introduced soon that would repeal the SBP/
DIC offset. This bill would eliminate the offset, also known as the 
``widow's tax,'' on approximately 60,000 widows and widowers of our 
Armed Forces.
    Current DIC payments are $1,215 and 2009 legislation partially 
addressed this inequity by authorizing an increase via the Special 
Survivor Indemnity Allowance of only $50 per month for that year, with 
increases to $100 in 2014. The above referenced legislation would 
increase the allowance to $150 per month in 2014 with gradual increases 
to $310 per month in 2017.
    SBP and DIC payments are paid for different reasons. SBP coverage 
is purchased by the retiree and intended to provide a portion of 
retired pay to the survivor upon his/her death, while DIC is indemnity 
compensation paid to survivors of service members who die of service 
connected causes. And it's important to note that surviving spouses of 
federal civilian retirees who are disabled veterans and die of service 
connected causes receive DIC without offset to their federal civilian 
SBP benefits.

       UNIFORMED SERVICES FORMER SPOUSES PROTECTION ACT (USFSPA)

    FRA urges Congress to examine the Uniformed Services Former 
Spouses-Protection Act (USFSPA) and support amendments to the language 
therein to protect its service members against State courts that ignore 
provisions of the Act.
    The USFSPA was enacted 29 years ago; the result of Congressional 
maneuvering that denied the opposition an opportunity to express its 
position in open public hearings. The last hearing, in 1999, was 
conducted by the House Veterans' Affairs Committee rather than the 
Armed Services Committee which has oversight authority for amending the 
USFSPA.
    Few provisions of the USFSPA protect the rights of the service 
member, and none are enforceable by the Department of Justice or DoD. 
If a State court violates the right of the service member under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the Act fails to have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the service member to appeal to the court, which 
in many cases gives that court jurisdiction over the member. Another 
infraction is committed by some State courts awarding a percentage of 
veterans' compensation to ex-spouses, a clear violation of U. S. law; 
yet, the Federal government does nothing to stop this transgression.
    There are other provisions that weigh heavily in favor of former 
spouses. For example, when a divorce is granted and the former spouse 
is awarded a percentage of the service member's retired pay, the amount 
should be based on the member's pay grade at the time of the divorce 
and not at a higher grade that may be held upon retirement. 
Additionally, Congress should review other provisions considered 
inequitable or inconsistent with former spouses' laws affecting other 
Federal employees with an eye toward amending the Act.

                               CONCLUSION

    In closing, allow me again to express the sincere appreciation of 
the Association's membership for all that you and the Members of both 
of the House and Senate Veterans' Affairs Committees and your 
outstanding staffs do for our Nation's veterans.
    Our leadership and Legislative Team stands ready to meet with and 
assist you, other members of the Committees or their staffs at any 
time, to improve benefits for all veterans who've served this great 
Nation.

                                 <F-dash>
                    Prepared Statement of John Rowan

    Good morning, Chairmen Sanders and Miller, Ranking Members Burr and 
Michaud, and other members of these most distinguished House and Senate 
Veterans' Affairs Committees. I am most pleased to appear before you 
today to present on behalf of the members and families of Vietnam 
Veterans of America VVA's legislative agenda and policy initiatives for 
this, the 113th Congress of the United States.
    First, though, I want to thank you for your efforts to assist 
veterans who need assistance, to monitor those agencies of government 
that need monitoring, and to address the myriad of issues that, quite 
frankly, need to be addressed, several of which you will find among 
VVA's deepest concerns.
    As you know, although VVA is the only Vietnam veterans service 
organization chartered by Congress, we advocate on behalf of veterans 
of all eras, those who served before us and those who have served most 
recently in the wars in Afghanistan and Iraq, which have supplanted our 
war as the longest in the history of the republic.
    I would hazard a guess that more than a few folks even in this room 
this morning are unaware that there is a solitary American serviceman 
who is missing in action in Southwest Asia. In the parlance of the 
Pentagon, he is a DUSTWUN, ``Duty Station Whereabouts Unknown,'' which 
doesn't resonate as somberly as ``Missing in Action.''
    You should know that getting the fullest possible accounting of the 
fates of America's POW/MIAs has long been VVA's top priority. At the 
conclusion of hostilities in the war in Vietnam, 2,646 American 
servicemen were listed as missing in Southeast Asia; at the beginning 
of this month, some 1,653 remained ``unaccounted for.'' VVA's Veterans 
Initiative program, which reaches out to Vietnamese veterans, has led 
them to the burial sites of potentially thousands of their comrades. 
Importantly for us, it has enabled our emissaries to return with the 
remains of several of our brother soldiers.
    VVA has identified and placed into two categories what we consider 
to be viable Top Priorities: Addressing the Legacy of Toxic Exposures 
and Fixing the VA. They can be accomplished if there is the political 
and/or the managerial will. They are achievable if we want them badly 
enough, and if we can marshal our service and veterans communities and 
work in concert to convince you, our elected officials, that these are 
of great importance for all Vietnam veterans and for our families and 
our survivors. Only one of these will likely require any significant 
outlay of funding, but its potential benefits for all of American 
society can be huge.
    Let us be clear: Vietnam Veterans of America continues to embrace 
the newest generation of veterans, who have served with such 
distinction in Southwest Asia, for their reception home and for the 
array of benefits accorded to them - the Post-9/11 G.I. Bill, which 
significantly outdoes the educational benefits of even the original 
G.I. Bill Congress passed in 1944 in anticipation of the flood of 
returning servicemen and -women from Europe and the Pacific; and the 
Caregivers and Veterans Omnibus Health Services Act of 2010 that 
Congress enacted to assist family caregivers of catastrophically 
wounded or injured warriors in the wake of 9/11. Consistent with our 
founding principle, we will never abandon any generation of veterans.
    But while attention has appropriately been given to veterans of our 
nation's recent and current wars, make no mistake: Vietnam veterans 
still have unmet needs. And we refuse to be passed by and dismissed or 
forgotten.
    This Administration has made real strides in recognizing the 
inequities we have suffered, and for this they - especially VA 
Secretary Eric K. Shinseki and President Barack Obama - deserve our 
thanks. Enactment of the Top Priorities we outline here, in both 
Addressing the Legacy of Toxic Exposures and Fixing the VA, can go a 
long way towards ameliorating some of these needs - not just for 
Vietnam veterans but for veterans of all eras.
    And make no mistake: When we reference ``toxic exposures'' we don't 
mean only Agent Orange - dioxin - or the burn barrels so many of us 
stood next to in Vietnam. We are going well beyond our own concerns. We 
are also addressing the intense plume from the explosion in 1990 of the 
``ammunition dump'' at a place called Khamisiyah during the Persian 
Gulf War; and we are concerned about the effects on those who worked in 
and lived near the scores of burn pits that were so much a part of the 
landscape of the American presence during the long years of Operation 
Enduring Freedom in Afghanistan and Operations Iraqi Freedom and New 
Dawn in Iraq. And as our understanding of toxic exposures increases, we 
strongly urge the Department of Defense to think prospectively, to 
anticipate and not just react, to the likelihood of similar exposures 
in future conflicts as part of the true ``cost of war'' - and the 
lifelong, even intergenerational legacies they may generate.
    U.S. and Allied troops are for the most part out of Iraq. The 
President has promised that almost all American troops will exit 
Afghanistan by the end of 2014. As long as our forces are in harm's 
way, there is a reservoir of sympathy for their service and their 
sacrifices. This translates into protected funding for VA personnel and 
programs. Once the shooting ceases and all the troops return to our 
shores - even though the VA will have the enormous task of dealing with 
their wounds both physical and mental for the rest of their days - it 
is likely that Congress will no longer be so generous. This we Vietnam 
veterans know only too well.
Addressing the Legacy of Toxic Exposures
    Not all wounds of war are immediately obvious. Much has been 
written about the impacts of combat on the human psyche, and such 
mental ills known now by their acronyms - PTSD (Post-traumatic Stress 
Disorder) and TBI (Traumatic Brain Injury) - have been accorded much 
attention by the Pentagon, prodded, as it were, by the press and the 
public and the national veterans' service community.
    Not so evident are the insidious long-term effects of exposures to 
toxic substances. Substances like dioxin. And mustard gas. And sarin 
and VX and BZ. As we can now testify, symptoms can present a decade or 
more after exposure and separation from service. And by ``long-term 
effects'' we don't mean only on the veteran. We refer as well to their 
progeny, a generation or more into the future. They are in effect also 
wounded by the war in which their mother or father served. There has 
been a paucity of research in this area. You would think - you would 
hope - that the VA, with its multi-million dollar budget for research, 
would try to initiate at least a few studies in this area. But you 
would be wrong.
    To help right this wrong, VVA has developed a bill we expect to be 
introduced initially in the House of Representatives. We intend to 
identify champions for this legislation and seek co-sponsors from both 
sides of the aisle to move this bill, to get a hearing in the 
appropriate committee, and then push on from there. The CBO, the 
Congressional Budget Office, will score the bill: make no mistake, 
there will be a cost to do it right. But the cost is worthwhile, and 
the cause is righteous.
    The legislation we have crafted , which we are calling the 
Veterans' Family Preservation, Health Maintenance, and Research Act of 
2013, embraces these elements:

    <bullet>  A veteran's military medical/health history shall be a 
mandatory piece of the electronic patient medical treatment system to 
be developed in concert with the national rollout of this system;
    <bullet>  A database registry within the Veterans Health 
Administration, the VHA, modeled on the VA's Hepatitis C Registry, 
shall be established for veterans exposed to Agent Orange/ dioxin that 
would replace the current registry; similar registries shall be 
established for the Persian Gulf War, Operations Iraqi Freedom/New Dawn 
and Enduring Freedom, the Global War on Terror, and other significant 
deployments, e.g., Bosnia, Somalia, the Philippines; and for any duty 
station in CONUS, e.g., Camp Lejeune, Air Station El Toro, or overseas 
military installation, e.g. Guam, Okinawa, potentially contaminated by 
toxic substances;
    <bullet>  A national Center for the Treatment and Research of 
Health Conditions suffered by the Progeny of Veterans Exposed to Toxic 
Substances during their military service shall be established;
    <bullet>  An Advisory Committee to oversee the work done at the 
Center, and to advise the Secretaries of Health and Human Services and 
Veterans Affairs on issues related to the research, care, and treatment 
provided for in this bill, as well as on the benefits and services 
needed by the progeny of veterans exposed to toxic substances during 
their military service, also shall be established;
    <bullet>  An Office of Extramural Research, the focus of which 
shall be on environmental studies of toxic exposures and other hazards 
experienced by troops during their service in the United States 
military, shall be established, and funded on its own dedicated budget 
line, by the Secretary of Veterans Affairs;
    <bullet>  An Extramural Research Advisory Council to advise the 
Secretary of Veterans Affairs and the Director of Extramural Research 
on guidelines for research proposals and to weigh the evidence of 
various epidemiological studies on the health effects of toxic 
exposures on veterans and their progeny, shall also be established; and
    <bullet>  A coordinated, ongoing, national outreach and education 
campaign using such means as direct mail, on-line media, social media, 
and traditional media to communicate information about such exposures 
and health conditions, as well as the existence of the National Center 
to all eligible U.S military veterans and their families affected by 
incidents of toxic exposures, shall be conducted.
Extending the Relationship with the IOM
    Since 1996, the Institute of Medicine, the IOM, a component entity 
of the National Academy of Sciences, has been producing, under contract 
with the VA, biennial editions of Veterans and Agent Orange. The next 
one, representing its reviews of the scientific literature in 2012, 
will be the last, unless Congress renews its mandate to the VA to 
continue its relationship with the IOM to empanel experts every two 
years to review the literature, conduct hearings across the country, 
and issue the Update.
    Although the Update does not make recommendations, its findings of 
degrees of association are crucial in helping the VA evaluate a health 
condition to determine whether or not it should be considered as a 
presumptive for a service-connected disability rating. It is critical 
that Congress pass legislation to direct the VA to renew its contract 
with the IOM for at least another decade. Just as more research must be 
conducted, so must such research be evaluated.
Fixing the VA

Oversight and Accountability
    As we did for the 112th Congress, we again want to make it clear: 
Funding is not the primary issue when it comes to the ever-ballooning 
backlog of claims and appeals encountered by the beleaguered Veterans 
Benefits Administration. We will continue to work with the VBA to 
revamp the overburdened compensation and pension system, integrating 
the fruits of several IT pilot projects that have shown exceptional 
promise, along with competency-based testing of service representatives 
and VA adjudicators and a still-evolving array of necessary reforms.
    Because VA ``challenge training'' for new raters has shown 
promising gains in efficiency and quality, the VA would be wise to 
quickly deploy this model to all staff. This should ensure that all are 
up to date on the current rules and initiatives. Also, the ``lane'' 
model has shown efficiency gains but is not being deployed for all 
claims. Why not? This model needs to be expanded to include non-rating 
claims such as adding and removing dependents, to reduce the number of 
overpayment cases.
    Yet for reforms to truly succeed, there must be far better 
oversight of and by managers who are paid very well to administer a 
system that is all too obviously not functioning as it ought to. 
Management audits and assessments must be a component of annual 
performance reviews that are clear, specific, and success-oriented. 
There must also be focused and hard-hitting oversight by the Veterans' 
Affairs Committees in both the House and Senate, as well as in the 
Appropriations and Budget Committees. We have been pleased with the 
progress under the leadership of Under Secretary for Benefits Allison 
Hickey. She has been a breath of fresh air. Still her greatest 
challenge is to upend an entrenched corporate culture long resistant to 
change. She has also been daunted by certain persistent IT problems.
    On a parallel track, there needs to be real accountability in the 
management of the Veterans Health Administration. With Advance 
Appropriations now law for a trio of the VHA's medical accounts, there 
can be no excuses as to why a VA medical center fails to hire the 
nurses it needs as it enters a new fiscal year, or does not purchase 
the new MRI machine that its radiologists insist they must have, or 
give the go-ahead for several of the small yet pivotal construction 
projects that in the past would have been put off pending passage of 
the budget for the next fiscal year.
    VVA maintains that measures to ensure accountability must be 
essential elements in funding the VA. Key to achieving this is to 
significantly overhaul the system of bonuses for Senior Executive Staff 
to reward only those who have taken that extra measure, who have walked 
that extra mile, to ensure that what they are responsible for has been 
done well, on time and within budget; and for those who innovate and 
improve the systems and projects under their auspices. Bonuses should 
be withheld from those who just do their job - that is, after all, why 
they are handsomely paid. Those who perform poorly need to be removed 
or reassigned; and any manager or supervisor who gets caught lying to a 
veteran, to their supervisor, or to a Member of Congress should be 
dismissed. And bonuses should be given with a caveat attached: If you 
accept the bonus, you promise to stay with the VA for a given period of 
time, and not just take the money and run.

Outreach
    There are approximately 22 million veterans in the United States 
today. Two-thirds of them never interact with the VA at all. They have, 
or have had, jobs. They go to their own private physicians when they 
need to. Or they may be uninsured. They have no cause to venture into a 
VA medical center or regional office. Most are ignorant of the array of 
benefits to which they have earned by virtue of their military service. 
Even the one-third of vets who do interact with the VA's healthcare 
system and/or its benefits administration are not familiar with much of 
what is available to them, to their families and their survivors.
    Why? Because the VA has historically done a shoddy job at best of 
reaching out to America's veterans. And even if a vet goes to a VA 
medical center or community-based outreach center to be treated for a 
combat-related wound or injury, more often than not s/he will not be 
given information directing them to apply for disability compensation 
benefits through the Veterans Benefits Administration, whose computer 
system does not synch with that of the Veterans Health Administration. 
And still the VA and DoD keep promulgating the fantasy of a ``seamless 
transition.''
    The VA has an ethical obligation, as well as a legal 
responsibility, to inform all veterans and their families not only of 
the benefits to which they are entitled, but also about any possible 
long-term health problems they may experience that might derive from 
when and where they served.
    It is only in the past few years, however, that the VA has begun to 
take its responsibility to reach out seriously. They are customizing 
benefits handbooks for every living veteran. They are opting for paid 
advertising in select markets to reach targeted populations of 
veterans. They are using social media to reach our youngest generation 
of vets. They are attempting, at long last, to get out helpful 
messages, e.g., ``If you served, you deserve.''
    While Secretary Shinseki and his team are to be applauded for their 
initiatives in this realm, their efforts still seem scattershot and 
limited. We have yet to see a unified, strategic communications plan, 
one that integrates TV and radio ads, billboards, ads and feature 
stories in select popular publications, and social media. Taken 
together, these can have a dramatic impact, not only in informing 
veterans - and perhaps most importantly, their families - about issues 
and benefits, but also in reassuring the community of veterans that the 
VA really is living up to its founding principle, taken from Lincoln: 
To care for him who shall have borne the battle, and for his widow, and 
his orphan.

Extending the Caregivers Act
    VVA supported legislation to assist family caregivers of 
catastrophically wounded or injured warriors after 9/11. Just as we 
saved badly - desperately, horribly - wounded troops during our war, 
troops who would have died during World War II or Korea, thanks to the 
bravery and the tenacity of our medevac crews and military medical 
personnel at evacuation hospitals, this new generation of medevac crews 
and medical personnel have been saving catastrophically wounded 
warriors who would surely have died in Vietnam. Heart-rending testimony 
before congressional committees by some of these surviving veterans, 
and by their wives and mothers, moved Congress to pass the Caregivers 
and Veterans Omnibus Health Services Act of 2010 to assist family 
caregivers of catastrophically wounded or injured warriors after 9/11.
    There was a caveat in this legislation: that the VA Secretary is to 
report to Congress by May 2013 on how the caregiver program has been 
working, and what, in his judgment, might be the efficacy of extending 
the program to embrace family caregivers of veterans of Vietnam and 
Somalia and the first fight with Saddam Hussain in the Persian Gulf. 
When that report is completed and is delivered, will caregivers who 
have given up careers to spend their lives caring for a beloved brother 
or husband or father, mother or sister, whose wounds or injuries have 
required constant attention so that s/he could live in a home setting 
be pleased that they might receive some of the benefits of this 
legislation at long last? How many caregivers of Vietnam veterans will 
potentially be eligible to become part of the caregivers program? And 
who in Congress will step to the plate to correct what is very clearly 
a gross inequity?

Cleaning Up the CVE
    The VA's Center for Veterans' Entrepreneurship is supposed to 
ensure that a small business owner who claims to be a veteran, or a 
disabled veteran, really is what s/he claims to be, and is therefore 
eligible to bid as such on government contracts. Sounds like a 
righteous and proper function of a government agency, right? Well, 
right only in theory. The operation of the CVE has been charitably 
characterized as a ``mess'' that is causing thousands of veteran and 
service-disabled veteran small business owners to be deprived of 
millions of dollars in contracting opportunities after having been 
given a bureaucratic runaround and then been told that they do not 
qualify as a legitimate veteran or disabled veteran-owned entity.
    It has become apparent that either the regulations that govern the 
operation of the CVE are fundamentally flawed or that the adjudication 
process is out of control and not being properly managed. 
Verifications, which had a denial rate of nearly 60 percent until VVA, 
the American Legion, VetForce, and others began exposing the absurdity 
of denying verification because of minor technicalities or unmistakable 
errors by the VA itself, had at last count a denial rate hovering at 
roughly 27 percent.
    VVA seeks a verification process that is reasonable but not 
intrusive. We value the integrity of this program. We want to ensure 
that no wannabe crooks get verified at the expense of real disabled 
veterans. If there are crooks already in the program, they need to be 
identified, apprehended, prosecuted, fined, and if a judge determines 
justice demands it, be sentenced to time in prison. Now, though, crooks 
are not being caught, but legitimate veteran-owned businesses are in 
fact being destroyed.

Clearing Up the `Backlog'
    It is unconscionable for a claim for disability compensation to go 
unadjudicated for two years. How about if it languishes in the great 
maw of the VBA for four years? Or even longer? Far too often, claims 
with this profile are the rule, not the exception. With an ever-
increasing caseload - raters handled one million-plus claims in 2011 - 
the only way the VBA will be able to deal with the volume of new claims 
and make even a dent in the burgeoning backlog is to put into play 
those IT pilot projects that have shown that they are viable. It's time 
to treat the backlog as what it is: a crisis, and attack it at its 
roots.
    The VBA can start by mandating that all claims without resolution 
after four years get immediate attention if they are in the purview of 
the VA. If they are in the courts, VA managers should work with the 
administrative judge to place them at the top of the docket whenever 
possible.
    The VBA should do what it knows it ought to have been doing in the 
first place: triaging all new claims. Relatively simple claims ought to 
go through quickly, e.g., there is no reason why a simple claim for 
tinnitus cannot be fast-tracked within two or three months. Claims for 
the obvious, e.g., the traumatic amputation of a limb, or blindness, 
also could receive an initial adjudication for the major wound; 
associated or secondary conditions can be rated later.
    Though the VA does have a ``duty to assist,'' it should be the 
responsibility of the county or VSO service representative to deliver a 
substantially developed claim. If there are seven elements to a claim, 
and only four have been properly developed, perhaps part of the VA's 
duty to assist ought to be to suggest that the claim should be for only 
the four developed parts, with a subsequent claim for the other three 
when they can be further and more fully developed.
    The manner in which VBA managers ``grade'' their raters needs to be 
re-examined, inasmuch as the current system puts a premium on volume, 
on an increase in speed at the cost of doing it right the first time. 
The result? An unacceptably high number of remands when unhappy 
veterans and their advocates appeal their denials, or the amount of 
their awards. What's the answer? Training not only for new raters - and 
veterans' benefits representatives - but for all VBA employees involved 
in the benefits side of the administration.
    And the VA can do something else: They can better define 
``backlog.'' With a simple graph, or set of graphs, on their web site, 
that illustrate A] the total number of the `backlog' divided into 
segments, e.g., claims ten years or more; five to ten years; three to 
five years; 18 months to three years; nine to 18 months; six to nine 
months; three to six months; under three months; B] the number from 
each of these categories that have been adjudicated; C] the number of 
cases appealed; with an explanation as to why cases are appealed.
    The Veterans Benefits Administration has managed to cultivate a 
reputation as the veterans' adversary. Under Secretary Hickey has a 
long slog to at least bend the corporate culture she - and Secretary 
Shinseki - have inherited for veterans to feel that the VBA just might 
be their advocate.

Other Priorities and Initiatives
    VVA will work to address other specific issues of concern to 
veterans and our families that warrant the attention of Congress and 
the American people. What follows are our most significant and, we 
believe, potentially achievable legislative priorities and policy 
initiatives in these areas.

PTSD and Substance Abuse
    <bullet>  VVA shall work with Congress to take whatever measures 
are deemed necessary to ensure accountability for the organizational 
capacity and funding for the accurate diagnoses and evidence-based 
treatments of the neuro-psychiatric wounds of war, particularly for 
Post-traumatic Stress Disorder (PTSD), substance abuse, Traumatic Brain 
Injury (TBI), and suicide risk.
    <bullet>  VVA shall work with Congress to ensure that the 
Departments of Defense and Veterans Affairs develop, fund, and 
implement evidence-based, integrated psychosocial mental health 
programs, substance abuse recovery treatment programs, and suicide risk 
assessment programs for all veterans and their families, for active-
duty troops and their families, and for Reservists and members of the 
National Guard who have seen service in a combat zone.
    <bullet>  VVA shall work with Congress to ensure that DoD corrects 
all wrongful diagnoses of ``personality disorder,'' ``adjustment 
disorder,'' and ``readjustment disorder'' discharges of its men and 
women so that all veterans found to have been inappropriately diagnosed 
and discharged are correctly diagnosed and accorded access to the 
benefits and care that they deserve and to which they should be 
entitled.

Veterans Health Care
    <bullet>  VVA shall insist that VA researchers focus on studies 
that delve into the wounds, maladies, injuries, and traumas of military 
service and war, with specific research into the health issues unique 
to all U.S. military operations and troop deployments; and shall 
continue to monitor the progress of the National Vietnam Veterans 
Longitudinal Study (NVVLS) to ensure that is conducted to completion 
without any needless delay, and that it will in fact be a true 
longitudinal study and accounting of the physical and mental health and 
overall well-being of Vietnam veterans, according to the protocols 
established under Public Law 106-419.
    <bullet>  VVA shall encourage Congress to mandate the VA to change 
that department's overly restrictive and secretive process for adding, 
or not adding, pharmaceutical treatments and drugs to its prescription 
drug formulary and to bring it into line with the more transparent and 
expansive formulary process used by the Department of Defense.
    <bullet>  VVA shall continue to press the VA to research and 
implement long-term care and wellness options for our country's aging 
veteran cohort, a need that is only going to increase over the next 
decade.

Minority Veterans
    <bullet>  VVA urges Congress to investigate if our nation's 
minority veterans are given lesser treatment for health conditions at 
VA medical centers and community-based outpatient clinics (CBOCs).
    <bullet>  VVA urges Congress to mandate that the VA provide 
brochures and other information for Spanish-speaking veterans, 
particularly those residing in Puerto Rico, inasmuch as many male 
veterans are convinced to seek VA medical assistance by members of 
their family, who may speak Spanish exclusively.

Agent Orange/Dioxin & Other Toxic Substances
    <bullet>  VVA calls on Congress and the President to take steps to 
declassify all documents from the years of the Vietnam War, including 
memos between agencies, dealing with Agent Orange/dioxin and make them 
public - now, almost 50 years since our government sprayed some 20 
million gallons of extraordinarily toxic compounds over five million 
acres of the former South Vietnam.
    <bullet>  VVA shall continue to support legislative efforts and 
other initiatives to achieve justice for naval personnel serving aboard 
ships plying the waters of Yankee and Dixie Stations in the South China 
Sea and the Gulf of Tonkin by getting the VA to recognize that they are 
deserving of the same health and other benefits as in-country ``boots-
on-the-ground'' veterans.
    <bullet>  VVA shall continue to advocate on behalf of the veterans 
of the crews who flew C-123 transports contaminated by the remains of 
the barrels of Agent Orange they once ferried into and out of Vietnam 
and are now suffering some of the same peculiar health ills as are in-
country Vietnam veterans.
    <bullet>  VVA shall request that Congress investigate why the VA 
has ceased providing custodial care and/or non-medical case management 
service for Agent Orange children afflicted with spina bifida and then 
join us in pushing the VA to provide these vitally needed services to 
these now adult children - innocent victims of a parent's military 
service.

Women Veterans
    <bullet>  VVA shall seek to ensure appropriate oversight and 
accountability on all VA medical center and VISN compliance with the 
performance measures defined in the VA's 2012 Handbook on Women 
Veterans, and that this compliance be made a performance measure at all 
VISNs and VAMCs.
    <bullet>  VVA shall pursue legislation to enable the VA to allow 
members of the National Guard and Reserve forces who experience 
military sexual trauma (MST) while on drilling and battle assemblies 
and during annual training to receive, without cost to them, MST-
related care from VA medical facilities.
    <bullet>  VVA recommends that the Under Secretary for Health review 
and reexamine the existing VHA policy pertaining to the authorization 
of travel for veterans seeking MST- related specialized inpatient and/
or residential treatment programs outside the facilities where they are 
enrolled and provide travel funding for these veterans.
    <bullet>  VVA will pursue legislation that would reassign the 
complaints of MST by a service member to be addressed outside her or 
his immediate chain of command.

Homeless Veterans
    <bullet>  VVA shall request legislation revising the VA's Homeless 
Grant and Per Diem funding from a reimbursement for expenses, based on 
the previous year's audited expenses to a prospective payment system 
based on a proposed budget for the annual program expenses, a change 
that is vitally needed if community-based organizations that deliver 
the majority of these services are to operate effectively.
    <bullet>  VVA shall request legislation establishing Supportive 
Services Assistance Grants for VA Homeless Grant and Per Diem Service 
Center Grant awardees and permanent authorization of the VA Homeless 
Grant and Per Diem Special Needs Grants Program.
    <bullet>  VVA shall seek legislation to amend the eligibility 
criteria for veterans enrolled in the Department of Labor's Homeless 
Veterans Reintegration Program (HVRP) so those veterans entering into 
``housing first'' would be able to access this training for a period of 
up to 12 months after placement into housing.

Incarcerated Veterans
    <bullet>  VVA shall continue working with Congress to ensure that 
veterans encountering the justice system are in fact identified as 
veterans, assessed for symptoms associated with PTSD and/or TBI trauma, 
and, where appropriate, are provided with alternative diversionary 
treatment services.
    <bullet>  VVA shall continue to encourage Congress to ensure that 
the VA provides benefits to veterans who are temporarily confined in 
jail or are incarcerated in prison.
    <bullet>  VVA shall also continue to work with Congress to address 
re-entry strategies and support transitional services for incarcerated 
veterans.

Compensation & Pension
    <bullet>  VVA shall seek legislation to secure a pension for Gold 
Star parents, and shall continue to seek the permanent prohibition of 
offsets of Survivors' Benefit Plan (known as SBP) and Dependency and 
Indemnity Compensation (DIC) for the survivors of service members who 
die while still in military service.
    <bullet>  Absent the permanent prohibition of these offsets, VA 
urges Congress to press the VA to develop guidelines that will allow 
these claims to be processed within 30 days of a veteran's death, while 
ancillary benefits due a claimant can be deferred and processed at a 
later date.
    <bullet>  VVA urges Congress to continue to press the VA to quickly 
improve and implement its paperless claims processing system in all 
Regional Offices.
    <bullet>  To promote uniformity in claims decisions, VVA shall seek 
a change in current policy which would mandate that VA staff, VSO and 
county veterans' service representatives, and other stakeholders 
collaborate on developing uniform training materials, programs, and 
competency-based re-certification exams every three years for service 
officers.
    <bullet>  VVA shall continue to ``encourage'' the VBA to direct 
raters to follow the ``best practices'' manual in determining the 
degree of disability and percentage of compensation for veterans 
afflicted with PTSD and other mental health disorders.

Economic Opportunity
    <bullet>  Congress needs to continue to monitor the VA's hiring 
policies to ensure that more veterans are hired by the VA to fill key 
decision-making positions; hence, VVA advocates for a 50/50 ratio 
within the next 10 years.
    <bullet>  VVA shall work to ensure that there are programs in 
effect to ensure that veterans returning from deployments overseas are 
accorded Veterans' Preference when applying for government jobs, and 
are given every advantage when seeking employment in private industry 
or in seeking to set up their own business; in fact, the VA and the 
OPM, the Office of Personnel Management, should be required to recruit 
veterans even before they separate from the service, especially from 
in-demand occupations such as IT and the healing arts.
    <bullet>  Congress needs to act to ensure that DoD and the VA 
really do work in concert to ensure that TAP, the Transition Assistance 
Program, actually assists separating and/or demobilized service members 
leave the military knowing most of their options for employment, 
education, and entrepreneurship, and where they can seek additional 
information; and it is imperative that DoD, the VA, the Department of 
Labor, and other federal agencies involve the veterans service 
organizations and military service organizations as integral 
facilitators of this transition process.
    <bullet>  VVA shall work with Congress and with the DOL to 
significantly reform VETS, the Veterans Employment & Training Service 
program that is run by the states and funded through the U.S. 
Department of Labor, so that it actually matches veterans with jobs.
    <bullet>  In a related matter, the Office of Federal Contract 
Compliance (OFCCP), and the Vietnam Veterans Readjustment Act (VEVRA) , 
which are charged with helping veterans get good jobs with federal 
contractors, must either be reformed wholesale or eliminated, as they 
are not accomplishing helping any group get jobs with contractors and 
are doing more damage than good as they manage to anger employers by 
imposing arbitrary and capricious ``assessments'' on these employers 
that are nothing but unwarranted fines.

POW & MIA Accounting
    <bullet>  VVA shall continue to press for answers regarding the 314 
Americans still listed as killed in action, body not recovered, in Laos 
and the 54 similarly listed in Cambodia.
    <bullet>  Although Section 1082 of the 1998 Defense Authorization 
Act requires that the POW/MIA flag fly six days each year--on Armed 
Forces Day, Memorial Day, Flag Day, Independence Day, National POW/MIA 
Recognition Day, and Veterans Day--at specified government buildings 
and installations, and VVA members have been instrumental in enacting 
legislation that provides for the flag to be displayed at the state, 
county, and municipal level, VVA urges continued efforts to display 
this symbol of American service members still missing from every war in 
which we have taken up arms in defense of the freedoms we hold dear.

The Newest Veterans
    <bullet>  VVA shall continue to question the VA to ensure that they 
have adequate mental health personnel and services available to meet 
the demands of this newest generation of veterans, including Reservists 
and members of the National Guard, which is afflicted with mental 
health issues at the same or even greater rate as we were when we 
returned from ``our'' war.
    <bullet>  VVA shall continue to promulgate and support new public 
and private initiatives to create jobs for returning veterans, and to 
ensure that such supportive services as mentoring programs are integral 
elements in these initiatives.
    <bullet>  As VVA applauds the work of the Senate's HELP Committee 
to expose the egregious excesses of those for-profit institutions of 
higher learning that have filled their own coffers at the expense of 
the student veterans whose trust they have violated, VVA shall continue 
to work with members of Congress, the Administration, the Consumer 
Financial Protection Bureau, and any other entity that will expose the 
greed and shame of these institutions.

    Finally, VVA shall press the appropriate federal agencies as well 
as Congress to initiate and complete adjustments to the ``In Memory 
Plaque'' at The Wall here on the Mall in Washington, D.C., to include 
elevating and canting the stone tablet for easier reading; adding 
lighting for nocturnal viewing; and installing a brass plate that 
explains the meaning and history of the plaque, which acknowledges 
those who have perished in the years after the Vietnam War from causes 
related to their participation in the war.
    Again, on behalf of our membership, we thank you for the 
opportunity to present VVA's legislative agenda and policy initiatives 
for the 113th Congress, and we thank all of you for the work you are 
doing on behalf of our veterans and our families.

                                 <F-dash>
     Prepared Statement of Rear Admiral W. Clyde Marsh, USN Retired

                              INTRODUCTION

    Mr. Chairman and distinguished members of the committee, my name is 
Clyde Marsh, Director of the Alabama Department of Veterans Affairs and 
President of the National Association of State Directors of Veterans 
Affairs (NASDVA). I am honored to present the views of the State 
Directors of Veterans Affairs for all fifty states, the District of 
Columbia, and five territories: American Samoa, Guam, Northern Mariana 
Islands, Puerto Rico and the Virgin Islands. Here with me today are Les 
Beavers - Kentucky, past NASDVA President, and State Directors, Randy 
Reeves - Mississippi, Many-Bears Grinder - Tennessee, Lonnie Wangen - 
North Dakota and Matthew Cary - District of Columbia.
    Nationally, we are the second largest provider of services to 
veterans and our roles continue to grow. Collectively, states 
contribute more than $6 billion each year in support of our nation's 
veterans and their families even in the face of constrained budgets. 
Our duties include honoring and working with all veterans and their 
family members and the various veterans' organizations both within our 
states and nationally.
    We applaud the sea change at the U.S. Department of Veterans 
Affairs (USDVA) in recognizing the importance of State Departments of 
Veterans Affairs (SDVA) and we have a formal ``partnership'' with USDVA 
through a Memorandum of Understanding (MOU) with Secretary Shinseki 
signed in February 2012. The MOU pledges the two organizations to 
maintain effective communications, an exchange of ideas and 
information, identification of emerging requirements, and continuous 
reevaluation of existing veterans' programs to meet today's needs.
    As governmental agencies, State Departments of Veterans Affairs are 
tasked by our respective Governors, State Boards and/or Commissions 
with the responsibility to address the needs of our veterans 
irrespective of age, gender, era of service, military branch or 
circumstance of service. On a daily basis, State Directors and their 
staffs are confronted with unique situations in caring for all veterans 
and their families, which often needs to be addressed in an urgent 
manner. Delivery of meaningful services and support is often best 
coordinated at the local level. Collectively our state offices provide 
coverage for veterans throughout the country, District of Columbia and 
the territories.

                             FUNDING FOR VA

    NASDVA appreciates the efforts of the Administration and Congress 
to improve overall funding for health care, cemetery operations, 
homeless veterans programs, community clinics, and claims processing. 
We are serving a new generation of veterans from a decade of war who 
must receive medical care, establishment of benefits and needed 
assistance transitioning to civilian life after their dedicated 
service. We support the $140B budget proposal for the Department of 
Veterans Affairs for FY2014, which includes $64B in discretionary 
funds, mostly for medical care, and $76B for mandatory funds, mostly 
for disability compensation and pensions.
    The full funding by Congress will provide the resources to deliver 
services for the surge of newly discharged veterans as a result of 
troop reductions and continue to address VA's continued three major 
areas of emphasis: overall access to VA where VA should be the provider 
of choice for veterans; eliminate the backlog in claims processing; and 
the stated goal by Secretary Shinseki of eliminating homelessness among 
veterans. Another ongoing challenge is to meet the critical demand for 
mental health services which needs continued funding and focus, 
particularly in light of the Traumatic Brian Injury (TBI) and Post 
Traumatic Stress Disorder (PTSD) injuries from Iraq and Afghanistan. 
Likewise, there should be increased funding to veterans' healthcare in 
rural areas and employment opportunities for returning veterans.

                        OUTREACH AND TRANSITION

    NASDVA strongly supports continued efforts to reach out to 
veterans. We believe all veterans, regardless of where they reside, 
should have equal access to federal and state benefits and services and 
that federal and state governments must collaborate to achieve this 
goal nationally. Many areas of the country are still underserved due to 
veterans' lack of information and awareness of their benefits. This 
directly impacts their access to VA services. The USDVA and SDVA must 
continue to work together to reduce this inequity by reaching out to 
veterans regarding their earned benefits. NASDVA urges implementation 
of a grant program that would allow VA to partner with the states to 
perform outreach at the local level.
    Comprehensive databases that have retrievable data elements from 
the service members' records can provide the capability to target 
specific segments of the veteran population. This capability would 
allow for outreach to meet different categories of veterans e.g. war 
era, geographic exposure, etc. and also to connect with veterans with 
special needs, illnesses, and disabilities e.g. Agent Orange, burn pit 
exposure, and radiation. We need funding to create pilot programs for 
development of such detailed state databases.
    We commend VA for their commitment to improve responsive and 
efficient delivery of benefits and services to returning Iraq and 
Afghanistan combat veterans. They are the benefactors of better 
awareness of available benefits for themselves and their families and 
the improved process for receiving them. We agree that DoD should be 
responsible for the physical examination for fitness to serve and VA 
should be responsible for determining the disability rating. Likewise, 
steps should be taken to make disability processing less confusing, 
eliminate payment inequities, and provide a foundation with appropriate 
incentives for injured veterans to return to a productive life.
    The joint DoD/VA Integrated Disability Evaluation System (IDES) 
pilot should be further expanded. We support the efforts of Congress to 
have medical advocates to help wounded warriors mitigate the confusing 
array of paperwork and procedures. SDVA support the collaborative 
efforts being taken among federal agencies to improve the timeliness, 
ease of application, and delivery of services and benefits, and 
strongly encourage the VA and DoD to use the states to assist them in 
these efforts. DoD should develop a formal program that would provide 
SDVA with the names of returning service members in order for states to 
connect veterans to all federal and state benefits and services.
    NASDVA supports the recommendations of the Veterans Disability 
Benefits Commission to streamline the delivery of disability benefits 
by updating the VA Rating Schedule, realigning the DoD/VA process for 
rating disabilities, and developing and implementing new criteria 
specific to rating Post-Traumatic Stress Disorder (PTSD).
    State Directors have clearly witnessed how employment is essential 
to a successful transition from uniformed service to civilian status. 
Future legislation must preserve the Veterans Employment and Training 
Service (VETS) state grants program. The states need the flexibility to 
determine how best to integrate the Disabled Veteran Outreach Program 
Specialists/Local Veterans Employment Representatives (DVOP/LVER) into 
their state employment service delivery systems. The move of the VETS 
program in Texas to the Texas Veterans Commission has been highly 
successful and serves as a good example. We believe DVOP/LVER personnel 
are being under-utilized in their ability to assist veterans and we 
recommend Congress and DOL allow DVOP/LVER staff to work with the SDVA 
offices to offer veterans benefit information in addition to the 
employment and training duties. We strongly believe that LVERs and 
DVOPs should not only provide employment and reemployment assistance 
and also make appropriate referrals for veterans to receive benefits 
counseling, education and healthcare information.
    We commend the Administration's renewed emphasis on hiring veterans 
for federal employment and both DoL and DoD need to continue to promote 
awareness of the provisions and benefits under the Uniformed Services 
Employment and Re-employment Rights Act (USERRA).

               VETERANS HEALTHCARE BENEFITS AND SERVICES

    State Directors actively support increasing veterans' access to VA 
Healthcare. This involves being engaged with the VA Medical Centers on 
establishing and locating additional Community-Based Outpatient Clinics 
(CBOC) including Tribal Reservations with mental health services, 
expansion of Vet Centers, the deployment of mobile health clinics, and 
the use of tele-health services where appropriate. We applaud the 
efforts by VA to address the particular issue of healthcare for women 
veterans, military sexual trauma, and veterans residing in rural areas. 
Future healthcare funding is crucial to expand outreach and access to 
include tele-health, tele-home health and tele-medicine. Likewise, we 
support VA contracting out some specialty care to private sector 
facilities where access for the veteran is difficult.
    VA Research and Development needs to focus on enhancing the long-
term health and well-being of the veteran population particularly the 
conditions such as Gulf War Syndrome, PTSD, and the effects of TBI. 
Attention must still be given to the continued funding support of the 
large capital projects identified in VA's Strategic Capital Investment 
Plan (SCIP) while maintaining and addressing the backlog in O&M needs 
in VHA's large and aging infrastructure.
    We support initiatives to ensure that all of our wounded warriors 
who suffer from TBI and PTSD have access to the most advanced and 
current treatment options available regardless of their military 
status. There should be expanded screening for PTSD among all combat 
veterans. We share the concern about the mental health of service 
personnel, especially the number of suicides and long-term effects of 
PTSD. We appreciate the proactive steps such as the suicide hotline and 
addressing the underlying causes for suicide; however, more still needs 
to be done since the suicide rates are high and exceed even current 
combat causalities.
    NASDVA recommends an in-depth examination of long-term care and 
mental health services to include gap analysis clearly identifying 
where services are lacking. Any study should include consultation with 
SDVA.

                          STATE VETERANS HOMES

    The State Home Grant and Per Diem Program is the largest and most 
important partnership between the SDVA and USDVA. State Veterans Homes 
(SVH) are a critical component of long-term healthcare for veterans and 
a model of cost-efficient partnership between federal and state 
governments. SVH are the largest provider of long-term care to 
America's veterans providing a vital service to elderly and disabled 
veterans with skilled nursing, domiciliary, and adult-day health care 
services. There are 145 operational state veterans' homes in 50 states 
and the Commonwealth of Puerto Rico. In fact, state homes now provide 
52 percent of all VA authorized long-term care with over 31,000 beds. 
World War II, Korean War and now the Vietnam veterans are rapidly aging 
out. With over 1.4 million veterans now over the age of 85, this 
partnership is critical in meeting the individual veterans' needs for 
nursing care.
    NASDVA and the National Association of State Veteran Homes (NASVH) 
have actively advocated for the principle that veterans in our homes 
are entitled to the same level of support from VA as veterans placed in 
VA community contract nursing homes. SVH's sole focus is on veterans 
and providing them high quality of care, which makes it the best choice 
and most cost effective. Both national associations have been engaged 
with Congress to demonstrate program needs and level of funding 
support. We have maintained that the benefit is to the veteran, 
regardless of where they choose to receive their care.
    NASDVA and its members sincerely appreciate the support and close 
coordination of Congress and specifically, the Veterans Affairs 
Committees and staff, in the successful implementation (in less than 
180 days) of PL 112-154 (State Veterans Home Per Diem for 70% and S/C 
Veterans) and the resultant Interim Final Rule, RIN 2900-A057, that 
took effect on February 2, 2013. The coordination and cooperation on 
this issue between Congress, NASDVA and USDVA will benefit our veterans 
for many years to come. As the Final Rule process goes forward, there 
is still work to be done. We ask your continued support in ensuring 
that veterans do not forfeit (under the final rule) any eligibility for 
VA benefits and programs for services, prosthetic devices and specialty 
care that are not routinely provided at the Nursing Home Care level. 
Additionally, we have addressed (through the comment process with 
USDVA) the issues of reimbursement for extraordinarily high drug costs 
and clarification of circumstances for reimbursement of physicians' 
services for 70% program veterans in our State Veterans Nursing Homes. 
Your continued support in this process is key to the program's 
continued success and the future care of our veterans.
    Congress should appropriate sufficient funding to keep the existing 
backlog of projects in the State Extended Care Facilities Construction 
Grant Program at a manageable level to assure life safety upgrades and 
new construction. In order to keep the priority group 1 list of 74 
projects ($257M) from growing to further unacceptable levels, 
sufficient funding is essential for the SVH Construction Grant and Per 
Diem Program of at least $100M in lieu of the $85M requested.

                       VETERANS BENEFITS SERVICES

    NASDVA recommends a greater role for SDVA in the overall effort to 
manage and administer claims processing, regardless of whether the 
state uses state employees, nationally chartered veterans service 
organizations (VSO) and/or county veterans service officers (CVSO). 
Collectively, we have the capacity and capability to assist the 
Veterans Benefit Administration (VBA). Additionally, a collaborative 
effort should take place on the establishment of standards for 
training, testing, and accrediting the CVSO to include continuing 
education and performance standards. We can support VA in their ``duty 
to assist'' without diminishing our role as the veterans' advocate.
    Access to VBA data systems and uniform paperless claims software 
would enhance service officer integration in the delivery of benefits 
services to veterans. NASDVA applauds and strongly supports VBA's 
development of the electronic claims processing system (VBMS) and its 
current deployment at 20 stations and for all 56 stations by end of 
2013. This major program will directly address the concerns for the 
claims backlog. NASDVA fully supports VBA's transformation plan to 
address the claims backlog in a systemic way and for the long term. 
Using a digits-to-digits approach will further the paperless process 
capabilities of VA by creating a data exchange for claims assimilation 
directly from State Service Officers, VSOs and VA. This will allow 
claims with supporting documents to be submitted digitally, enabling 
the claim to be automatically established and available to be worked.
    Several states have already developed their own paperless claims 
processing systems. In an effort to support VBA's design, NASDVA has 
formed an IT Task Force of five states (VA, CA, KY, SD, and UT) to work 
directly with VBA on integration of state systems with VBMS.
    Each state strives to fulfill the mission of identifying and 
connecting veterans to their benefits. Several states are developing a 
claims management database for their veteran population, which includes 
a scanned image of the DD 214s.
    We continue to be concerned that the census does not count veterans 
or disabled veterans other than through the Americas Community Survey, 
which only samples ten percent of the population and is not a hard 
count. We urge the Congress to mandate counting of veterans in the next 
census.
    Nineteen SDVAs have direct responsibility of the State Approving 
Agency (SAA) program. In 2006, the SAAs secured a mandatory funding 
model to ensure their programs would have sufficient funding each year. 
With the important passage of the Post-9/11 GI Bill, the SAAs' mission 
expanded with more compliance requirements but no additional resources. 
Without adequate resources, SAAs report that it is harder to 
sufficiently monitor and assess all academic programs under their 
purview. The SAAs are one of the only ways USDVA can make an informed 
decision on approval and disapproval of academic programs for the G.I. 
Bill. NASDVA recommends the funding structure commensurate with SAA's 
responsibility be reviewed.
    State Directors have been receiving strong opposition to the order 
of precedence for the new Distinguished Warfare Medal established by 
DoD. We are in agreement with the Veterans Service Organizations in 
support of the medal but that it should not be above the Bronze Star 
and/or Purple Heart.

                      BURIAL AND MEMORIAL BENEFITS

    The State Cemetery Grant Program is a complementary and integral 
part of National Cemetery Administration's (NCA) ability to provide 
burial services for veterans and their eligible family members, 
especially those living in rural areas. State, territory and tribal 
cemeteries expand burial access and support the NCA goal of providing 
burials to 94% of all veterans in a 75-mile radius by the end of 2013. 
There are currently 88 cemeteries located in 43 states and territories 
including tribal trust lands, Northern Mariana Islands, and Guam. This 
level of commitment will provide for over 31,000 interments in FY2013.
    We recommend that in the FY2014 budget proposal of $46M for the 
grant program be increased to at least $50M. This modest increase would 
help address the 95 grant applications that have been submitted for 
funding. Of the 95 applications, there are 70 projects where the states 
and the Pine Ridge Sioux tribal government have certified as meeting 
the matching architectural and engineering (A&E) funds, which will be 
reimbursed following grant award. They have already borne the costs 
associated with the acquisition of suitable land, which is not 
reimbursable. The current estimated value of the 70 projects is 
approximately $162.3M. The second tier of 25 applications, without 
matching A&E funds, brings the estimated total of all pending 
applications to $276.5M.
    The $50M would allow for timely progression and orderly development 
without creating a backlog of projects. With a lack of sufficient 
funding, even though a small increase over the budget submission will 
result in denying some veterans and eligible family members a final 
resting place and lasting memorial to commemorate their service to our 
nation.
    NASDVA appreciates the legislation that increased the plot 
allowance to $700 with subsequent adjustments based on the CPI. The 
plot allowance assists states to offset operational costs and achieve a 
high level of professional burial service as well as to gain and 
maintain standards of appearance commensurate with NCA National Shrine 
status.
    NASDVA supports the rural initiative by NCA for National Veteran 
Burial Grounds. It will allow NCA to reach underserved veterans in 
rural areas where the veteran population is less than 25,000 within a 
75-mile radius service area. Rural lots do not qualify for a national 
cemetery and the construction of a state cemetery is not likely. 
Initially, the VA plan will establish a national cemetery presence 
within public or private cemeteries in eight states: Idaho, Maine, 
Montana, Nevada, North Dakota, Utah, Wisconsin and Wyoming. NCA 
estimates an additional 136,000 veterans will have access to a burial 
option. NASDVA recommends that further analysis be conducted to 
determine if other states or territories could be affected by this new 
policy.
    Overall, NASDVA applauds NCA for their consistent high customer 
satisfaction ratings for the appearance of national cemeteries and the 
quality of service. And most importantly, NASDVA appreciates their 
collaborative partnership with states, territories and tribal 
governments.

                      HOMELESSNESS AMONG VETERANS

    NASDVA applauds the policy by the Secretary of Veterans Affairs for 
ending homelessness among veterans. States will continue to develop and 
support outreach programs that assist VA in this high priority effort, 
particularly in identifying those veterans that are homeless and 
programs to prevent homelessness. As partners with USDVA, we are 
focusing on addressing the multiple causes of veterans' homelessness 
e.g. medical issues (mental and physical), legal issues, limited job 
skills, and work history. We appreciate the increased funding for 
specialized homeless programs such as Homeless Providers Grant and Per 
Diem, Health Care for Homeless Veterans, Domiciliary Care for Homeless 
Veterans, and Compensated Work Therapy. It is vital to continue VA's 
partnership with community organizations to provide transitional 
housing and the VA/HUD partnership with public housing authorities to 
provide permanent housing for veterans and their families.
    We know that many stages of homelessness exist and likewise we know 
that many factors contribute to our nation's homelessness among 
veterans. Contributing factors are alcohol- drug abuse, mental health 
issues, PTSD, lack of jobs as well as the courts and corrections 
system. To eliminate chronic homelessness we must surround the problem 
and address the many root causes by providing the necessary mental 
health and drug treatment programs to include jobs and employment 
training. These collective programs must be adequately staffed and 
fully funded in the current and future budget. Another revolving door 
that appears to increase the rolls of homelessness among veterans is 
the burdened courts and corrections system.

                       VETERANS TREATMENT COURTS

    The States recognize an increase in justice-involved veterans, 
especially in the time shortly after discharge. Veterans are returning 
to a civilian world where unemployment is on the rise, financial 
institutions are failing, and families are torn apart. After discharge, 
many veterans suffer from severe mental and emotional problems that 
result in behaviors that are disruptive and often criminal in nature. 
To care for these veterans in a very specific way, States are 
establishing Veterans Treatment Courts (VTCs) to offer these veterans 
an opportunity at a second chance, as well as appropriate treatment and 
accountability.
    VTCs are specialty courts that provide diversionary programs for 
veterans who find themselves justice involved. In addition to the 
pretrial diversionary methods offered, veterans are also evaluated for 
Federal VA benefits to include substance abuse treatment and mental 
health wellness. This aspect cuts costs for local jurisdictions that 
traditionally are required to pay for this expensive, specialized care. 
The accountability element given by mentoring veterans makes the VTC a 
unique, successful program that rehabilitates veterans to the civilian 
world.
    Currently, the Bureau of Justice Assistance (BJA), in conjunction 
with the National Drug Court Institute (NDCI), offers orientation and 
training to jurisdictions interested in establishing VTCs. States can 
apply for these training opportunities through the veterans Treatment 
Court Planning Initiative (VTCPI), which sends groups to key VTCs to 
observe and learn. These training grants are limited and only a few 
groups can attend every year. The States respectfully request support 
for increased funding to the BJA so more jurisdictions can participate. 
Additionally, increased funding for multi-year grants to aid 
jurisdictions in the establishment and sustainment of VTCs is needed. 
More VTCs means more direct help for veterans.

                               CONCLUSION

    Mr. Chairman and distinguished members of the VA committees, we 
respect the important work that you are doing to improve support to 
veterans who answered the call to serve our great country. State 
Directors of Veterans Affairs remain dedicated to doing our part, but 
we urge you to remember the increasing financial challenge that states 
face, just as you address the fiscal challenges at the national level. 
I would like to emphasize again, that we are ``partners'' with federal 
VA in the delivery of services and care to our nation's patriots. State 
Directors are veterans' advocates and perform as congressional 
emissaries that help veterans receive support and essential benefits 
they have earned through their honorable service.
    Thank you for including NASDVA in these very important hearings.

                                 <F-dash>
                  Prepared Statement of MG Gus Hargett

    As President of the National Guard Association of the United 
States, I thank you for the honor of appearing before you today and for 
all that you are doing for our veterans
Background - Unique Citizen Service Member/Veteran
    The National Guard is unique among components of the Department of 
Defense in that it has the dual state and federal mission. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom or Operation Enduring Freedom , National Guard units are under 
the command and control of the President. However, upon release from 
active duty, members of the National Guard return to their states as 
both veterans and serving members of the Reserve Component but under 
the command and control of their governors. As members of a special 
branch of the Selected Reserves they train not just for their federal 
missions but for their potential state active duty missions such as 
fire fighting, flood control and assistance to civil authorities in a 
variety of possible disaster scenarios.
    While serving in their states, members are scattered geographically 
with their families as they hold jobs, own businesses, or pursue 
academic programs and participate actively in their communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their governor 
domestically or their President in distance parts of the globe as duty 
calls and to return to reintegrate within the same communities when 
their missions are accomplished.
    Military service in the National Guard is uniquely community based. 
But the culture of the National Guard remains little understood outside 
of its own circles. When the Department of Defense testifies before 
Congress stating its programmatic needs, it will likely recognize the 
indispensable role of the National Guard as a vital Operational Force 
in the Global War on Terror but it will say little about and seek less 
to redress the benefit disparities, training challenges and unmet 
medical readiness issues for National Guard members and their families. 
We continue to ask that these disparities be given a fresh look with 
the best interests of the National Guard members and their families in 
mind.
    NGAUS in concert with The Military Coalition has long sought 
legislation authorizing veteran status under Title 38 for National 
Guard and Reserve members of the Armed Forces who are entitled to a 
non-regular retirement under Chapter 1223 of 10 USC but were never 
called to title10 active service other than for training purposes 
during their careers - through no fault of their own.
    Many members of Congress may not know that a reservist can complete 
a full Guard or Reserve career but not earn the title of ``Veteran of 
the Armed Forces of the United States,'' unless the member has served 
on Title 10 active duty for other than training purposes.
    Drill training, annual training, and title 32 service responding to 
domestic natural disasters and defending our nation's airspace, borders 
and coastlines do not qualify for veteran status.
    Reserve- component members who served 20 years gave the government 
a blank check to send them anywhere in the world but through no fault 
of their own were never deployed or in some cases even allowed to be 
deployed.
    Yet, an active-duty member whose entire short- term enlistment tour 
is spent in less rigorous domestic assignments to domestic posts and 
bases on Title 10 status will fully qualify, not just for veterans 
status, but for all veterans' benefits. This disparity is unfair and 
must end.
    H.R. 679 would not bestow any benefits other than the honor of 
claiming veteran status for those who honorably served and sacrificed 
as career reserve component members but were never ordered to Title 10 
active service. They deserve nothing less than this recognition. 
Authorizing veteran status for career RC service would substantially 
boost the morale of the RC without a cost consequence.
    Opposition to this bill in the past has been grounded in a myth 
that passage would open the floodgates of new veteran benefits for this 
group. That is just not the case or even allowable under the law. H.R. 
679 explicitly guards against this possibility. Moreover, ``pay go'' 
laws in effect bar the default triggering of any new entitlements. It 
is time to move past the unfounded ``camel's nose under the tent'' fear 
that has held back this legislation.

    Correct a disproportionate denial rate for Reserve Component claims 
for disability benefit compensation by providing National Guard and 
Reserve veterans of the Global War on Terror with a presumption of 
service connection for certain injuries

    According to Veterans Administration statistics published in May 
2012, it is denying adjudicated disability benefit compensation claims 
for Reserve Component (RC) Global War on Terror at four times the rate 
of active duty GWOT veterans according to a published VA May 2012 
report.
    Years of neglect in the Office of the Secretary of Defense with the 
demobilization process for RC members returning home from GWOT 
deployment and the inadequate capturing of theater medical records for 
the RC have come home to roost.
    Area theater commands in Operation Iraqi Freedom and Operation 
Enduring Freedom did not establish a reliable method for preserving in 
-theater records of the RC. Congress heard testimony during the peak 
years of OIF in 2007 that some medically evacuated RC members sometimes 
returned stateside with medical records resting on their supine chests.
    Moreover, too many members of the Guard and Reserve have been 
allowed to slip through the medical cracks at demobilization stations 
resulting in widespread under identification of service connected 
injuries at that critical separation point.
    A variety of reasons were at play to include inadequate screening 
by medical personnel at the demobilization site; the reluctance of 
returning members to report disabling injuries at distant 
demobilization sites to avoid the risk of further separations from home 
after lengthy deployments; or simply the late onset of symptoms after 
discharge from exposures to chemical hazards, traumatic brain injury or 
post traumatic stress disorder.
    The six most frequent injuries for which the VA awards disability 
benefit compensation are tinnitus; back or cervical strain; PTSD; leg 
flexion limitations; degenerative spinal arthritis; of the spine; and 
migraine. Service connection presumptions for these injuries presented 
for RC GWOT veterans would mitigate the inequity.
    The issues of veterans' unemployment and mental health maintenance 
cannot be separated. Before veterans can maintain gainful employment in 
a challenging job environment, they must be able to maintain a healthy 
mental status and establish supportive social networks.
    In 2007, the Rand Corporation published a study titled, ``The 
Invisible wounds of War.'' It found that at the time 300,000 veterans 
of Operation Iraqi Freedom and Operation Enduring Freedom suffered from 
either PTSD or major depression. This number can only have grown after 
five more years of war. The harmful effects of these untreated 
invisible wounds on our veterans hinder their ability to reintegrate 
with their families and communities, work productively, and to live 
independently and peacefully.
    Rand recommended that a network of local, state, and federal 
resources centered at the community level be available to deliver 
evidence-based care to veterans whenever and wherever they are located. 
Veterans must have the ability to utilize trained and certified 
services in their communities. In addition to training providers, the 
VA must educate veterans and their families on how to recognize the 
signs of behavioral illness and how and where to obtain treatment.
    VA and Vet Center facilities are often located hundreds of miles 
from our National Guard veterans living in rural areas. Requiring a 
veteran, once employed, to drive hundreds of miles to obtain care at a 
VA facility necessitates the veteran taking time off from work for 
reasons likely difficult to explain to an employer. The VA needs to 
leverage community resources to proactively engage veterans in caring 
for their mental health needs in a confidential and convenient manner 
that does not require long distance travel or delayed appointments.
    To facilitate the leveraging of mental health care providers in our 
communities, the VA can actively exercise its authority to contract 
with private entities in local communities, or creatively implement a 
voucher program that would allow our veterans to seek fee-based 
treatment locally outside the brick and mortar of the veterans 
Administration facilities and even Vet Centers.
    The Vet Center in Spokane for example serves an area as big as the 
state of Pennsylvania. It is not practical for veterans in this 
catchment area to drive hundreds of miles to seek counseling or 
behavioral clinical care. That Vet Center pre -screens fee- based 
providers to whom it will refer veterans for confidential treatment in 
its management area. It also monitors the process to make sure the 
veteran is actually receiving care paid for by the Vet Center. This 
system already works. However, a voucher process would improve 
efficiencies by relieving the Vet Center of its scheduling burden by 
allowing the veteran to directly make his or her own appointment with 
providers as needed.
    The VA and Vet Centers also need to fully leverage existing state 
administrative mental health and veteran networks. Working with the 
state mental health care provider licensing authorities, community 
providers certified by the VA or Vet Center to treat veterans could be 
identified at the state agency level with vouchers to pay for 
treatment.
    Several of our veterans have fallen through the cracks of the VA 
health care system, and will continue to do so. According to the 
Vietnam Veterans of America, last year only 30% of our veteran 
population had enrolled in VA medical programs. Many veterans end up in 
the care of state social service programs in cooperation with state and 
national veteran organizations. The VA has the authority to assist in 
maintaining this safety net of care for veterans in a stressful 
economic climate for our states with a voucher program or expanded 
contracting with private entities. It needs to act.
    We must proactively address an unemployment rate in excess of 20 % 
for serving members of the National Guard and Reserve. Anecdotally, we 
continue to hear that employers will find subtle ways to avoid hiring a 
serving member of the Guard or Reserve in order to avoid disruptions to 
the workplace from deployment related absences. Although technically be 
a violation of the Uniformed Services Employment and Reemployment 
Rights , it is impossible to prove in most cases.
    Although the unemployment rate for returning veterans is lower than 
the national average, the National Guard Bureau late in 2012 has 
reported the unemployment rate for the Army National Guard to be 
greater than 20 %- much higher than the national average of 7.8 percent 
reported at the end of 2012.
    California reports that no CA National Guard company or brigade 
returning from deployment during the last three years has had an 
unemployment rate less than fifty percent (50%).Some units returning 
from deployment in 2012 reported their unemployment rate to be in 
excess of 60 %.
    Although USERRA prohibits hiring discrimination against members of 
the Reserve Components by reason of their ongoing military service, 
acts of discrimination when they occur are often impossible to prove.
    When an employer has a choice of hiring a veteran no longer serving 
in the Select Reserve or a veteran or non veteran still serving in the 
Guard or Reserve, the employer would most likely hire the non serving 
veteran to remove the risk of a deployment that can disrupt the 
workplace.
    Members of the National Guard and Reserve should not face 
discrimination in the hiring process particularly from federal 
government employers. Currently veterans receive hiring preference 
points from federal agencies. Because National Guard members are in a 
much worse employment fix that is likely to continue, federal agencies 
need to help address this by awarding separate preference points to 
serving members of the National Guard and Reserve.
    Thank you again for the honor of appearing before you today and for 
what you are doing for our National Guard veterans who are still 
serving and for those who have separated. They have benefited greatly 
from your efforts. Thank you.

                                 <F-dash>
                   Materials Submitted For The Record
Anthony A. Wallis, Legislative Director/Director of Government Affairs, 
        Association of the United States Navy

               The Association of the United States Navy

    The Association of the United States Navy (AUSN) continues its 
mission as the premier advocate for our nation's Sailors and Veterans 
alike. Formerly known as the Naval Reserve Association, which traces 
its roots back to 1954, AUSN was established on 19 May 2009 to expand 
its focus on the entire Navy. AUSN works for not only our members, but 
the Navy and Veteran community overall by promoting the Department of 
the Navy's interests, encouraging professional development of officers 
and enlisted and educating the public and political bodies regarding 
the Nation's welfare and security.
    AUSN prides itself on personal career assistance to its members and 
successful legislative activity on Capitol Hill regarding equipment and 
personnel issues. The Association actively represents its members by 
participating in the most distinguished groups protecting the rights of 
military personnel. AUSN is a member of The Military Coalition (TMC), a 
group of 34 associations with a strong history of advocating for the 
rights and benefits of military personnel, active and retired. AUSN is 
also a member of the National Military Veterans Alliance (NMVA) and an 
associate member of the Veterans Day National Committee of the 
Department of Veterans' Affairs (VA).
    The Association's members include Active Duty, Reserve and Veterans 
from all fifty states, U.S. Territories, Europe and Asia. AUSN has 81 
chapters across the country. Of our over 22,000 members, approximately 
80% are Veterans. Our National Headquarters is located at 1619 King 
Street, Alexandria Virginia and we can be reached at 703-548-5800.
    Contact Information:
    National President: DKCM Charles Bradley, U.S. Navy (Ret.), 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accfc4cddec0c9df82cedecdc8c0c9d5eccdd9dfc282c3decb">[email&#160;protected]</a>
    Executive Director: RADM Casey Coane, U.S. Navy (Ret.), 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="44272537213d6a272b252a21042531372a6a2b3623">[email&#160;protected]</a>
    Legislative Director: Mr. Anthony Wallis, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9a958f93949582d58c9a97979288bb9a8e8895d594899c">[email&#160;protected]</a>
Summary
    Chairmen, Ranking Members and Members of the House and Senate 
Veterans' Affairs Committee, the Association of the United States Navy 
(AUSN) thanks you and your Committee for the work that you do in 
support of our Navy, retirees and veterans as well as their families. 
Your hard work has allowed significant progress in creating legislation 
that has left a positive impact on our military community.
    Last year, in 2012 alone, AUSN was pleased to see passage and 
implementation of legislation in the areas of Employment, Transition/
Reintegration, Concurrent Receipt, Healthcare and Education. Bills such 
as H.R. 4155, the Veteran Skills to Jobs Act, H.R. 1627, the Honoring 
Veterans and Caring for Camp Lejeune Families Act, H.R. 4114, the 
Veterans Compensation Cost-of-Living-Adjustment (COLA) Act, H.R. 4057, 
the Improving Transparency of Education Opportunities for Veterans Act, 
and S. 322, the Dignified Burial of Veterans Act. These bills, and 
others that passed into law last year, show the commitment and 
determination of Members of this Committee as well as Congress to 
improving the lives of those who have served our country.
    As part of a larger Veteran community, AUSN recognizes the many 
challenges ahead, especially with the upcoming release of the 
President's Fiscal Year 2014 (FY14) Budget Request. Though some changes 
must be made in these fiscal times, we must consider what is fair to 
our Veterans given the promises that were made to them when they 
pledged to serve their communities and their country. Of great concern 
amongst our membership and Veterans are the impacts of an additional 
Continuing Resolution (CR) for the remainder of Fiscal Year 2013 (FY13) 
and what the implementation of the sequester will have upon the 
military and Veteran community. Although AUSN was pleased that military 
personnel and programs administered by the Department of Veterans 
Affairs (VA) are largely exempt from sequestration, based off of last 
year's decision by the Administration, there is uncertainty as to other 
impacts the sequester may have upon current and former military 
servicemembers and beneficiaries, most notably effects to the current 
Defense Health Program (DHP), U.S. Court of Appeals for Veterans 
Claims, Department of Labor (DOL)- Veterans Employment and Training 
funding and the Federal jobs that will be lost, affecting Veterans, for 
example, which constitute a large portion of the Federal work force. 
AUSN is pleased to see discussions underway to address concern for the 
impact of sequestration and what effect it might or might not have on 
the VA. In regards to the CR, AUSN is greatly concerned with the heavy 
cuts that are already being implemented in the VA's budget this fiscal 
year from the current CR and what the impact would be for a second CR 
on crucial programs to our Veteran community.
    The Association of the United States Navy, working with its 
members, Veterans and alongside other Veteran Service Organizations 
(VSO's), The Military Coalition (TMC) and other partner associations, 
has devised its Legislative Objectives/ Priorities as described below 
that we would like both the House and Senate Veterans' Affairs 
Committees to consider.

                          Veterans' Healthcare

    AUSN was pleased to see that all VA programs were exempt from 
sequestration and that vital healthcare needs of our Veterans are going 
to continue to be provided. In addition, AUSN was encouraged to see in 
Section 723 of the Fiscal Year 2013 (FY13) National Defense 
Authorization Act (NDAA), that the Secretary of Defense and Secretary 
of Veterans Affairs, ``shall jointly enter into a understanding 
providing for the sharing of the results of examinations and other 
records on members of the Armed Forces that are retained and maintained 
with respect to the medical tracking system for members deployed 
overseas.'' This measure seeks to increase the sharing of medical 
records and information between the two agencies. AUSN supports the 
increased and improved communication between DOD and the VA, as our 
overseas contingency operations draw-down and a new generation of 
Veterans will need to be taken care of. Studies have shown that since 
October 2001, approximately 1.6 million U.S. troops have been deployed 
for Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF). 
Early evidence suggests that many returning service members may be 
suffering from Post-Traumatic Stress Disorder (PTSD) and depression. 
Traumatic Brain Injury (TBI) is also a major concern. The sharing of 
vital healthcare and mental health documents between the two agencies 
will ensure continuity of care to our servicemembers and Veterans 
during the forthcoming draw-downs.

Agent Orange
    The Veterans' Affairs Committee has a longstanding working 
relationship with veterans and the effects of Agent Orange on the 
health of Vietnam Veterans. Once classified in the early 1980's as a, 
``minor acne condition,'' Agent Orange has been thoroughly studied, and 
it has been determined that its exposure to our servicemembers has 
caused severe illnesses such as various forms of cancer, Parkinson's 
Disease, Lymphoma and many others. During the Vietnam War, the United 
States military sprayed more than 19 million gallons of various 
``rainbow'' herbicide combinations, but Agent Orange was used most 
often. The name ``Agent Orange'' came from the orange identifying 
stripe used on the 55-gallon drums in which it was stored from 1962 to 
1971, used to remove trees and dense tropical foliage that provided 
enemy cover. Often times, U.S. Navy and Coast Guard vessels were in the 
vicinity of disbursement of these chemicals.
    The Navy and Marine Corps Manual (SECNAVINST 1650.1H) defines the 
area in which a ship must have operated during this time period as 
follows; ``water areas from a point on the east coast of Vietnam at the 
border of Vietnam with China southeastward to 21N, 108-15E, thence 
southward to 18N, 108-15E; thence southeastward to 1-30N, 111E; thence 
southward to 11N, 111E; thence southwestward to 7N, 105E; thence 
westward to 7N, 103E; thence northward to 9-30N, 103E; thence 
northeastward to 10-15N, 104-27E; thence northward to a point on the 
west coast of Vietnam at the border of Vietnam with Cambodia.'' 
Veterans, who served aboard U.S. Navy and Coast Guard ships operating 
on the waters of Vietnam between 9 January 1962, and 7 May 1975, may be 
eligible to receive VA disability compensation for 14 medical 
conditions associated with presumptive exposure to Agent Orange.
    With the passage of the Agent Orange Act of 1991, the Secretary of 
Veterans Affairs was issued the power to declare certain illnesses 
``presumptive'' to exposure to Agent Orange, enabling Vietnam Veterans 
to receive disability compensation for their related conditions. 
However, a declaration by the VA in 2002 limited the scope of the Act 
to only those veterans who could provide proof that they served in 
land, including troops on the ground and riverine Naval personnel. As 
such, Blue Water Navy Veterans serving off the coast must file 
individual VA claims to restore their benefits. However by 2009, over 
32,880 such claims were denied.
    AUSN was pleased, in 2011, when the VA released an updated list of 
U.S. Navy and Coast Guard ships that were confirmed to have operated on 
Vietnam's inland waterways, docked on shore, or had crewmembers sent 
ashore. This list, which can be found on the VA's website at http://
www.publichealth.va.gov/exposures/agentorange/shiplist/index.asp, can 
assist Vietnam Veterans in determining potential eligibility for 
compensation benefits. However, on 26 December 2012, the Secretary of 
Veterans Affairs, General Eric Shinseki, announced that findings from 
an Institute of Medicine (IOM) report determined that the evidence 
currently available does not support the establishment of presumption 
of exposure to herbicides for Blue Water Navy Vietnam Veterans. The 
report, titled, ``Blue Water Navy Vietnam Veterans and Agent Orange 
Exposure,'' was a culmination of extensive research that included 
interviews with Vietnam Navy Veterans, as well as examinations of peer-
reviewed literature, exposure and transport modeling, ship deck logs 
and other governmental documents, found that, at this time, there is 
insufficient evidence to determine whether Blue Water Navy Veterans 
were exposed to Agent Orange-associated herbicides during the Vietnam 
War. The IOM report, released in May 2011, did validate the Royal 
Australian Navy study recognizing the possibility of exposure by Blue 
Water Navy Vietnam Veterans but did not have sufficient evidence to 
determine how far the dioxin drifted and concluded that the final 
decision would have to be either a policy or legislative determination.
    General Shinseki did, however, reiterate the fact that any Blue 
Water Navy Vietnam Veteran who wishes to make a claim based on 
herbicide exposure will still have their case reviewed, and the VA will 
continue to review all Blue Water Navy Vietnam Veteran Agent Orange-
associated claims on a case-by-case basis. As a result, Blue Water Navy 
Vietnam Veterans, and many others, must undergo an extremely arduous 
process to ``prove'' the exact same conditions their Army, Marine 
Corps, Air Force and Brown Water Navy counterparts are experiencing. 
This process includes Vietnam-Era Sailors performing their own 
individual research to determine if their ship qualifies for 
compensation. Instructions on researching ships to see if they qualify 
for Agent Orange compensation are at http://www.publichealth.va.gov/
exposures/agentorange/shiplist/not-on-list.asp. The link to research a 
ship on the VA website immediately directs the visitor to the call 
support number and generic email at the National Archives and Records 
Administration (NARA) in College Park, MD, where the NARA research 
process can be tedious, as the turnaround time to get information is 
long and requires NARA researchers to review ship logs for Sailors. 
AUSN is advocating for better methods of research available to Sailors 
who are voicing frustration and cannot wait such a long period to hear 
on their qualification results. Possible options AUSN hopes the 
Committee will explore include digitizing ship logs at NARA and 
coordinating with the VA to ensure that Blue Water Vietnam Veterans can 
conduct quick research at VA Centers around the country, or have these 
logs available for public research online. These measures would 
eliminate NARA as the `middle man' in order to process claims quickly 
and efficiently.
    AUSN encourages the House and Senate Veterans' Affairs Committee to 
continue its work on the Agent Orange issue and support hearings and 
further actions on pending legislation, such as H.R. 543, the Blue 
Water Navy Vietnam Veterans Act, introduced by Representative Chris 
Gibson (R-NY-19). This bill would amend Title 38, to clarify 
presumptions relating to the exposure of certain Veterans who served in 
the vicinity of the Republic of Vietnam, as well as to help alleviate 
the backlogged Agent Orange claims.

Mental Health Treatment and Professional Development
    AUSN was pleased that the FY13 NDAA was signed into law on 3 
January 2013. The FY13 NDAA represented great leaps forward in 
providing our Armed Forces and Veterans better mental health care 
services. Amongst the many provisions in the final NDAA were Section 
518, authority for additional behavioral health professionals to 
conduct pre-separation medical exams for Post-Traumatic Stress Disorder 
(PTSD), where such professionals will included psychiatrists, licensed 
clinical social workers or psychiatric nurse practitioners; Section 706 
which authorizes DOD to carry out a pilot program to enhance the 
efforts of the DOD in research, treatment, education and outreach on 
mental health and substance use disorders and traumatic brain injury 
(TBI) in members of the Reserve Component, their family members and 
their caregivers; and Section 726, where in order to improve 
transparency, the VA is required to develop and implement a 
comprehensive set of measures to access mental health care services 
furnished by the VA, including staffing guidelines for specialty mental 
health care services, including those at community-based outpatient 
clinics. In addition, AUSN supports the VA's use of $6.2 billion to 
expand inpatient, residential, and outpatient mental health programs (a 
5.3% increase or $312 million), further building on last year's 
initiatives. This increase in funding will help grow outreach for 
mental health screenings, expand technologies for self-assessment and 
symptom management of Post-Traumatic Stress Disorder (PTSD) and enhance 
other programs to reduce stigmas of mental health. AUSN also praises 
the mental health care advances of H.R. 1627, the Honoring American 
Veterans and Caring for Camp Lejeune Families Act, where amongst the 
provisions of that bill are sections from last year's S. 957, the 
Veterans' Traumatic Brain Injury Rehabilitative Services Improvements 
Act, which amends the U.S. Code to improve the disability compensation 
evaluation procedure of the VA for Veterans with PTSD, rehabilitative 
services for Veterans with Traumatic Brain Injury (TBI), and 
enhancement of comprehensive service programs, vastly improving the 
care available to our injured service members.
    Despite previous successes, much work needs to be done in 
addressing mental health treatment and improving the quality and 
efficiency of VA healthcare. The Veteran suicide rate still remains 
dangerously high. A recent 2 year study, culminating in the release of 
a 2012 Suicide Data Report in mid-February 2013 by the VA, reported 
that 22 veterans had committed suicide per day in 2010. Furthermore, 
the report estimates that more than 69 percent of Veteran suicides are 
occurring among those aged 50 years and older. This trend is an ongoing 
issue that AUSN hopes the Committee continues to make a high priority. 
In addition, in regards to treatment, there have been numerous 
complaints amongst the Veteran community of the inadequate level of 
mental health care professionals available to them at clinics across 
the country. Undersecretary of Veterans Affairs for Health, Dr. Robert 
Petzel, told the House Veterans' Affairs Committee [in a hearing about 
mental health on 13 February 2013] that the VA is currently working on 
being more proactive in its services to hold its workers more 
accountable. At the same hearing, Dr. Linda Schwartz of the VA Center 
in Connecticut reiterated the belief that the VA needs to stop 
believing it has to do everything by itself and must work with its 
state level partners to provide local care to Veterans.
    AUSN is closely monitoring these internal VA actions, such as the 
ones Dr. Petzel testified on, that will move the VA into a more 
proactive direction in regards to mental healthcare. Amongst the bills 
that AUSN is tracking are H.R. 577 and H.R. 602, introduced by 
Representatives Steve Stockman (R-TX-36) and Jeff Miller (R-FL-01) 
respectively, the Veterans Second Amendment Protection Act which would 
amend U.S. Code to clarify the conditions under which certain persons 
may be treated as adjudicated mentally incompetent. AUSN also 
understands that Representative Tim Walz (D-MN-01) intends to 
reintroduce the Servicemembers Mental Health Review Act. DOD records 
have shown that from 2001 through 2007, 26,000 servicemembers were 
separated from the military because of a personality disorder. In 2008, 
the Government Accountability Office (GAO) conducted a review of 
several hundred of these cases. GAO concluded that thousands of 
improper personality disorder discharges had occurred. GAO also found 
that military branches were failing to abide by DOD's directives for 
diagnosing and discharging Veterans with Personality Disorder (PD). 
Some service compliance rates were as low as 40 percent. Instead of 
properly diagnosing these troops with PTSD, DOD diagnosed the service 
members with PD and discharged them from service. DOD has not released 
any records regarding these discharges since 2010 and since PD and 
Adjustment Disorders (AD) are preexisting conditions, DOD is not 
obligated to award the servicemember the benefits they would have 
received if they were diagnosed with PTSD or TBI. Veterans improperly 
discharged with a false psychiatric disorder can have a difficult time 
reintegrating into society. In particular, Veterans discharged with PD 
or AD cannot access the medical retirement benefits they deserve. This 
leaves the disabled Veteran without access to education assistance, 
Federal employment preference, medical insurance and disability 
compensation. Furthermore, a harmful stigma follows them for life since 
the diagnosis is indicated on the individuals' discharge papers, 
hurting their chances of finding civilian employment. This bill would 
give the Physical Disability Board of Review the authority to correct 
the service records of Veterans wrongly discharged with an improper 
psychiatric disorder.
    Although there have been great strides in improving the quality of 
mental healthcare for Veterans, AUSN strongly believes much more work 
needs to be done in regards to mental health care and looks for 
continued support for legislative efforts on identifying and providing 
adequate care and professionals to help alleviate the problems 
associated with mental illness amongst our veterans.

Remote Area Access for Veteran Healthcare
    Last year, AUSN was encouraged by the passage of S. 1849, the Rural 
Veterans Health Care Improvement Act, included amongst the provisions 
of H.R. 1627, the Helping Veterans and Camp Lejeune Families Act, 
particularly Section 110 of H.R. 1627 which read, ``Recognition of 
Rural Health Resource centers in Office of Rural Health.'' AUSN is 
extremely pleased that rural health resource centers now serve as 
satellite offices within the VA's Office of Rural Health and that the 
Office's goals are to improve the understanding of challenges, identify 
disparities in the availability of health care, formulate practices or 
programs that enhance the delivery of health care and develop special 
practices and products for the benefit of all Veterans living in rural 
areas. In addition, AUSN was happy to see that other sections of the 
bill were aimed to improve the life of rural Veterans such as Section 
108 of the bill, which directs the VA to carry out an initiative of 
tele-consultation for the provision of remote mental health and TBI 
assessments in facilities of the Department that are not otherwise able 
to provide such a service. This provision also ensures that facilities 
of the VA are able to provide mental health or TBI assessments to a 
Veteran through contracting with a third-party provider.
    It is well known that a large population of our nation's Veterans 
comes from rural areas of the country. This presents numerous 
challenges to a Veteran if he or she has a service-related disability, 
as time of travel, expense of travel and ability to do so are all 
affected by distanced care centers. The VA is making gains to better 
reach out to our rural Veterans, but there is much more that needs to 
be done. More military treatment facilities and VA clinics in rural 
areas are the obvious fix. However, simply putting buildings in rural 
areas will not solve the problem. No matter how much effort the VA puts 
into creating care centers in rural areas, caregiver staffing will 
remain a problem until the VA goes to extremes to properly staff them. 
While there have been many successful measures to help make rural 
caregiver assignments more desirable in the past, such as the 2008 
Rural Access to Health Act, the VA must now bolster its efforts to 
attract caregivers to these areas. Pay, alone, does not drive the 
caregiver or health professional to a certain assignment. VA must not 
only look at financial, but also career and professional incentives to 
bring the best and brightest health care staff to our Veterans. 
Rewarding a health care professional who volunteers to work in a rural 
area for three years, for instance, could be rewarded with a 
professional accommodation or, much like in the military, could be 
given special privileges like being placed at the front of the line for 
extremely desirable assignments. This and many other options exist, and 
the VA must do more in terms of attracting promising young health care 
professionals to needy rural areas.
    AUSN fully supports efforts in the 113th Congress, including H.R. 
635, the Help Establish Access to Local Timely Healthcare for Your 
(HEALTHY) Vets Act, which would allow Veterans to access local 
healthcare facilities, which will save the Veteran time, money and 
physical strain. Currently, our Veterans must travel to VA hospitals 
for the majority of their treatments. This distance can often be a 
major roadblock to healthcare for Veterans living in rural areas who 
have to travel to reach the closest VA hospital. The HEALTHY Vets Act 
would allow Veterans to use health providers in their hometowns by 
directing the VA to contract with local hospitals and doctors on a 
case-by-case basis to provide medical services to those Veterans who 
live far away from a VA medical facility. This is the fourth time such 
legislation has been introduced with this aim, and AUSN hopes that it 
will finally be given enough time and consideration that Veterans of 
rural areas deserve.

Disability Compensation/Concurrent Receipt
    The VA projects it will receive about 1.25 million claims for 
Veterans disability benefits for this year. As it exists today, a 
disability rating is assigned (a percentage) by the VA after a physical 
examination for all body systems for which the Veteran is claiming 
disability. However, a cash benefit is only provided to Veterans with a 
rating of 10% or more. The basic benefit amount ranges from $127 to 
$2,769 a month, depending on the disability rating. However, given the 
economic situation faced by many of our Veterans, this compensation may 
not be adequate to meet their needs as costs of living continue to 
rise. AUSN applauds passage of the Veterans' Compensation Cost-of-
Living Adjustment (COLA) of 2012 passed in November 2012 where 3.9 
million Veterans and their families saw their COLA raised by 1.7%, 
effective 1 December 2012.
    Though a great step to improve Veteran benefits, these annual COLA 
bills consume Congress's time every year. Instead of having to return 
to the issue over and over again every year, AUSN applauds H.R. 570, 
the American Heroes COLA Act of 2013, sponsored by Representative Jon 
Runyan (R-NJ-06), which would make the annual adjustments automatic. 
The rates of disability compensation for Veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for survivors of certain service-connected disabled 
veterans would become an automatic increase. Such automatic increases 
save Congress time by alleviating an annual issue that is usually 
passed with little to no opposition, and it protects Veteran benefits 
from being delayed by possible Congressional delays (as what happened 
last fall). This bill, partnered with Representative Runyan's other 
COLA bill, H.R 569 to provide a COLA increase to take effect 1 December 
2013, both address the important topic of Veteran benefits while 
tackling the issue early on in the fiscal year.
    In addition, AUSN supports efforts to change the Chained Consumer 
Price Index (CPI) as a method for calculating Veterans disability 
compensation. We understand that during these times, the Federal 
Government needs to look for methods to save money, but AUSN does not 
support writing such checks through the earned, and much needed, 
benefits of retirees, Veterans, and their families. As Chairman of the 
Senate Veterans' Affairs Committee (SVAC), Senator Bernie Sanders (I-
VT) has said, ``Do not balance the budget on the backs of disabled 
Veterans who have lost their arms, legs, and eyesight defending our 
country. Do not balance the budget on the backs of working families. Do 
not adopt the so-called chained-CPI.'' AUSN, and numerous other VSO's, 
joined Chairman Sanders on 31 January 2013 at a press conference in the 
Capitol to voice opposition to Chained CPI. More than 55 million 
retirees, widows, orphans and disabled Americans on Social Security 
could be affected by the switch to a so-called chained CPI. According 
to the Social Security Administration, the change would result in $112 
billion in reduced Social Security benefits over 10 years. The proposed 
change in how annual COLA are calculated also would mean that Veterans 
who started receiving VA disability benefits at age 30 would have their 
benefits reduced by $1,425 at age 45, $2,341 at age 55 and $3,231 at 
age 65, according to the Congressional Budget Office (CBO). These are 
dangerous benefits cuts, and alternative methods of lowering spending 
and the debt need to be investigated.

               Veteran Employment/Transition and Housing

    AUSN continues to advocate for continued funding for the Vocational 
Rehabilitation & Employment (VR&E) Program at the VA. Authorized by 
Congress under Title 38, U.S. Code, Chapter 31 and Code of Federal 
Regulations, Part 21, sometimes referred to as the Chapter 31 program, 
this program assists Veterans with service-connected disabilities to 
prepare for, find and keep suitable jobs. For Veterans with service-
connected disabilities so severe that they cannot immediately consider 
work, this program offers services to improve their ability to live as 
independently as possible. According to the VA, program participants 
are expected to increase from 108,000 in 2011 to well over 130,000 this 
year alone.
    There are still many concerns regarding transitioning from Active 
Duty to the civilian sector amongst the Veteran communities. Amongst 
the ones described in this testimony, are concerns regarding the 
experiences of a Veteran while on Active Duty, converting to certain 
civilian sector jobs and license certifications. AUSN is pleased that 
there have been great strides in this area such as last year's passage 
into law of H.R. 4155, the Veteran Skills to Jobs Act, which directs 
the head of each Federal department and agency to treat relevant 
military training as sufficient to satisfy training or certification 
requirements for Federal licenses. In addition, the inclusion of last 
year's Helping Iraq and Afghanistan Veterans Return to Employment 
(HIRE) at Home Act, S. 3235 and H.R. 4115, in the FY13 helps 
transitioning veterans by encouraging states to consider the 
specialized military training and experience service members acquire on 
Active Duty as fulfilling all or some of the state certification and 
licensing requirements.
    Currently, there is a bill this Congress that focuses on medical 
expertise of Veterans qualifying for license certifications. AUSN 
supports the House's recent passage a few weeks ago of H.R. 235, the 
Veteran Emergency Medical Technician Support Act of 2013, which would 
amend the Public Health Service Act to provide grants to states to 
streamline state requirements and procedures for Veterans with military 
emergency medical training to become civilian emergency medical 
technicians. We strongly urge the Senate to take action on this 
important bill that would help to facilitate the employment of Veterans 
with medical experience.

Transition Programs
    Last year, AUSN was pleased to see many positive developments with 
transition programs for our Veterans. Most notably in the FY13 NDAA, 
Section 513, the availability of Transition Assistance Advisors (TAA) 
to assist members of the Reserve Component who serve on Active Duty for 
more than 180 consecutive days. In this particular section, DOD is to 
establish as part of the Transition Assistance Program (TAP) a 
Transition Assistance Advisor (TAA) program to provide professionals in 
each state to serve as statewide points of contact to assist members of 
the Armed Forces in accessing benefits and health care. In addition, 
AUSN was pleased with the part of S. 3202, the Dignified Burial and 
Other Veterans' Benefits Improvement Act, which passed into law that 
contained portions of the Transition Assistance Program (TAP) 
Modernization Act, S. 2246 and H.R. 4051. Particularly, Sec. 301 of S. 
3202 directs the Secretary of Labor, during a two-year pilot period, to 
provide TAP to Veterans and their spouses at locations other than 
military installations in at least three and up to five states selected 
by the Secretary based on the highest rates of Veteran unemployment.
    AUSN is continuing to monitor the debate on mandating participation 
in TAP for all separating service members as well as expanding its 
programs. There are still many current service members on Active Duty 
who continue to not understand why they would need to participate in 
the program. However, once service members had left the military, many 
wondered why they never received comprehensive training and information 
on how to access their earned benefits and successfully transition from 
military to civilian life. Unfortunately, some Veterans have no way to 
reasonably anticipate all of the challenges they may face once out of 
the military. AUSN believes that TAP resources must continue to be made 
available to Veterans after they have transitioned out of Active Duty 
and expansion of its programs to include such items as educational 
benefit instructions which will significantly help prepare service 
members and their families. There are some encouraging bills that were 
introduced this Congress that help in these efforts which AUSN 
supports, including H.R. 562, the Veterans Retraining Assistance 
Program (VRAP) Extension Act of 2013, which would provide for a three-
month extension of the Veterans Retraining Assistance Program 
administered by the VA, allowing for more time for service members to 
take advantage of this important transitional program. Currently, VRAP 
offers up to 12 months of retraining assistance to Veterans who are 
unemployed, at least 35 but no more than 60 years old, have an other 
than dishonorable discharge, not eligible for any other VA education 
benefit programs (i.e., the Post?9/11 GI Bill, Montgomery GI Bill, 
Vocational Rehabilitation and Employment), are not in receipt of VA 
compensation due to Individual Un-employability (IU), and are not 
enrolled in a Federal or state job training program. In addition, AUSN 
supports H.R. 631, the Servicemembers' Choice in Transition Act of 2013 
which provides requirements for the contents of TAP, including, amongst 
other items, an overview on preparations for employment, preparations 
for education or career or technical training and preparations for 
entrepreneurship.

Encourage Hiring of Veterans
    AUSN is pleased with the creation and development of the Veterans 
Jobs Caucus in the Senate by co-chairs Senators Joe Manchin (D-WV) and 
Mark Kirk (R-IL) and in the House by co-chairs Representatives Tim Walz 
(D-MN-01) and Jeff Denham (R-CA-10). Their ``I Hire Veterans'' 
initiative is a great step in strengthening Congressional support and 
visibility for Veterans employment issues. In addition, AUSN was happy 
to see the passage into law last Congress of H.R. 3670, requiring the 
Transportation Security Administration (TSA) to comply with the 
Uniformed Services Employment and Reemployment Rights Act (USERRA). 
This step was taken after TSA was found to be violating USERRA when two 
Transportation Security Officers (TSO's) in the Reserve Component were 
dismissed from employment as a result of their service and had their 
appeals rejected. As a result of the passage of the bill into law, 
TSO's will now have their jobs protected under USERRA, as it instructs 
TSA to comply with USERRA when carrying out certain personnel decisions 
with respect to the employment of air transportation passenger and 
property screeners.
    However, overall unemployment numbers amongst Veterans remain high 
and are a top concern of AUSN. Currently, there are over 857,000 
unemployed Veterans (mostly Vietnam Veterans) throughout the country. 
In 2012 alone, the unemployment rate for OIF and OEF Veterans hovered 
at 10%. While this statistic was much better than the 2011 rate of 12%, 
our nation's returning heroes deserve a better chance to be able to 
work to secure a good future for themselves and their families. Despite 
the jobless rate falling, it is not yet where it needs to be. We must 
continue to strengthen prospects for Veteran employment by extending 
and strengthening incentives for businesses to employ Veterans. In 
addition, there are alarming cases where Veterans are afraid to put 
`Veteran' on their job applications in fear of employer's not wanting 
to hire them due to some of the complex burdens some of these Veterans 
may carry. This discrimination is something that should be monitored 
and discouraged.
    AUSN supports legislative efforts that seek to improve the 
employment of Veterans and encourage preferential hiring practices in 
businesses. One such bill is S. 6, the Putting Our Veterans Back to 
Work Act, which provides assistance to small business owned by Veterans 
and improves enforcement of employment and reemployment rights for 
members of the uniformed services. First, the bill directs the 
Department of Homeland Security (DHS) to award grants to hire veterans 
as firefighters and requires the head of each Executive and Defense 
agency to consider favorably, as an evaluation factor in federal 
solicitations for contracts and task or delivery orders valued at or 
above $25 million, the employment by a prospective contractor of 
Veterans constituting at least 5% of the contractor's workforce. S. 6 
would also extend the VOW to Hire Heroes Act of 2011 through March of 
2016, which would provide a tax credit to businesses of up to $5,600 
for hiring Veterans who have been searching for a job for more than six 
months, as well as a $2,400 credit for Veterans who are unemployed for 
more than a month but fewer than six. Finally, under USERRRA, the bill 
allows a Veteran with a complaint of a violation of employment or 
reemployment rights under for the Attorney General (AG) to intervene 
within 60 days after receiving a referral of an unsuccessful attempt to 
resolve a complaint relating to a state or private employer.

Homelessness
    Last year, there were many improvements in combating homelessness 
amongst the nation's Veteran population. In particular, Section 590 of 
the FY13 NDAA extended the authority to carry out referral and 
counseling service programs to Veterans at risk of homelessness 
transitioning from certain institutions from 30 September 2012 to 30 
September 2013. In addition, the passage of H.R. 1627 into law last 
year included provisions of S. 3309, the Homeless Veterans Assistance 
Improvements Act, and S. 3349, the Zero Tolerance for Veterans 
Homelessness Act. Sections 301 and 302 of H.R. 1627 expand eligibility 
for the VA's emergency shelter services to include homeless Veterans 
who are not seriously mentally ill. Furthermore, these sections enhance 
grant programs for homeless Veterans with special needs by including 
dependents of Veterans and male Veterans with dependent children. The 
bill also reforms the grant and per diem program, which serves upward 
of 30,000 homeless Veterans annually by requiring the VA to report on 
how to improve the per diem payment process for grantees.
    There is still much work to be done to combat homelessness for 
Veterans, however. On a single night in January 2012, 62,619 Veterans 
were homeless. The Department of Housing and Urban Development (HUD) 
has released annual reports since 2009 on the estimates of homeless 
Veterans and although there was an increase from 75,609 in 2009 to 
76,329 in 2010, there was a substantial 12% decrease in 2011 to 67,495 
homeless Veterans. However, the statistics on homeless Veterans are 
still staggering, as no Veteran should be without a home after serving 
their country. According to data compiled by the VA in January 2011, 
about 145,000 Veterans nationwide spent at least one night in an 
emergency shelter or transitional housing program. Veterans in the 
groups of age 31-60 compose the greatest percentages of homeless 
veterans, but Domiciliary Care for Homeless Veterans (DCHV) has 
reported that of these homeless Veterans, 90% suffer from Substance Use 
Disorders, 68% have serious psychiatric problems and 61% are being 
dually treated. One out of every six men and women in homeless shelters 
is a Veteran, and Veterans are 50 percent more likely to fall into 
homelessness compared to other Americans. Looking at returning Veterans 
from Iraq and Afghanistan, the VA recently report that through the end 
of September 2012, 26,531 of these returning Veterans were living on 
the streets, at risk of losing their homes, staying in temporary 
housing or receiving Federal vouchers to pay rent. This figure is up 
from 10,500 in 2010 for returning Iraq and Afghanistan Veterans and the 
VA says the numbers could be higher because they include only the 
homeless the Department is aware of. While the VA has expressed its 
goal to end homelessness amongst Veterans by 2015, much work still 
needs to be done.
    AUSN looks forward to hearing about the progress on combating 
homelessness amongst Veterans and urges the House and Senate Veterans' 
Affairs Committee to consider legislation this Congress that addresses 
these issues and seeks to lower these shocking numbers. One such bill 
is S. 287, which would include as a homeless Veteran, for purposes of 
eligibility for benefits through the VA, a Veteran or Veteran's family 
fleeing domestic or dating violence, sexual assault, stalking, or other 
dangerous or life-threatening conditions in a current housing 
situation.

Claims Processing
    Claims backlogs are an area where there is a broad consensus that a 
lot of improvement is needed and that existing negative public 
perception amongst the Veteran community is undoubtedly drawn from the 
VA's shortcomings to process them. AUSN is pleased with VA's heightened 
efforts to modernize itself and these efforts are being bolstered by 
DOD's modernization efforts as well. In the FY13 NDAA, for example, 
Section 682 required a report by the VA on claims process 
transformations that the VA is currently implementing, whereby no later 
than 60 days after the NDAA was passed into law, the Secretary of 
Veterans Affairs is to submit to the Committees on Armed Forces and the 
Committees on Veterans' Affairs of the Senate and House, a report on 
the plan of the Secretary to reduce the backlog of claims for benefits 
that are pending and to efficiently and fairly process claims for such 
benefits in the future. AUSN looks forward to the findings of this 
report. It is important in such transformation and modernization 
efforts to allow Veterans to have the ability to transfer their 
complete service jacket (medical records, etc.) with a single click. 
This effort would seek to completely transform and evolve the VA's 
claims process into a streamlined system and improve the lives of 
Veterans throughout the country.
    However, integration of these claims systems into one has to be 
continued in order to process claims efficiently. Communication and 
integration of the Veterans Benefits Administration (VBA) and Veterans 
Health Administration (VHA) needs to be further developed to have 
continuity of filing in the VA. The creation of E-BENEFITS, integrating 
DOD and VA resources into a `one-stop- shop' webpage, is a great start, 
but there are still a few overlaps that cause confusion when Veterans 
file claims and, consequently, when the VA tries to get them processed 
quickly and, most importantly, efficiently. Recent numbers at the VA 
have shown that there are 1.4 million various disability compensation 
and pension claims, which include 4 million education claims, processed 
in a given year. The VA has noted that by the end of this year, no more 
than 40% of compensation and pension claims will be more than 125 days 
old which is a significant cut from the 60% of claims exceeding that 
mark this past year.
    With 1 million new Veterans expected to be utilizing the VA claims 
system upon returning home from deployment in OIF and OEF, this system 
of processing needs to improve. AUSN continues to be concerned with the 
efficiency of the claims system for our nation's Veterans and would 
like Congress to be on the forefront of any efforts to monitor and 
improve this process at the VA. Even with increases in funding over the 
past few years and positive developments, there still appears to be 
much work to be done in processing claims.

                           Veteran Education

    AUSN was pleased to see passage of one of the most significant 
education bills introduced last year, H.R. 4057, the Improving 
Transparency of Education Opportunities for Veterans Act of 2012, which 
offers a critical first step in ensuring that student Veterans are 
properly informed about their benefits and have proper recourse for 
fraud, waste and abuse. AUSN understands that the VA is already taking 
proactive steps to ensure current service members receive educational 
material through the transition assistance program (TAP) and that 
Veterans who apply for GI Bill benefits are exposed to critical 
information before utilizing this benefit. H.R. 4057 also highlights 
available resources to help GI Bill beneficiaries choose the school 
best meeting their educational needs, as Veterans sometimes fall of 
track towards achieving a higher education. AUSN applauds Congress for 
coming together to help ensure that Veterans and beneficiaries are well 
versed in how to utilize this benefit.
    There have been drastic improvements to education assistance 
provided to our nation's Veterans, which AUSN has been pleased to see 
over the years. The Post-9/11 GI Bill is a magnificent benefit for 
today's Veterans and correcting certain oversights within the bill has 
improved its usage for the more than 606,000 service members, Veterans 
and family members and survivors that it serves. This benefit has 
potential to help shape and mold future leaders, and AUSN opposes any 
efforts to scale back the benefit as a disservice to the men and women 
who have fought in defense of our nation for the last decade.
    Since the VA implemented the Post-9/11 GI Bill, the Department has 
primarily focused on ensuring student Veterans receive timely, accurate 
payments to finance their education. Unfortunately, as more and more 
Veterans sought to take advantage of their earned educational 
opportunities, the VA has stated unequivocally that the system used for 
decades to process Montgomery GI Bill claims would not be able to 
handle the more complex Post-9/11 GI Bill program. Consequently, 
Congress authorized $100 million to develop a new system, what is now 
called the ``Long Term Solution,'' or LTS. The major development effort 
has focused on automating supplemental claims which would comprise the 
bulk of the interactions between the VA, students and schools. This 
decision left original claims relatively un-automated. As a result, an 
original claim still takes about 45 minutes to process, a time little 
changed from 2009. Without making the system and its information more 
accessible to Veterans and schools, the process of filing the claim is 
incomplete. It is very apparent that LTS needs to continue evolving in 
order to handle more complex claims under the new Post-9/11 program. In 
addition, the system still hampers student Veterans from receiving up-
to-date information about their claims and funding they are being 
provided. Student Veterans have stated that to receive funds, and/or 
information, the turnaround time could be as long as 2-5 months, a 
serious time delay, when many schools will require funds by certain 
deadlines. AUSN supports any effort to revise the LTS system in order 
for claims to not only be filed, but fulfilled with an adequate 
response in a timely manner.
    AUSN continues to advocate for legislative solutions for issues 
that arise with Veteran educational assistance and programs which make 
Veterans able to use their benefit with fluid and flexible options. For 
example, AUSN supports H.R. 357 and S. 257, the GI Bill Tuition 
Fairness Act of 2013, introduced by Representative Jeff Miller (R-FL-
01) and Senator John Boozman (R-AR), which would amend title 38, U.S. 
Code, to require courses of education provided by public institutions 
of higher education that are approved for purposes of the educational 
assistance programs administered by the VA to charge Veterans tuition 
and fees at the in-state tuition rate. Many Veterans of the uniformed 
services are unable to use their GI Bill at an institution of higher 
education of their choice, because their permanent residence is in 
another state. As public colleges and universities seek ways to offset 
decreasing revenues, many have significantly raised the costs of out-
of-state tuition. The cap for GI Bill benefits often falls short of 
this high out-of-state rate. Furthermore, because of the nature of 
military service, Veterans and beneficiaries often have a difficult 
time establishing residency for purposes of obtaining in-state tuition 
rates. Circumstances such as these, which oftentimes require individual 
Veterans to live in certain areas, especially during the time when they 
are separated from the uniformed services, pose significant challenges 
to using this important benefit.
    In regards to flexibility, AUSN members, particularly those in the 
Individual Ready Reserve (IRR) have been vocal about the concerns 
regarding flexibility for family member transfer of GI Bill benefits. 
Currently, in regards to Post 9/11 GI Bill benefits (Chap. 33, 38 USC), 
Reserve and Guard GI Bill transfer is based on a commitment to continue 
in the Reserves. This regulation applies to any member of the Armed 
Forces (Active Duty or Selected Reserve, officer or enlisted) on or 
after 1 August 2009 who is eligible for the Post-9/11 GI Bill and has 
at least 6 years of service in the Armed Forces on the date of election 
and agrees to serve 4 additional years in the Armed Forces from the 
date of election and has at least 10 years of service in the Armed 
Forces (Active Duty and/or Selected Reserve) on the date of election 
(precluded by either standard policy (service or DOD) or statute from 
committing to 4 additional years).
    A majority of these servicemembers use their GI Bill benefit prior 
to their enrollment in IRR unless they have come directly off of Active 
Duty into the IRR (as is the case with a few groups of service 
members). Consequently, current law only provides for transfer 
eligibility for ``Selected Reserve'' members. Despite these IRR members 
serving qualifying time for GI Bill benefits completed in either an 
Active Duty or Selected Reserve status, servicemembers that are 
currently in IRR status are ineligible for the transfer option as it 
currently exists. The requirements for transfer of GI Bill benefits 
affect members in the IRR, as there is no ``guarantee'' anyone who 
completes their initial service commitment, could have continued with 
the Reserves past this initial commitment. Also, current Active Duty 
members with no Reserve commitment are also not ``guaranteed'' to join 
the Reserves for six years after leaving 10 years of service. 
Servicemembers transfer to the IRR for a variety of reasons, such as 
civilian jobs, travel commitments and even complex family situations, 
with many staying in that status for several years. AUSN would like to 
see this definition for transferability of the GI Bill benefit expanded 
to include Armed Forces in the IRR.

                              Navy Reserve

Veteran Status for Reservists
    AUSN supports the classification of certain affected groups of our 
Navy Reservists as Veterans of the Armed Forces. Currently, as it 
exists in the U.S. Code, a member of the Reserve Component can 
successfully complete a Guard or Reserve career but not earn the title 
of, ``Veteran of the Armed Forces of the United States,'' unless the 
member has served on Title 10 Active Duty for purposes other than 
training. Currently, Title 38 excludes from the definition of 
``Veteran'' career those Reservists who have not served on Title 10 
Active Duty for other than training purposes. Drill training, annual 
training, Active Duty for training and Title 32 duty are not deemed 
qualifying service to qualify for ``Veteran'' status. For example, the 
service of our Guard and Reserve members in Operation Noble Eagle (ONE) 
would not qualify to earn the status of ``Veterans of the Armed 
Forces'' because it is technically a ``training'' status.
    AUSN applauds the House of Representatives for passing H.R.1025, 
the Honor America's Guard and Reserve Retirees Act, in the 112th 
Congress and sending the bill to the Senate. However, H.R.1025, and its 
Senate companion bill, S. 491, did not see any additional action and an 
amendment to the FY13 NDAA was put on hold, despite its strong support 
amongst the Military Coalition (TMC) and its neutral cost to taxpayers, 
as scored by the Congressional Budget Office (CBO). AUSN was pleased to 
see that the bill was re-introduced in the form of H.R. 679 with a 
bipartisan list of cosponsors including Representatives Tim Walz (D-MN-
01), Jon Runyan (R-NJ-03), Jeff Denham (R-CA-10), Duncan Hunter (R-CA-
50), Tom Latham (R-IA-03), Jim Matheson (D-UT-04) and Nick Rahall (D-
WV-03). H.R. 679 would authorize Veteran status under Title 38 for 
Guard and Reserve members of the Armed Forces who are entitled to a 
non-regular retirement under Chapter 1223 of 10 USC but were never 
called to active Federal service during their careers through no fault 
of their own. Furthermore, the bill was written to explicitly include 
stronger language with a, ``Clarification Regarding Benefits,'' section 
which states that as a result of passage of this bill, no additional 
benefits may be conferred by persons receiving status of `Veterans' 
under this act. This zero-cost bill also has the potential to help 
combat high levels of unemployment amongst the Reserve Component 
community, providing `Veteran' status for them to be hired by employers 
that actively seek Veterans in the workplace.
    Again, H.R. 679 would not bestow any benefits other than the honor 
of claiming Veteran status for those who honorably served and 
sacrificed as career Reserve Component members. AUSN believes that our 
Reserve Component deserve nothing less.

                    Other Veteran Items of Interest

    AUSN is increasingly concerned with the findings of the impact that 
Military Sexual Trauma (MST) is having upon separating servicemembers. 
According to DOD, 19,000 sexual assaults occurred in the military in 
2010, but only about 13 percent of victims reported the attacks. In 
2011, fewer than 8 percent of reported cases went to trial, and fewer 
than 200 attackers were eventually convicted. In recent studies, more 
than 85 percent of all military sexual assaults go unreported, which 
means Veterans have a hard time meeting the burden of proof when 
applying for VA benefits. A Navy Sailor's story, Ms. Ruth Moore, has 
inspired legislative action. Ms. Moore enlisted in the Navy at age 18 
and was the victim of sexual assault twice. Ms. Moore reported the 
attacks, but the attacker was never charged or disciplined, and she was 
later labeled as suffering from mental illness and discharged from the 
Navy. Ms. Moore fought for 23 years to get the benefits she was owed 
after noticing her records were tampered with and that she was even 
diagnosed with a mental illness she did not have. AUSN supports 
legislation by Representative Chellie Pingree (D-ME-01) and Senator Jon 
Tester (D-MT), in the forms of H.R. 671 and S. 294, appropriately 
titled the Ruth Moore Act of 2013, which would amend Title 38 of the 
U.S. Code to improve the disability compensation evaluation procedure 
of the VA for Veterans with mental health conditions related to 
military sexual trauma.

                               Conclusion

    The Association of the United States Navy understands that there 
are difficult decisions ahead in regards to the Continuing Resolution 
(CR) for the remainder of FY13 and the forthcoming FY14 Budget Request. 
A looming concern here at AUSN is the effects of this automatic 
sequestration trigger upon the DOD. AUSN was pleased when DOD military 
personnel accounts and the VA were exempt late last spring from 
sequestration, however there are many factors to be considered that may 
affect Veterans. Many Federal agencies, DOD included, have preferential 
hiring practices for veterans, which currently make up close to 44% of 
DOD's workforce. Sequestration could result in higher unemployment 
numbers amongst the Veteran community. We encourage members of both the 
House and Senate to look at our website which has a daily updated Bills 
of Interest section where we have more legislation that is within our 
priorities that we are tracking on behalf of our members at http://
www.ausn.org/Advocacy/BillsofInterest/tabid/2668/Default.aspx.
    AUSN believes that the Department of Veterans Affairs (VA) and the 
Department of Defense (DOD) are both moving in the right direction, as 
it pertains to their shared commitment to improving the way they care 
for Veterans. Whether looking at modernization of servicemembers' 
health records and fitness reports or the much improved collaboration 
efforts between the two Departments themselves, AUSN is confident that 
the framework these two Departments laid out in the 112th Congress is 
of sound structure and will significantly ease the many hardships our 
brave Veterans now face as we enter the 113th Congress.
    AUSN understands that the VA has, almost since its inception, faced 
a public perception that views it as an Agency filled with incompetency 
and waste. The VA's sole purpose is to lessen the suffering and 
adversities faced by those brave few willing to stand and risk life and 
limb for our nation's ideals and what public perception fails to 
understand is that the very reason for the VA's existence forces the 
Department, at times, to be more reactionary than proactive. We cannot 
see wars coming a decade before they do. Moreover, we cannot predict 
what types of tactics and warfare our enemy will use, and what types of 
wounds we will have to learn how to heal. War has irreversible 
consequences, and the VA is continually adapting to try to reduce these 
consequences as much as possible. AUSN stands ready to be the Voice for 
America's Sailors, abroad and upon their return home, and looks forward 
to working with Congress and the VA on serving our Veterans. Thank you.

                                 <F-dash>
LTG Guy C. Swan, USA Ret., Vice President, Association of the United 
        States Army

    Messrs. Chairmen and Members of the Committees:
    Thank you for the opportunity to present the views of the 
Association of the United States Army (AUSA) concerning veterans' 
issues. Both in personal testimony and through submissions for the 
record there exists a long-standing relationship between AUSA and the 
Senate and House Committees on Veterans' Affairs. We are honored to 
express our views on behalf of our members and America's veterans.
    The Association of the United States Army is a diverse organization 
of almost 100,000 members - active duty, Army Reserve, Army National 
Guard, Department of the Army civilians, retirees and family members. 
An overwhelming number of our members are entitled to veterans' 
benefits of some type. Additionally, AUSA is unique in that it can 
claim to be the only organization whose membership reflects every facet 
of the Army family.
    Each year, the AUSA statement before the committees stresses that 
America's veterans are not ungrateful. Much of the good done for 
veterans in the past would have been impossible without the commitment 
of those who serve on the committees and the tireless efforts of their 
professional and personal staffs.
    The inherently difficult nature of military service has never been 
more self-evident than during the current conflicts. While grateful for 
the good things done for veterans, AUSA reminds our elected 
representatives that we consider veterans benefits to have been duly 
earned by those who have answered the nation's call and placed 
themselves at risk - these are not ``entitlements''.
    AUSA is heartened that Congress has expressed a commitment to 
support America's veterans. Despite this, many are concerned that the 
declining number of veterans in Congress might in some way lessen the 
value this institution places on veterans and their service to the 
nation. We, at AUSA, do not share this opinion. AUSA is confident that 
you - well-intentioned, patriotic men and women - will faithfully 
represent the interests of America's veterans during fiscal 
deliberations.
    As elected representatives, you must be responsible stewards of the 
federal purse because each dollar emanates from the American taxpayer. 
AUSA emphasizes that the federal government must remain true to the 
promises made to her veterans. We understand that veterans' programs 
are not above review, but always remember that the nation must be there 
for the country's veterans who answered the nation's call.
    ``Providing for the common defense'' is Job #1 for Congress and our 
national government. Providing for those who actually execute that task 
should have an equal level of priority for Congress.
    Veterans seldom vote in a block, despite their numbers. This is one 
reason AUSA seeks this forum to speak for its members about veterans' 
issues. Our veterans have lived up to their part of the bargain; the 
Congress must live up to the government's part.
    Those who have volunteered to serve their country in uniform 
deserve educational benefits that support their transition to civilian 
life. AUSA applauds Congress for enacting the Post-9/11 Veterans 
Educational Assistance Act of 2008 and the more recent Post-9/11 
Veterans Improvement Act of 2010. These landmark pieces of legislation 
are helping educate a new generation of veterans by allowing them to 
enroll as a full-time students and to focus solely on education.
    With the Committees' support, the Department of Veterans' Affairs 
has implemented the largest increase in education benefits for our 
fighting men and women since World War II. AUSA has long endorsed a 
21st century GI Bill that is built on the principles of simplicity, 
equity and adequate reimbursement of the cost of education / training. 
As we work to fully realize Congressional intent for the program, AUSA 
believes consideration should be given to having hearings regarding a 
unified architecture for all GI Bill programs for active duty, Guard 
and Reserve under the principle of awarding benefits according to the 
length and type of duty performed.
    Because of Congress' establishment of the Gunnery Sergeant John D. 
Fry Scholarship program, children of an active duty member who died in 
the line of duty after September 10, 2001 are eligible for 
substantially the same benefits as the Post-9/11 GI Bill when they 
reach age 18. However, surviving spouses are eligible only for 
Survivors and Dependents Educational Assistance (DEA) (Chapter 35, 38 
USC) benefits, which for many means college or vocational training is 
unaffordable.
    For college attendance, DEA pays even less than the Montgomery GI 
Bill stretched out over 45 monthly payments (instead of 36 months for 
the MGIB). For full-time college enrollment, a surviving spouse 
receives just $987 per month. When Congress established the Post-9/11 
GI Bill in 2008, it authorized a one-time 20% rate hike to the MGIB, 
but overlooked DEA. Today, the potential total DEA benefit is $44,415 
compared to $56,304 under the MGIB. So surviving spouses receive 
substantially reduced benefits under DEA and are not eligible for a 
housing allowance or book stipend under the program. For many survivors 
with children, college or vocational training is beyond their reach.
    Therefore, AUSA urges Congress to authorize Post-9/11 GI Bill 
benefits for surviving spouses of the current conflict, the same 
educational benefit available to their children under the Gunnery Sgt. 
John D. Fry Scholarships, in lieu of Dependents and Survivors' 
Educational Assistance (DEA) benefits. As an interim measure, if 
resources are not available to raise DEA reimbursement to the Post-9/11 
GI Bill level, authorizing survivors of the current conflicts the Post-
9/11 GI Bill housing allowance and book stipend under DEA.
    Also, AUSA is concerned about the rising unemployment of Army and 
other veterans and believes additional full time counseling staff is 
needed for the Vocational Rehabilitation and Employment (VRE) program 
to support the increasing demand among the rising number of disabled 
veterans. VRE helps equip disabled veterans to transition back into the 
work force.
    AUSA strongly encourages Congress to raise education benefits for 
National Guard and Reserve service members under Chapter 1606 of Title 
10. For years, these benefits have only been adjusted for inflation. 
Currently, Reserve GI Bill benefits have fallen to less than 23 percent 
of the active duty benchmark giving them much less value as a 
recruiting and retention incentive. This also sends a signal to Reserve 
Component personnel that their service is undervalued. Further, a 
transfer of the Reserve MGIB-Select Reserve authority from Title 10 to 
Title 38 will permit proportional benefit adjustments in the future.
    Members of the National Guard called to active duty under Title 32 
in support of the current crisis do not receive veteran's status for 
their active duty military time. Those called to active duty under 
Title 10 do receive veteran's status. Similarly, Army Reserve personnel 
who are not called to active duty can complete a full reserve career 
and yet not be entitled to be called veterans. This inequity must be 
addressed. Your support in allowing Guard and Reserve members to earn 
veterans' status on equal footing with their active duty counterparts 
will send the message that Reserve Component personnel are part of the 
Total Force.
    Veterans' medical facilities must remain expert in the specialties 
which most benefit our veterans. These specialties relate directly to 
the ravages of war and are without peer in the civilian community. We 
are grateful for the significant increase in resources and 
appropriations, as well as the advanced appropriations process, 
provided by the Congress to the veterans' health care. Further, AUSA 
urges members of Congress to sustain the current levels of 
appropriation funding. After 12 years of war and approximately 10,000 
new veterans per month, cuts to veterans' appropriations would be 
unconscionable.
    AUSA applauds the unprecedented and historic legislation which 
authorized the unconditional concurrent receipt of retired pay and 
veterans' disability compensation for retirees with disabilities of at 
least 50 percent and the legislation that removed disabled retirees who 
are rated as 100 percent from the 10-year phase-in period. However, we 
cannot forget about the thousands of disabled retirees left out by this 
legislative compromise. The principle behind eliminating the disability 
offset for those with disabilities over 50 percent is just as valid for 
those 49 percent and below. AUSA urges that the thousands of disabled 
veterans left out of previous legislation be given equal treatment and 
that the disability offset be eliminated completely.
    Another critical area needs to be addressed. For chapter 61 
(disability) retirees who have more than 20 years of service, the 
government recognizes that part of that retired pay is earned by 
service, and part of it is extra compensation for the service-incurred 
disability. The added amount for disability is still subject to offset 
by any VA disability compensation, but the service-earned portion (at 
2.5 percent of pay times years of service) is protected against such 
offset.
    AUSA believes that a member who is forced to retire short of 20 
years of service because of a combat disability must be ``vested'' in 
the service-earned share of retired pay at the same 2.5 percent per 
year of service rate as members with 20+ years of service. This would 
avoid the ``all or nothing'' inequity of the current 20-year threshold, 
while recognizing that retired pay for those with few years of service 
is almost all for disability rather than for service and therefore 
still subject to the VA offset.
    Fortunately, legislation provided in previous defense bills extends 
Combat Related Special Compensation (CRSC) to retirees with less than 
20 years of service with combat or operations-related disabilities. 
Unfortunately, retirees with non-combat disabilities forced to retire 
short of 20 years of service still have to fund their VA compensation 
dollar-for-dollar from their disability retirement from DoD, and this 
year funding of concurrent receipt for these Chapter 61 medical 
retirees is not included in the administration's budget.
    AUSA supports legislation that establishes a presumption of service 
connection for veterans with Hepatitis C (HCV).
    The rules for interment in Arlington National Cemetery (ANC) have 
never been codified in public law. Twice the House has passed 
legislation to codify rules for burial in Arlington National Cemetery. 
However, the legislation has not passed in the Senate. AUSA supports a 
negotiated settlement of differences between the House and Senate 
concerning codification of rules for burial in Arlington National 
Cemetery. Further, ``gray area'' reservists eligible for military 
retirement should be included among those eligible for interment at 
Arlington National Cemetery.
    AUSA appreciates the help of the Veterans Administration in 
modernizing the records keeping and oversight of Arlington National 
Cemetery, but strongly urges that its administration should remain in 
control of the United States Army.
    AUSA remains opposed to the imposition of an annual deductible on 
veterans already enrolled in VA health care and any increase in the co-
payment charged to many veterans for prescription drugs. AUSA urges 
Congress to continue to oppose such fees.
    AUSA supports continuing congressional efforts to help homeless 
veterans find housing and other necessities, which would allow them to 
re-enter the workforce and become productive citizens.
    Much more needs to be done to ensure that returning combat 
veterans, as well as all other service men and women who complete their 
term of service or retire from service receive timely access to VA 
benefits and services. This issue encompasses developing and deploying 
an interoperable, bi-directional and standards-based electronic medical 
record; a ``one-stop'' separation physical supported by an electronic 
separation document (DD-214); benefits determination before discharge; 
sharing of information on occupational exposures from military 
operations and related initiatives. AUSA strongly recommends 
accelerated efforts to realize the goal of ``seamless transition'' 
plans and programs and is deeply disappointed that the leadership of 
the VA and DoD have retreated for the total systems integration that is 
represented by ``iEHR''.
    We encourage other positive steps toward mutual cooperation taken 
recently by the Department of Defense (DOD) and the VA. The closer we 
can come to a seamless flow of a servicemember's personnel and health 
files from service entry to burial, the more likely it will be that 
former service members receive all the benefits to which they are 
entitled. AUSA supports closer DOD-VA collaboration and planning 
including billing, accounting, IT systems, patient records, but not 
total integration of facilities nor of VA/DOD healthcare systems.
    AUSA strongly supports preservation of dual eligibility of 
uniformed service retirees for VA and DOD healthcare systems. We 
applaud Congress' opposition to ``forced choice'' in the past and 
encourage you to hold the line in the future.
    AUSA recognizes that progress is being made in reducing the 
unacceptably high numbers of backlogged disability claims. The key to 
sustained improvement in claims processing rests on adequate funding to 
attract and retain a high quality workforce to match the introduction 
of advanced technology into the VA information management system.
    Finally, while AUSA acknowledges and understands the remarkable 
achievements of drone pilots and cyberwarriors during the past decade 
of war, it joins with many veterans and other military-related 
organizations in urging that the level of precedence of the new 
Distinguished Warfare Medal be adjusted so that it is below the the 
Bronze Star or the Purple Heart in order to preserve the integrity and 
prestige associated with these awards.
    The committees safeguard the treatment of America's veterans on 
behalf of the nation. AUSA knows that you take this responsibility 
seriously and treat this privilege with the gratitude and respect it 
deserves. Although your tenure is temporary, the impact of your actions 
lasts as long as this country survives and affects directly the lives 
of a precious American resource - her military veterans. As you make 
your decisions, please do not forget the commitment made to America's 
veterans when they accepted the challenges and answered the nation's 
call to serve.
    Thank you for the opportunity to submit testimony on behalf of the 
members of the Association of the United States Army, their families, 
and today's soldiers who are tomorrow's veterans.

                                 <F-dash>
Joseph A. Vater, Jr., Esq. (PA), President, ADBC Memorial Society

    Chairmen Sanders and Miller, Ranking Members Burr and Michaud, 
Members of the Senate and House Veterans Affairs Committees, thank you 
for allowing us to present the concerns of veterans of World War II's 
Pacific Theater to Congress. The American Defenders of Bataan and 
Corregidor (ADBC) Memorial Society represents surviving POWs of Japan, 
their families, and descendants.
    In 2009, the Government of Japan belatedly recognized the 
extraordinary abuse suffered by the American POWs of Japan. An official 
apology was offered by the Japanese Ambassador to the United States and 
a course of reconciliation established called the POW/Japan Friendship 
Program.
    Imagine our dismay when we learned that the new Japanese Prime 
Minister, Shinzo Abe, may rescind Japan's war apologies. We naturally 
worry that the reconciliation effort, the POW/Japan Friendship Program, 
is also in jeopardy. Although our membership was, understandably, 
divided on the value of the 2009 apology, a repudiation of the apology 
and cessation of the popular visitation program would send an 
unambiguous message of disrespect to the former POWs and harm the U.S.-
Japan Alliance.
    The U.S. State Department's involvement was vital to the effort to 
obtain the apology and to establish the visitation program. It is our 
hope that Congress will work with the Obama Administration to persuade 
Japan to hold to its promises and responsibilities. Japan needs to be 
encouraged to do more.
    As way of background, it was at the final convention of the 
American Defenders of Bataan and Corregidor (ADBC) in May 2009 that the 
Government of Japan through the Japanese Ambassador to the U.S., Ichiro 
Fujisaki, and then again in 2010 through its Foreign Minister, Katsuya 
Okada, offered the American POWs of Japan an official apology:

    We extend a heartfelt apology for our country having caused 
tremendous damage and suffering to many people, including prisoners of 
wars, those who have undergone tragic experiences in the Bataan 
Peninsula, Corregidor Island, in the Philippines, and other places.

    The Japanese Government followed up the apology by initiating a 
provisional program for American former POWs to visit Japan and return 
to the places of their imprisonment and slave labor. Nearly all the 
original Japanese companies that used POW slave labor still exist and 
often continue to operate facilities at the same sites associated with 
their assigned POW camps. Thus far, there have been three trips: 2010, 
2011, and 2012.
    It concerns us that the Abe Administration wants to limit the 
program to former POWs and possibly end the program this year. Widows, 
children, and other descendants have also been profoundly affected by 
the POW experiences of their relatives and they should be included in 
future programs. We are concerned about how little Japan's Ministry of 
Foreign Affairs has publicized the program's accomplishments and 
goodwill. We are troubled that some Japanese companies have refused to 
allow our nonagenarian POWs to visit the sites of their imprisonment 
and slave labor.
    The success of the POW/Japan Friendship Program should encourage 
Japan to do more.
    Still we wait for Japan's great multi-national corporations to 
acknowledge their use and abuse of POW labor. Still we wait for Japan 
to create national memorials to the POWs who slaved and died on 
Japanese soil. Still we wait for memorials for American POWs who died 
on Japan's Hellships and in occupied territories outside Japan such as 
Taiwan, Northeast China, Wake Island, and Guam. And still we wait for 
Japan to establish a fund to continue this visitation program and to 
include research, documentation, people-to-people exchanges, and 
promotion of human rights.
    We want to see the trips to Japan continued and to include widows, 
descendants, and researchers. We want the visitation program to be 
turned into a permanent program not subject to the Japanese 
government's yearly budget review.
    Prime Minister Abe is in a unique position to extend and enhance 
this visitation program. Two of his Cabinet members have family ties to 
companies that used POW slave labor during the war.
    By showing his government's acknowledgement of the pain inflicted 
on soldiers of what is now Japan's closest ally, the United States, 
Prime Minister Abe can strengthen bilateral relations at a fundamental 
level. It would engender trust among the Americans tasked with 
protecting Japan by honoring their veterans, and would signal to 
Japan's other wartime victims that meaningful reconciliation is 
possible.
    As you can see from this sampling of impressions by former POWs of 
their trip to Japan, it has brought closure and peace of mind to those 
who participated:

    This program has really helped my Dad [Harold Bergbower, Past 
National Commander, ADBC]. For years, Dad would have nightmares after 
any talk, show, or sometimes just because of his years as a POW. Since 
our visit his nightmares have gone. I cannot really put in words what 
that day at the Japanese Factory in Takaoka, Toyama, Japan did. He has 
not forgotten or totally forgiven but there is now a peace to his 
remembrance. If you are able please consider participating in this 
program. My Dad's memory is failing on his daily activities but he 
continues to recall his trip to Japan. Now when he talks about his POW 
experience he can now add closure. The audience is amazed at his story. 
I was honored to go with Dad to Japan. If you are a descendant please 
talk with your parent about the program. It truly is a life changer.
    Mr. James Collier later reflected on the trip to Takaoka, whose 
natural beauty he had never recognized while being a POW: ``After 
meeting the kind people at JMC and after observing the beautiful 
surroundings of the city, I realized that I had been robbed of the 
opportunity of truly knowing this place for the past 66 years. Takaoka 
had always remained as a dark and depressing place in my mind. Yet this 
visit has finally afforded me the opportunity to appreciate its 
beauty.''

    Mr. Roy Friese met up with Mr. Kensuke Morooka, Representative of 
the Association for Recording Air Raids of Omuta. His family home was 
completely destroyed in the fire-bombing of June 18, 1945. ``I remember 
I saw POWs when I was a boy of thirteen. The skeletal POWs were crammed 
upright into trucks,'' he told Mr. Friese as they shook hands. ``The 
facts of sixty-six years ago should never be forgotten. But instead of 
animosity, we have to hold onto our belief that stupid wars should 
never happen again,'' said Mr. Morooka. ``I had felt various prejudices 
but they are all gone now,'' said Mr. Friese as he left the POW camp 
site.

    More observations by former POWs who have participated in the POW/
Japan Friendship Program are on the Outreach section of our website at 
www.dg-adbc.org. The program is a tangible benefit of the 
acknowledgement by Japan of some of Imperial Japan's injustices.
    We are grateful for the State Department's recent efforts to 
encourage the Japanese government to do the right thing by initiating a 
process of reconciliation. The irony is that in 1995 the Japanese 
government established a program of reconciliation and exchange for all 
former Allied POWs with the exception of American POWs. We hope that 
Congress will now encourage the State Department to continue to make up 
for lost opportunities and time.
    We ask for Congress and the Obama Administration to insist that 
Japan maintain its visitation program for former POWs and expand this 
remarkable program to include family members, to initiate a plan to 
preserve their history, and support for human rights education.
    Thank you for this opportunity to address your committees.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
